<html>
<title> - HURRICANE KATRINA: THE ROLES OF U.S. DEPARTMENT OF HOMELAND SECURITY AND FEDERAL EMERGENCY MANAGEMENT AGENCY LEADERSHIP</title>
<body><pre>[Senate Hearing 109-829]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 109-829

                  HURRICANE KATRINA: THE ROLES OF U.S.
                  DEPARTMENT OF HOMELAND SECURITY AND
                      FEDERAL EMERGENCY MANAGEMENT
                           AGENCY LEADERSHIP

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               ----------                              

                           FEBRUARY 10, 2006

                               ----------                              

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs

 HURRICANE KATRINA: THE ROLES OF U.S. DEPARTMENT OF HOMELAND SECURITY 
           AND FEDERAL EMERGENCY MANAGEMENT AGENCY LEADERSHIP

                                                        S. Hrg. 109-829

                  HURRICANE KATRINA: THE ROLES OF U.S.
                  DEPARTMENT OF HOMELAND SECURITY AND
                      FEDERAL EMERGENCY MANAGEMENT
                           AGENCY LEADERSHIP

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 10, 2006

                               __________

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs


                    U.S. GOVERNMENT PRINTING OFFICE
27-029                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

           Michael D. Bopp, Staff Director and Chief Counsel
                   David T. Flanagan, General Counsel
                        Asha A. Mathew, Counsel
                       Jonathan T. Nass, Counsel
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
                Robert F. Muse, Minority General Counsel
                  Mary Beth Schultz, Minority Counsel
                   Beth M. Grossman, Minority Counsel
                  Trina Driessnack Tyrer, Chief Clerk


                           C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Collins..............................................     1
    Senator Lieberman............................................     3
    Senator Stevens..............................................    12
    Senator Coleman..............................................    19
    Senator Akaka................................................    23
    Senator Bennett..............................................    26
    Senator Lautenberg...........................................    29
    Senator Warner...............................................    31
    Senator Dayton...............................................    36
    Senator Pryor................................................    40
Prepared statement:
    Senator Voinovich............................................    81

                               WITNESSES
                       Friday, February 10, 2006

Hon. Michael D. Brown, Former Under Secretary for Emergency 
  Preparedness and Response, and Director, Federal Emergency 
  Management Agency, U.S. Department of Homeland Security........     8
Patrick J. Rhode, Former Acting Deputy Director and Chief of 
  Staff, Federal Emergency Management Agency, U.S. Department of 
  Homeland Security..............................................     8
Colonel Robert B. Stephan, (USAF, Retired), Assistant Secretary 
  for Infrastructure Protection, U.S. Department of Homeland 
  Security.......................................................    57
Brigadier General Matthew Broderick, Director for Operations 
  Coordination, U.S. Department of Homeland Security.............    61

                     Alphabetical List of Witnesses

Broderick, Brigadier General Matthew:
    Testimony....................................................    61
    Prepared statement...........................................    94
Brown, Hon. Michael D:
    Testimony....................................................     8
Rhode, Patrick J.:
    Testimony....................................................     8
    Prepared statement...........................................    82
Stephan, Colonel Robert B.:
    Testimony....................................................    57
    Prepared statement...........................................    85

                                APPENDIX

Post-hearing questions and responses for the Record from:
    Mr. Brown....................................................   101
    Mr. Broderick................................................   109
``Combined Catastrophic Plan for Southeast Louisiana and the New 
  Madrid Seismic Zone, Scope of Work, FY2004,'' Submitted by 
  Senator Pryor..................................................   110
Documents submitted for the Record from Mr. Brown................   132
Exhibit Q........................................................   206
Exhibit 1........................................................   299
Exhibit 2........................................................   304
Exhibit 6........................................................   332
Letter from Harriet Miers, Counsel to the President, submitted by 
  Senator Collins................................................   334
Exhibit S........................................................   335

 
 HURRICANE KATRINA: THE ROLES OF U.S. DEPARTMENT OF HOMELAND SECURITY 
           AND FEDERAL EMERGENCY MANAGEMENT AGENCY LEADERSHIP

                              ----------                              


                       FRIDAY, FEBRUARY 10, 2006

                                       U.S. Senate,
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:36 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Susan M. 
Collins, Chairman of the Committee, presiding.
    Present: Senators Collins, Stevens, Coleman, Bennett, 
Warner, Lieberman, Akaka, Dayton, Lautenberg, and Pryor.

             OPENING STATEMENT OF CHAIRMAN COLLINS

    Chairman Collins. The Committee will come to order.
    Good morning. Today, in our 18th hearing on Hurricane 
Katrina, the Committee will examine how the Department of 
Homeland Security and FEMA coordinated and led the Federal 
preparations for and response to Hurricane Katrina.
    Our first panel this morning consists of Michael Brown and 
Patrick Rhode, who were FEMA's Director and Acting Deputy 
Director in the days leading up to and following the storm.
    As Katrina neared the Gulf Coast, Mr. Brown dispatched to 
Louisiana, leaving Mr. Rhode as the top ranking official at 
FEMA headquarters. Today we will discuss their leadership at 
the agency during this enormously challenging period.
    Our second panel consists of two senior officials at the 
Department of Homeland Security headquarters. Robert Stephan is 
the Assistant Secretary for Infrastructure Protection and one 
of the chief architects of the National Response Plan.
    Matthew Broderick runs the Department's Homeland Security 
Operations Center, which serves as the eyes and ears of top DHS 
officials, particularly during times of crisis.
    Secretary Chertoff relied heavily on Mr. Stephan and Mr. 
Broderick during Katrina's aftermath. We will discuss their 
roles and their views of FEMA from the top of the 
organizational chart.
    Our panels today separate witnesses from a Federal agency, 
FEMA, from those of its parent organization, DHS. The 
separation is deliberate. It reflects, in part, the differing 
perspectives on Katrina that we have heard consistently from 
officials of the two entities. It also reflects tensions 
between the two that predate the storm--tensions over 
resources, roles, and responsibilities within the Department.
    This tension is clear in Mr. Brown's response when 
Committee investigators asked him why FEMA was not better 
prepared for Katrina. Mr. Brown responded ``its mission had 
been marginalized. Its response capability had been diminished. 
There's the whole clash of cultures between DHS's mission to 
prevent terrorism and FEMA's mission to respond to and to 
prepare for responding to disasters of whatever nature.''
    By almost any measure, FEMA's response to Katrina has to be 
judged a failure. I must say that I have come to this 
conclusion with a sense of remorse because I've been struck 
throughout this investigation by the extraordinary efforts of 
many FEMA professionals in the field as well as some FEMA and 
DHS officials at headquarters who literally worked around the 
clock to try to help bring relief to the people in the Gulf 
States.
    But the response was riddled with missed opportunities, 
poor decision making, and failed leadership.
    The responsibility for FEMA's and, for that matter, the 
Department's failed response is shared. While DHS's playbook 
appears designed to distance the Department's leaders and 
headquarters as much as possible from FEMA, the Department's 
leaders must answer for decisions that they made or failed to 
make that contributed to the problems.
    One problem that manifested itself in a variety of ways was 
the Department's lack of preparedness for the Katrina 
catastrophe. Instead of springing into action or, better yet, 
acting before the storm made landfall, the Department appears 
to have moved haltingly. And as a result, key decisions were 
either delayed or made based on questionable and, in some 
cases, erroneous assumptions.
    The day after the storm, for example, Secretary Chertoff 
named Michael Brown as the lead Federal official for the 
response effort. At the same time, the Secretary declared 
Hurricane Katrina an incident of national significance, which 
is the designation that triggers the National Response Plan. 
The National Response Plan, in turn, is the comprehensive 
national roadmap that guides the Federal response to 
catastrophes.
    The Secretary's action led many to question why the 
incident of national significance declaration had not been made 
earlier. But in reality, the declaration itself was meaningless 
because by the plain terms of the National Response Plan 
Hurricane Katrina had become an incident of national 
significance 3 days earlier when the President declared an 
emergency in Louisiana.
    The lack of awareness of this fundamental tenet of the 
National Response Plan raises questions about whether DHS 
leadership was truly ready for a catastrophe of this magnitude, 
and I think it helps explain the Department's slow, sometimes 
hesitant, response to the storm.
    Similarly, we will learn today that FEMA's leaders failed 
to take steps that they knew could improve FEMA's ability to 
respond more effectively and quickly to a catastrophe. In the 
year or so preceding Katrina, Mr. Brown was presented with two 
important and highly critical assessments of FEMA's structure 
and capabilities. Both included recommendations for 
improvement.
    The first was a memorandum produced by a cadre of FEMA's 
top professional operatives known as the Federal Coordinating 
Officers. Among other things, the memo warns of unprepared 
emergency response teams that had no funding, zero funding, for 
training, exercises, or equipment.
    The other was a study conducted by the Mitre Corporation of 
FEMA's capabilities. The study, commissioned by Mr. Brown, was 
designed to answer such questions as what's preventing FEMA 
from responding and recovering as quickly as possible. The 
Mitre study is eerily predictive of the major problems that 
would plague the response to Hurricane Katrina. The study 
points out a ``lack of adequate and consistent situational 
awareness across the enterprise,'' a prediction that became 
reality when you look at all of the missed opportunities to 
respond to the levee breaks; an ``inadequate ability to control 
inventory and track assets,'' which we saw that over and over 
again with essential commodities not reaching the destination 
in time; and undefined and misunderstood ``standard operating 
procedures.''
    Despite this study, key problems were simply not resolved 
and, as a result, opportunities to strengthen FEMA prior to 
Katrina were missed.
    As this Committee winds down its lengthy series of hearings 
and more than 5 months of investigations into the preparedness 
for and response to Hurricane Katrina, we increasingly reflect 
upon what can be learned from the thousands of facts we have 
gathered. One thing that I have found is a strong correlation 
between effective leadership and affective response. 
Unfortunately, I have also found the converse to be true.
    Senator Lieberman.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Senator Lieberman. Thank you, very much, Madam Chairman.
    Thanks not only for your excellent opening statement, but 
thanks also for the leadership that you have given this 
investigation over 5 months and now almost 20 public hearings. 
In this now my 18th year privileged to be a Member of the U.S. 
Senate, I've not been in a more thorough nonpartisan and I'd 
say important investigation. I thank you for setting the tone 
and showing exactly the leadership that you just described in 
another sense.
    And I thank our joint staff for the extraordinary work that 
they have done interviewing more than 200 witnesses, compiling 
and obtaining hundreds of thousands of documents.
    Today and Tuesday, we're going to hear directly from the 
top leadership of both the Federal Emergency Management Agency 
and its parent, the Department of Homeland Security. Our 
hearings are now reaching the concluding phase. To date I think 
these hearings have set--the previous hearings have set the 
stage for the panels we're going to hear today and Tuesday. 
We've broken much new ground, and today and Tuesday we have 
some tough and important questions to ask.
    In my opinion, our investigation has shown a gross lack of 
planning and preparation by both the Department of Homeland 
Security and FEMA. And that guaranteed that the response to 
Hurricane Katrina, or for that matter any other catastrophe 
that might have happened, was doomed to be uncoordinated, 
inadequate, and therefore more damaging than it should have 
been.
    We have heard from a large number of witnesses who have 
spoken of the full range of failures during Katrina. We have 
learned of one failure after another in evacuation, search and 
rescue, law and order, emergency medical treatment, and 
deployment of assets.
    And we have learned that the Federal Government was simply 
not prepared to overcome these predictable challenges in this 
predictable and predicted hurricane. Even those responsible 
acknowledge that they did not meet the desperate needs of the 
people of the Gulf Coast.
    FEMA and DHS officials have told us that in interviews and 
testimony and in evidence gathered by our staff. I want to read 
just a few of those statements that are on that chart.
    From Michael Lowder, FEMA's Deputy Director of Response, 
who in an August 27, 2005, e-mail 2 days before Katrina hit 
landfall said, ``If this is the New Orleans scenario''--which 
was the way they described the big hurricane arriving--``we are 
already way behind.''
    From Scott Wells, a FEMA Federal Coordinating Officer, 
``This was a catastrophic disaster. We don't have the 
structure. We don't have the people for catastrophic disaster. 
It's that simple.''
    From FEMA Federal Coordinating Officer Bill Lokey, the top 
man for FEMA in Louisiana, ``Communications and coordination 
was lacking. Pre-planning was lacking. We were not prepared for 
this.''
    From former FEMA Director Michael Brown, who we'll be 
hearing from today, when asked the question, ``Before Katrina, 
was FEMA ready for this kind of catastrophe?'' Mr. Brown said 
simply and directly, ``I don't think so.''
    And finally from Secretary Chertoff, who we will hear from 
Tuesday, ``But I also think Katrina tested our planning and our 
planning fell short.''
    The fact is that when DHS, the Department of Homeland 
Security, was created in 2002 in the aftermath of the terrorist 
attacks of September 11, 2001, I said, and I know that I spoke 
for most Members of Congress, that I hoped to see a 
coordinated, consolidated, and accountable Department of 
Homeland Security. In this investigation, unfortunately, we 
have seen so little effective coordination and consolidation 
that we must hold the Department of Homeland Security 
accountable and ask urgently that it do a lot better.
    We hoped that the Department would quickly evolve into a 
world-class agency that had the planning, personnel, and 
materials in place to respond swiftly and effectively in a 
disaster, natural or terrorist. Katrina showed us that the 
Department of Homeland Security has a lot of work to do on 
itself.
    Despite ample warnings that New Orleans is a bowl covered 
by inadequate levees that would be overtopped or breached in a 
big hurricane, despite the specific warnings of the mock 
Hurricane Pam exercise done a year before Katrina hit that 
government at all levels was unprepared to protect New Orleans 
from the expected big hurricane, and despite the specific 
mentions of emergency preparedness and rescue responsibilities 
in the National Response Plan of January 19, 2005, the fact is 
when Katrina hit America's Government was largely unprepared to 
protect the people of the Gulf Coast.
    Nature hit New Orleans hard but also gave its people a 
break by hitting hardest 15 miles to the east. Because of the 
failure to effectively evacuate the poor and infirm who could 
not evacuate themselves, if Katrina had hit New Orleans head on 
the death toll probably would have been in the tens of 
thousands, as the Hurricane Pam exercise had predicted.
    Here are a few things that came to pass. In the days before 
the storm, FEMA failed to pre-stage personnel in New Orleans, 
other than a single public affairs employee, or move adequate 
amounts of crucial supplies of food, water, and medical 
supplies to the scene.
    The Department of Homeland Security failed to implement the 
catastrophic incident annex to the National Response Plan early 
enough, which would have triggered a more aggressive timely 
Federal response.
    The Department of Homeland Security failed to develop an 
effective plan to maintain accurate situation assessments at 
the Homeland Security Operations Center, which was set up to be 
the Nation's nerve center during a disaster. That failure led 
to the ignoring of reports that the levees were being breached 
and overtopped and that the city had flooded with people 
already trapped in attics and on rooftops.
    FEMA was late in bringing in search and rescue teams and 
then pulled them out for security reasons, even though other 
agencies continued to stay and do search and rescue.
    DHS failed to stand up until the day after landfall the 
Interagency Incident Management Group, that senior level 
interagency group charged with helping to coordinate the 
Federal response to a catastrophe that was required once the 
President declared an emergency on Saturday morning.
    Yesterday we heard from General Bennett C. Landreneau of 
the Louisiana National Guard who told us that the buses 
promised by FEMA before the storm for post-landfall evacuation 
and then at different points again on Monday, Tuesday, and 
Wednesday after the storm did not arrive until Thursday, and 
that delay unfortunately contributed to the human suffering 
that the world saw at the Superdome and the convention center. 
All those mistakes meant time was lost and lives were 
threatened or lost.
    Time is, obviously, everything in a crisis like Katrina or 
in, God forbid, a terrorist attack. New Orleans Police 
Department Superintendent Riley told us that earlier this week, 
and he's right. People were drowning in flooded streets and 
yards, breaking onto their rooftops with axes to await rescue, 
starving in attics, and feeling that they had been abandoned 
and losing all hope as their ventilators and medical support 
systems failed for lack of power. Those lucky enough to escape 
made it to the Superdome or Convention Center, and we all saw 
the grim pictures of human neglect there.
    Because timing and situational awareness is so central to 
the response to every catastrophe, today's hearing is going to 
look at what the most senior officials in the Federal 
Government knew about the flooding of New Orleans and the 
breaking of the levees and when they knew it. A little less 
than a week after Katrina made landfall Secretary Chertoff 
said, ``It was on Tuesday that the levee, it may have been 
overnight Monday to Tuesday, that the levee started to break. 
And it was midday Tuesday that I became aware of the fact that 
there was no possibility of plugging the gap and that 
essentially the lake was going to start to drain into the city. 
I think that second catastrophe really caught everybody by 
surprise.''
    We're going to talk to Secretary Chertoff about that next 
Tuesday. Today we will ask some of his senior staff how the 
news media, including a New Orleans radio station early Monday 
morning, numerous Federal agencies, and the American Red Cross 
could be aware of growing and catastrophic floods in New 
Orleans all day Monday, August 29, the day of landfall, while 
the leadership of the Department of Homeland Security 
responsible for disaster response somehow didn't know about it.
    In our exhibit book we have Exhibit Q \1\ that details more 
than 25 reports of flooding, levee breaches, and desperate 
citizens seeking refuge from rising floodwaters that began 
coming in as early as 8:30 a.m. on Monday, August 29. A 
selection of them are shown on the boards here to my left. They 
include, at 9:14 a.m., the National Weather Service issues a 
flash flood warning reporting ``that a levee breach occurred 
along the Industrial Canal at Tennessee Street. Three to eight 
feet of water is expected due to the breach.''
---------------------------------------------------------------------------
    \1\ Exhibit Q appears in the Appendix on page 205.
---------------------------------------------------------------------------
    Then 2 hours later at 11:13, the White House Homeland 
Security Council issues a report that says in part, ``Flooding 
is significant throughout the region and a levee in New Orleans 
has reportedly been breached, sending six to eight feet of 
water throughout the Ninth Ward area of the city.''
    The Homeland Security's operations center reports that 
``Due to rising water in the Ninth Ward, residents are in their 
attics and on their roofs.'' That's a quote from White House 
Homeland Security Council at 11:13.
    Then at 8:34 in the evening, Monday, the Army Corps of 
Engineers issued a situation report that ``there is flooding in 
St. Bernard Parish with reports of water up to the roofs of the 
homes.'' And that ``all Jefferson and Orleans Parish pumping 
stations are inoperable as of 29 August.''
    Finally, Marty Bahamonde, I believe our first witness, 
certainly one of the first witnesses last fall before the 
Committee, the FEMA employee who Director Brown, I believe, had 
dispatched to New Orleans, was there early, testified that he 
had taken a flight on a Coast Guard helicopter over New Orleans 
at approximately 6:30 p.m. Eastern time. A report from 10:30 
p.m. Monday night that ``there is a quarter-mile breach in the 
levee near the 17th Street Canal about 200 yards from Lake 
Pontchartrain allowing water to flow into the city, an 
estimated two-thirds to 75 percent of the city is underwater. 
Hundreds of people were observed on the balconies and roofs of 
a major apartment complex in the city. A few bodies were seen 
floating in the water and the Coast Guard pilots also reported 
seeing bodies but there are no details on locations.'' That's 
the end of the report from Marty Bahamonde.
    He took this picture that afternoon, and it shows a great 
American city underwater, and still somehow the highest 
officials at the Department of Homeland Security and perhaps at 
the White House were under the impression as Monday, August 29, 
ended that the city had dodged a bullet.
    Madam Chairman, we've got to ask some tough questions today 
because we've got to have answers if we're to make the changes 
that we all want to make at DHS. In the early aftermath of the 
Hurricane Katrina debacle, former FEMA Director Michael Brown 
was singularly blamed for the inadequate Federal Government 
response. Our investigation confirms, in my opinion, in fact 
that Mr. Brown did not do a lot of what he should have done. 
But he was not alone. In fact, there was a massive failure by 
government at all levels and by those who lead it to prepare 
and respond as they had a responsibility to do.
    In the case of the Federal Government response to Katrina, 
with the exceptions, proud exceptions, of the National Weather 
Service and the U.S. Coast Guard, there was a shocking, 
consequential and pervasive lack of preparation, response, and 
leadership.
    Mr. Brown, I understand that you are prepared this morning 
to answer our questions fully and truthfully. I appreciate that 
very much. I thank you for it. In doing so, I believe you will 
be serving the public interest and this Committee's nonpartisan 
interest in finding out exactly why the Federal Government 
failed so badly in its preparations and response to Hurricane 
Katrina so that together we can make sure it never happens 
again.
    Katrina has passed, but the clock is reset and ticking 
again. We know that we will have to respond to another 
disaster, natural or terrorist. We cannot and will not let the 
clock run out on us again.
    Thank you very much.
    Chairman Collins. Thank you Senator. Thank you for your 
generous comments.
    Our first witness panel this morning includes the top two 
FEMA leaders at the time of Hurricane Katrina's landfall. 
Michael Brown was the Director of the Federal Emergency 
Management Agency, known as FEMA, from March 2003 until he 
resigned from that position in September 2005.
    Patrick Rhode was Chief of Staff at FEMA from April 2003 
until recently. At the time of Hurricane Katrina Mr. Rhode was 
also serving as the Acting Deputy Director of FEMA. Soon after 
that he returned to his former position as Chief of Staff.
    I would ask that the witnesses rise so I can administer the 
oath.
    Do you swear that the testimony you are about to give to 
the Committee will be the truth, the whole truth, and nothing 
but the truth, so help you, God?
    Mr. Brown. I do.
    Mr. Rhode. I do.
    Chairman Collins. Thank you.
    Mr. Brown, I understand that you have some brief remarks 
that you would like to make.

TESTIMONY OF THE HON. MICHAEL D. BROWN, FORMER UNDER SECRETARY 
 FOR EMERGENCY PREPAREDNESS AND RESPONSE AND DIRECTOR, FEDERAL 
   EMERGENCY MANAGEMENT AGENCY, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Brown. I do, Chairman Collins. Thank you.
    In 1989, a congressman wrote a letter to the Washington 
Times. That letter said that there is a fatal flaw if we 
separate preparedness from response. That Congressman's name 
was Tom Ridge. We reached that fatal flaw in 2003 when FEMA was 
folded into the Department of Homeland Security. I would 
encourage the Committee to look at a 1978 study done by the 
National Governors Association in which--I'll quote very 
briefly--``as the task of the projects were pursued, it became 
evident that the major finding of this study is that many State 
emergency operations are fragmented. This is not only because 
uncoordinated Federal programs encourage State fragmentation, 
but because a strong relationship of long-term recovery and 
mitigation of future disasters must be tied to preparedness and 
response for more immediate disasters and that is not always 
adequately understood.''
    Madam Chairman, I tell you that what occurred after FEMA 
was folded into the Department of Homeland Security, there was 
a cultural clash which didn't recognize the absolute inherent 
science of preparing for disaster, responding to it, mitigating 
against future disasters, and recovering from disasters. And 
any time that you break that cycle of preparing, responding, 
recovering, and mitigating, you're doomed to failure. And the 
policies and the decisions that were implemented by DHS put 
FEMA on a path of failure. And I think the evidence that we'll 
have before you today will show the actions that were taken 
that caused that failure, and I beg this Committee to take 
corrective action to fix that so these disasters don't occur in 
the future. Thank you.
    Chairman Collins. Mr. Rhode.

TESTIMONY OF PATRICK J. RHODE,\1\ FORMER ACTING DEPUTY DIRECTOR 
 AND CHIEF OF STAFF, FEDERAL EMERGENCY MANAGEMENT AGENCY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Rhode. Good morning, Madam Chairman, Senator Lieberman, 
Senators. I would like to make a very brief opening statement, 
if I could.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Rhode appears in the Appendix on 
page 82.
---------------------------------------------------------------------------
    My name is Patrick Rhode. I served as Chief of Staff of the 
Federal Emergency Management Agency, part of the Department of 
Homeland Security, from April 2003 until January 2006. I served 
under both former Director Brown and the current Acting 
Director David Paulison. I'm happy to be appearing before you 
today voluntarily as you continue your important work in 
reviewing the collective governmental response to Hurricane 
Katrina and assessing possible changes in emergency management.
    At the outset, I would like to observe, if I could, that 
Hurricane Katrina was a truly catastrophic event. It was an 
American tragedy on numerous levels. The magnitude of the 
disaster was unlike anything we had previously faced as a 
Nation. The storm compromised 90,000 square miles of the U.S. 
Gulf Coast, an area almost the size of Great Britain.
    On the professional level of emergency management, it was 
unprecedented. On the personal level, my heart went out to 
those who were suffering, and indeed, my heart still goes out 
to those who continue to deal with the aftermath of Katrina.
    Many people in the emergency management community, 
including myself, tried to do the very best they could under 
very difficult circumstances. The dedicated public servants 
working on this issue at the Federal, State, and local level 
were doing their very best to help as many people as they could 
under the existing framework for emergency management.
    As in all things, there are lessons to be learned from this 
experience. I hope that these hearings will produce just such 
learning and lead to the creation of new legislation that can 
improve on the current system of disaster management. If we can 
apply those lessons so as to make things better for the next 
emergency situation, I want to do all that I can to contribute 
appropriately to that effort.
    As you know, in addition to appearing here today 
voluntarily, I have fully cooperated with your staffs by 
participating willingly in several interviews with them. In 
addition, I would like respectfully to note that any statements 
I offer today in response to questions about how to improve the 
emergency management system are the opinions of one private 
citizen. As I sit before you today, I am no longer a government 
employee but have returned to private life with my wife and 6-
month-old daughter. I do not and cannot speak for FEMA. 
Anything I have to offer is my own personal opinion for 
whatever the Committee may deem it to be worth. And I want to 
take care to be clear that it does not reflect the official 
views of the agency or the Federal Government.
    In short, I applaud the Committee for taking on the 
challenges of assessing what kind of support is needed for and 
what changes should be made to the country's emergency 
management system. I am hopeful that together we can contribute 
to enhancements and improvements that best assist disaster 
victims in the future.
    With that, I welcome any questions or comments you may 
have.
    Chairman Collins. Thank you, Mr. Rhode.
    Mr. Brown, in my opening statement I mentioned a study that 
you commissioned from the Mitre Corporation. It's under Exhibit 
2 in the exhibit book.\1\ Mitre Corporation gave you its 
findings on March 2005, and I'd like to read just some of the 
key findings of this consultant:
---------------------------------------------------------------------------
    \1\ Exhibit 2 appears in the Appendix on page 303.
---------------------------------------------------------------------------
    ``Unclear lines of responsibility lead to inconsistent 
accountability. There is no deputy to you with operational 
experience and there are too many political appointees. Not 
enough senior management emergency experts. Lack of adequate 
and consistent situational awareness across the enterprise.''
    I also mention that earlier in 2004 that a group of senior 
FEMA operational professionals, the Federal Coordinating 
Officers cadre, wrote a memo to you outlining their grave 
concerns. The memo cautions of unprepared teams and zero 
funding for training, exercises, and team equipment. It is 
suggested reestablishing a single response and recovery 
division at FEMA to facilitate the refocusing that is necessary 
to regain some of the efficiency that has been lost at FEMA.
    We've received testimony that in response to both of these 
warnings, which were very explicit in identifying serious 
problems within FEMA, that you did not take any action.
    My first question for you is, what action did you take in 
response to the warnings from these senior career people and 
the outside consultant?
    Mr. Brown. Madam Chairman, the first thing I think the 
Committee needs to understand is that I indeed did commission 
those studies. In fact, I asked for both of those documents 
from the FCOs and from the Mitre Corporation. We had to 
literally go scrape together the money just to get the initial 
work done by Mitre. But I had come to this conclusion: After 3 
years of fighting, the articles you see in the Washington Post 
about my attempts to try to get the FEMA mission put back on 
track and how that was rebuffed consistently by the Department 
of Homeland Security, I'd reached this conclusion: That in 
order for FEMA to work effectively, I had to have something 
that would give a roadmap to either future FEMA directors, 
because I was intending to leave, and/or to the Department of 
Homeland Security other than me saying it, that would point out 
these problems.
    As I said, we had to fight to get the money just to do the 
Mitre study. Once we received the Mitre study, we were in the 
process of trying to figure how to complete that, get that into 
a document that would say, here's what we need to do, A, B, C, 
so I could present that to Secretary Ridge and then Secretary 
Chertoff to implement those. We were never given the money. We 
were never given the resources. We were never given the 
opportunity to implement any of those recommendations.
    Chairman Collins. So you're testifying that you were 
rebuffed in your efforts to remedy these problems by the 
Department of Homeland Security. Did you ever discuss these 
concerns about budget authority, organization, personnel with 
individuals at the White House?
    Mr. Brown. Yes, ma'am, I did.
    Chairman Collins. With whom did you discuss those concerns?
    Mr. Brown. I discussed those concerns with several members 
of the President's senior staff.
    Chairman Collins. Would you identify with whom you 
discussed those concerns?
    Mr. Brown. Before I do, Madam Chairman, may I just make a 
few comments and ask for the Committee's recommendation?
    Chairman Collins. Certainly.
    Mr. Brown. On February 6, 2006, my counsel Andy Lester of 
Lester, Loving and Davies sent to Harriet Miers, Counsel to the 
President, a letter requesting direction for what I should do 
when or if this kind of question is posed to me by the 
Committee. Like Patrick, I'm a private citizen. The President 
has the right to invoke Executive privilege in which 
confidential communications between his senior advisers are not 
subject to public scrutiny or discussion.\1\
---------------------------------------------------------------------------
    \1\ The letter from Mr. Lester (Exhibit 1) appears in the Appendix 
on page 298.
---------------------------------------------------------------------------
    It's my belief, Madam Chairman, that I don't have the right 
of Executive privilege, that I cannot invoke that. Yet I 
understand that the President, the White House, the Executive 
is a co-equal branch of government and that right of Executive 
privilege resides with the President.
    I also recognize that as a private citizen I am here to 
truthfully and honestly answer any questions that you may ask. 
So in response to the letter, which did not--and I want to make 
sure that we understand, the letter did not request that I be 
granted Executive privilege. The letter requested guidance on 
what the other equal branch of government wanted me to say or 
not say when these kinds of questions were posed. So despite 
reports in the press to the contrary, the letter speaks for 
itself. It did not request Executive privilege but guidance.
    I received that guidance by letter again to counsel, to Mr. 
Lester, from White House Counsel Harriet Miers in a letter 
dated February 9, 2006. And I'll just read you the last 
paragraph:
    ``The President's views regarding these Executive Branch 
interests have not changed. I appreciate that your client is 
sensitive to the interests implicated by potential disclosure 
of confidential communications to which he was a party as a 
senior official in the Administration as reflected in his 
recent responses to Congressional committees and their staffs, 
and request that he observe his past practices with respect to 
those communications.''
    In my opinion, Chairman Collins, the letter does not answer 
our request for direction on what is to be done. So I am here 
as a private citizen stuck between two equal branches of 
government, one which is requesting that they're not going to 
invoke Executive privilege but that I respect the 
confidentiality of the concept of Executive privilege. And on 
the other hand, appearing before you, again as a co-equal 
branch of government, under oath, sworn to tell the truth, 
without guidance from either one. So Madam Chairman, I would 
ask you for guidance on what you would like Michael Brown, 
private citizen of the United States, to do in this regard.
    Chairman Collins. Does the letter that you have from the 
White House Counsel direct you to assert Executive privilege 
with respect to your conversations with senior Administration 
officials?
    Mr. Brown. It does not, and nor do I believe that I have 
the right to assert that privilege on behalf of the President. 
I am a private citizen.
    Chairman Collins. Has the White House Counsel orally 
directed you to assert Executive privilege with respect to 
those conversations you've had with senior Administration 
officials?
    Mr. Brown. They have not to me, and to the best of my 
knowledge, they have not directed that to my counsel either. 
That's correct.
    Chairman Collins. These conversations clearly could be 
subject to an assertion of Executive privilege. In fact, if 
such a privilege were to be asserted by the White House, I 
would, in all likelihood, rule that the privilege applied to 
those conversations and I would instruct you not to answer the 
questions so that we could further explore the privilege issue 
with the White House.
    However, in the case of conversations between the 
presidential advisers, the privilege is for the Executive 
branch to assert, not the legislative branch. And because you 
have testified that the White House Counsel's Office has chosen 
not to assert this privilege, there is no basis for you to 
decline to answer the question about your conversations with 
presidential advisers. So I would direct you to respond to the 
question.
    Senator Stevens. Madam Chairman.
    Chairman Collins. Senator Stevens.
    Senator Stevens. Has anyone contacted the staff or yourself 
from the White House requesting that Executive privilege be 
recognized in this hearing?
    Chairman Collins. Yes, I had a lengthy discussion last 
night with the White House Counsel in which I advised her to 
either send Mr. Brown a clear letter asserting Executive 
privilege or to send it to this Committee or to have a member 
of the White House Counsel's Office present today to object to 
questions, and Ms. Miers declined to do either.
    Senator Stevens. I just want to say for the record, as a 
former general counsel of an Executive department, I believe 
Executive privilege is in the best interest of the country, and 
in a situation like this, if this witness testifies and there's 
a difference of opinion, then we're faced with a question of 
whether the White House wants to send someone down to challenge 
the statements that have been made. I think it's a very 
difficult ground we're on. I don't know where Mr. Brown is 
going, but it does worry me that there is a legitimate basis 
for Executive privilege. If they've not asserted it to you, 
then that's their problem.
    Chairman Collins. The Senator is correct, and I invited the 
White House to provide me with that assertion last night. They 
declined to do so. I invited the White House to have an 
attorney present to make the assertion. I have reviewed the 
letter, and we will put both the letter from Mr. Brown's lawyer 
and Ms. Miers' response into the record. And the letter does 
not assert the Executive privilege.\1\
---------------------------------------------------------------------------
    \1\ The letter from Ms. Miers appears in the Appendix on page 334.
---------------------------------------------------------------------------
    Senator Stevens. Is there White House counsel present?
    Chairman Collins. There is not a White House counsel 
present that I am aware of. I suspect there are White House 
staffers here however.
    Senator Lieberman.
    Senator Lieberman. Madam Chairman, if I may, first I wanted 
to tell you I both appreciate and support your ruling in the 
context of--even if Executive privilege had been asserted, we 
are a co-equal branch of government, and in this case, we are 
doing an investigation on a totally non-partisan basis that 
goes to the heart of the public safety of the American people. 
So we have an interest in obtaining the truth. We're not out to 
get anybody. We're out to get the truth.
    That would be my opinion even if Executive privilege had 
been asserted, but Executive privilege has not been asserted, 
and therefore I think the privilege and responsibility, let 
alone the right, of Congress as representatives of the American 
people to get the whole truth about Katrina really is the 
priority value that we have to honor. I thank you, Madam 
Chairman, for doing exactly that in your ruling.
    Chairman Collins. Mr. Brown, I would direct you to answer 
the question, and I am going to reclaim the time that I had 
before we had to resolve this issue.
    Mr. Brown. Chairman Collins, I'm happy to answer those 
questions. Could you restate the question? [Laughter.]
    Chairman Collins. I asked you with whom you talked at the 
White House about the budget authority and personnel problems 
that you perceived were hindering your ability to carry out 
your mission.
    Mr. Brown. At various times I had conversations with the 
Deputy White House Chief of Staff Josh Bolten before he moved 
over to OMB. And I had numerous conversations with Deputy White 
House Chief of Staff Joe Hagin and occasionally conversations 
with Chief of Staff Andy Card.
    I've also had conversations with both former White House 
Homeland Security Adviser General John Gordon and with the 
current Homeland Security Adviser Fran Townsend.
    Chairman Collins. Thank you. Mr. Brown, Exhibit 6 is a 
series of e-mails about conditions in New Orleans on Monday 
morning.\1\ We know from testimony before this Committee that 
Marty Bahamonde of FEMA first received a report of the levees 
breaching on Monday morning at about 11 o'clock. He later in 
the day overflew the area and saw it firsthand.
---------------------------------------------------------------------------
    \1\ Exhibit 6 appears in the Appendix on page 331.
---------------------------------------------------------------------------
    The e-mails also talk about all of the other problems in 
the city. By 10 o'clock on that Monday morning, August 29, you 
had received a report from Mr. Bahamonde that there was already 
severe flooding in the area, that the water level was ``up to 
the second floor of the two-story houses, that people were 
trapped in attics, and that the pumps for the levees were 
starting to fail.''
    What action did you take in response to that information 
and to pass that information along to the Secretary of Homeland 
Security?
    Mr. Brown. Two things, Chairman Collins. First and 
foremost, I alerted headquarters as to those reports and asked 
them to get in contact with Marty to confirm those reports.
    And I also put a call in and spoke to, I believe it was, 
Deputy Chief of Staff Hagin on at least two occasions on that 
day to inform him of what was going on.
    Chairman Collins. Was there anyone else that you called at 
the White House to inform them of these developments?
    Mr. Brown. It would have been either Andy Card or Joe 
Hagin.
    Chairman Collins. DHS officials tell us that they did not 
know of the severity of the situation in New Orleans until 
Tuesday morning. That's almost 24 hours after you received the 
information that I referred to about the severe flooding in New 
Orleans. They also assert that they believe you failed to make 
sure that they were getting this very critical information.
    I'd like you to respond to that criticism.
    Mr. Brown. First and foremost, I find it a little 
disingenuous that DHS would claim that they were not getting 
that information because FEMA held continuous video telephone 
conferences--I'll refer to them as VTCs--in which at least once 
a day if not several times a day we would be on conference 
calls and video calls to make certain that everyone had 
situational awareness. Now I'm sitting in Baton Rouge, so I'm 
not sure at all times who is on the video conference, on the 
VTC, but the record indicates that on numerous occasions at 
least Deputy Secretary Jackson and at least Matthew Broderick 
or Bob Stephan, someone from the HSOC, the Homeland Security 
Operations Center, is in on those conversations, on those VTCs. 
So for them to now claim that they didn't have awareness of it 
I think is just baloney. They should have had awareness of it 
because they were receiving the same information that we were.
    It's also my understanding that Mr. Rhode or someone else 
on his behalf sent an e-mail either directly to the DHS Chief 
of Staff or perhaps to the HSOC about that information.
    But in terms of my responsibility, much like I had operated 
successfully in Florida, my obligation was to the White House 
and to make certain that the President understood what was 
going on and what the situation was, and I did that. And the 
VTCs were the operational construct by which DHS would get that 
situational awareness. They would get that through those VTCs.
    Chairman Collins. Mr. Rhode, were you aware of when the 
levees had broken on Monday morning? And what did you do with 
the information? First, when were you aware of the problems 
with the flooding as a result of the levees breaching?
    Mr. Rhode. Madam Chairman, I believe that I first heard 
about the issues with the levee, at least partial information, 
during the early hours of Monday morning or mid-morning, I want 
to say, somewhere between 9 o'clock, 10 o'clock or so. I 
believe that I came across an e-mail that was sent to me that 
suggested that perhaps there was a levee breach. I don't think 
there was a whole lot more information than that. And I 
endeavored to, as was always my practice whenever someone was 
sending me operational information, I tried to make sure that 
information made it directly to the operators.
    Our protocol within FEMA was to make sure that the 
operations team had any sort of situational information. Again, 
my role was in Washington, DC. I was not in Louisiana. But as 
that information became available and as I became aware of it, 
I wanted to make sure that the operations team had it within 
Washington so that it could then be transmitted to the Homeland 
Security Operations Center as there were many situational 
reports, obviously, throughout the day.
    Chairman Collins. But that's exactly why I'm asking you. 
You were in Washington.
    Mr. Rhode. Yes, ma'am.
    Chairman Collins. You were now the top FEMA official. Did 
you take any steps to ensure that Secretary Chertoff was aware 
of this information?
    Mr. Rhode. As the information became more and more 
apparent, Marty Bahamonde later that day helped orchestrate a 
conference call, that I participated in, and at the conclusion 
of that conference call I sent a letter to the department, or 
sent an e-mail to the Department of Homeland Security, in 
addition to what I thought was operational people that were 
also on that call that were making sure the Homeland Security 
Operation Center had that information.
    Chairman Collins. Mr. Brown, it isn't only DHS officials 
who say that they were unaware until Tuesday that the levees 
had collapsed. I've also been told that exact same thing by 
Admiral Timothy Keating, the head of Northern Command, who is 
responsible for homeland defense for DOD. He, in an interview, 
told me that he was not aware until Tuesday morning that the 
levees had breached and that the city had flooded.
    Was there any communication from you or did you take any 
steps to ensure that Northern Command was informed of this 
catastrophic development?
    Mr. Brown. I would not, at that point, have called Admiral 
Keating directly but would, through the FEMA operations center, 
there is a military liaison there. So they would have had that 
same operational situational awareness to pass back up their 
chain of command so that Admiral Keating or Secretary Rumsfeld 
or any of those could have had that same situational awareness.
    Chairman Collins. What is so troubling is we have heard 
over and over again from top DHS officials, from top DOD 
officials, from the leadership throughout the Administration 
that they were simply unaware of how catastrophic the 
hurricane's impact had been because of the breaching of the 
levee. Can you help us understand this enormous disconnect 
between what was happening on the ground, a city 80 percent 
flooded, uncontrolled levees, people dying, thousands of people 
waiting to be rescued, and the official reaction among many of 
the key leaders in Washington and in Northern Command that 
somehow New Orleans had dodged the bullet.
    Mr. Brown. Chairman Collins, let me frame an answer a 
little different way. It's my belief that had there been a 
report coming out from Marty Bahamonde that said, yes, we've 
confirmed that a terrorist has blown up the 17th Street Canal 
levee, then everybody would have jumped all over that and been 
trying to do everything they could. But because this was a 
natural disaster, that has become the stepchild within the 
Department of Homeland Security.
    And so you now have these two systems operating, one which 
cares about terrorism, and FEMA and our State and local 
partners who are trying to approach everything from all 
hazards. And so there's this disconnect that exists within the 
system that we've created because of DHS.
    All they had to do was to listen to those VTCs and pay 
attention to those VTCs, and they would have known what was 
going on. And in fact I e-mailed a White House official that 
evening about how bad it was, making sure that they knew again 
how bad that it was, identifying that we were going to have 
environmental problems and housing problems and all of those 
kinds of problems.
    So it doesn't surprise me that DHS officials would say, 
well, we weren't aware, they're off doing other things, it's a 
natural disaster, so we're just going to allow FEMA to do all 
of that. That had become the mentality within the Department.
    Chairman Collins. Senator Lieberman.
    Senator Lieberman. Thanks, Madam Chairman.
    Thanks for your cooperation. Mr. Brown, we are going to get 
back to those comments. Obviously, our hope was that the 
Department would be ready to deal with natural disasters and 
terrorist attacks and that the impact of a terrorist bomb on 
the levees would have been exactly the same as the hurricane 
was to flooding the city.
    Let me go back to that day because this is very important, 
and your comments just now highlight it, and this is about 
Marty Bahamonde. He takes the two helicopter flights, 5 p.m. 
and 6 p.m. Central Time. He sees the devastation, and he told 
us that immediately after those helicopter rides, he called you 
and reported his findings to you.
    Is it correct that Mr. Bahamonde told you that during the 
helicopter rides on that Monday evening, he could see New 
Orleans flooding?
    Mr. Brown. That's correct.
    Senator Lieberman. Now, is it also correct that Mr. 
Bahamonde told you that during the helicopter ride he could see 
that the levees had broken? Is that right?
    Mr. Brown. That's correct.
    Senator Lieberman. Mr. Bahamonde told us that after he 
finished giving you that devastating information, you said you 
were going to call the White House. In your staff interview, 
you said that you did have a conversation with a White House 
official on Monday evening, August 29th, regarding Bahamonde's 
flyover. Who was that White House official?
    Mr. Brown. There is an e-mail--and I don't remember who the 
e-mail was to, but it's in response to the information that 
Marty has given me. And my e-mail--because I recall this quite 
vividly--I am calling the White House now.
    Senator Lieberman. In other words, you were e-mailing 
somebody at the White House----
    Mr. Brown. No, I was actually e-mailing somebody in 
response to Marty's information.
    Senator Lieberman. Got it. OK.
    Mr. Brown. Back to FEMA, in which I said, yes, I'm calling 
the White House now. And I don't recall specifically who I 
called, but because of the pattern of how I usually interacted 
with the White House, my assumption is that I was probably 
calling and talking to Joe Hagin.
    Senator Lieberman. Joe Hagin, who is the Deputy Chief of 
Staff----
    Mr. Brown. The Deputy Chief of Staff who was at Crawford 
with the President on that day.
    Senator Lieberman. He was at Crawford, and you called him. 
It is surprising you wouldn't remember exactly, but to the best 
of your recollection, you called Joe Hagin. And is it right 
that you called him because he had some special responsibility 
for oversight of emergency management?
    Mr. Brown. No. It was because I had a personal relationship 
with Joe, and Joe understands emergency management, and he's at 
Crawford with the President.
    Senator Lieberman. Got it. And you, quite appropriately and 
admirably, wanted to get the word to the President.
    Mr. Brown. That's correct.
    Senator Lieberman. As quickly as you could. Did you tell 
Mr. Hagin in that phone call that New Orleans was flooding?
    Mr. Brown. I think I told him that we were realizing our 
worst nightmare, that everything that we had planned about, 
worried about, that FEMA, frankly, had worried about for 10 
years was coming true.
    Senator Lieberman. Do you remember if you told him that the 
levees had broken?
    Mr. Brown. Being on a witness stand, I feel obligated to 
say that I don't recall specifically saying those words, but it 
was that ``New Orleans is flooding, it's the worst-case 
scenario.''
    Senator Lieberman. Right, and maybe that's the bottom line, 
that you said this was the worst-case scenario, the City of New 
Orleans is flooding. Did you ask Mr. Hagin for any particular 
action by the White House, the President, the Administration, 
in that phone call?
    Mr. Brown. They always asked me, What do you need? Joe was 
very good about that. The difference is in 2004--the best way 
to describe it, Senator, if you'll bear with me for a minute, 
is in 2004 during the hurricanes that struck Florida, I was 
asked that same question, What do you need? And I specifically 
asked both Secretary Card and Joe Hagin that on my way from 
Andrews down to Punta Gorda, Florida, that the best thing they 
could do for me was to keep DHS out of my hair. So--if I could 
just finish.
    Senator Lieberman. Yes.
    Mr. Brown. So what had changed between 2004 and 2005----
    Senator Lieberman. Katrina, right.
    Mr. Brown. Between the hurricanes of 2004 and now Katrina, 
was that there was now this mentality or this thinking that, 
no, now this time we were going to follow the chain of command.
    Senator Lieberman. Which was?
    Mr. Brown. Which was in essence----
    Senator Lieberman. Put you in charge.
    Mr. Brown. Was put me in charge, but now I have to feed 
everything up through Chertoff or somehow through DHS, which 
just bogged things down.
    Senator Lieberman. So you don't have any recollection of 
specifically asking Mr. Hagin for the White House to take any 
action at that time?
    Mr. Brown. Nothing specific. I just thought they needed to 
be aware of the situation.
    Senator Lieberman. Understood. Mr. Brown, on the evening of 
landfall, you appeared on the 9 p.m. edition, that is, that 
same evening, of MSNBC's ``Rita Cosby Live and Direct.'' You 
said then very explicitly that you were deeply concerned about 
what was happening in New Orleans, and I quote, ``It could be 
weeks and months before people are able to get back into some 
of these neighborhoods'' because of the flooding. You also said 
that you had ``already told the President tonight that we can 
anticipate a housing need here of at least in the tens of 
thousands.'' You were correct.
    Did you, in fact, speak to President Bush that night, 
August 29?
    Mr. Brown. I really don't recall if the President got--
normally during my conversations with Deputy Chief of Staff 
Hagin, sometimes the President would get on the phone for a few 
minutes, sometimes he wouldn't, and I don't recall specifically 
that night whether he did or not. But I never worried about 
whether I talked directly to the President because I knew that 
in speaking to Joe, I was talking directly to the President.
    Senator Lieberman. Well, it is surprising, again, to me 
that you wouldn't remember whether the President was on your 
call to Joe Hagin.
    Mr. Brown. I don't want to appear arrogant, but I talked to 
the President a lot, and so sometimes when he is on the phone 
or not on the phone, I just wouldn't recall.
    Senator Lieberman. All right. So that maybe you were 
inflating a little bit or being loose with your language when 
you told MSNBC that you had already told the President that 
night about----
    Mr. Brown. No, because when I say that I've told the 
President, if I've told Joe Hagin----
    Senator Lieberman. I got it.
    Mr. Brown [continuing]. Or told Andy Card, I've told the 
President.
    Senator Lieberman. I have this problem here in the Capitol, 
too, when somebody says, ``Senator Warner told me to tell 
you''--and then I found out it was a staff member, or I told 
Senator Warner--OK. [Laughter.]
    Mr. Brown. Well, you need to get staffers as good as Hagin 
and Card because, trust me, they tell the President.
    Senator Lieberman. OK. Let me now go to Secretary Chertoff 
because you talked about the chain of command that you were 
asked to follow. Did you speak to Secretary Chertoff after your 
call with Marty Bahamonde and tell him about the severity of 
the situation in New Orleans on Monday evening?
    Mr. Brown. I don't recall specifically if I talked to 
Chertoff on that day or not.
    Senator Lieberman. Why would you not have if that was the 
chain of command?
    Mr. Brown. Because I'm still operating that I need to get 
things done, and the way I get things done is I request them 
from the White House and they happen.
    Senator Lieberman. Well, then, did you tell anyone else at 
the Department of Homeland Security in a high position--Deputy 
Secretary Michael Jackson, for instance?
    Mr. Brown. I think that Michael and I may have had a 
conversation.
    Senator Lieberman. Monday evening?
    Mr. Brown. Yes.
    Senator Lieberman. Which would have been along the same 
lines.
    Mr. Brown. Exactly.
    Senator Lieberman. Am I right that at some point on Monday 
evening there was either a phone conference call or a video 
conference call that you were on reporting on the situation 
from New Orleans?
    Mr. Brown. Yes.
    Senator Lieberman. And do you know whether anybody from the 
Department of Homeland Security was on that call?
    Mr. Brown. They were on all the calls.
    Senator Lieberman. OK. Was Secretary Chertoff on that call? 
Do you remember?
    Mr. Brown. I don't recall.
    Senator Lieberman. Do you know where he was that evening?
    Mr. Brown. As I went back through my e-mails, I discovered 
that he was either gone or going to Atlanta to visit the FEMA 
Region IV offices and to visit CDC.
    Senator Lieberman. Yes, and we are going to ask him about 
that because obviously the No. 1 man in terms of the 
responsibility for the Federal Government response to this 
disaster for some reason did not appreciate that it was such a 
disaster that he got on a plane and went to Atlanta for a 
conference on avian flu.
    I want to go back to Sunday, the day before. Am I right 
that there was a video teleconference on that Sunday in which 
President Bush and Secretary Chertoff were on the conference?
    Mr. Brown. I specifically recall the President being on the 
conference because he was in the SCIF at Crawford.
    Senator Lieberman. Right.
    Mr. Brown. But I don't specifically recall seeing Secretary 
Chertoff on the screen.
    Senator Lieberman. OK. And on that Sunday video conference 
call, am I right, you were still in Washington then?
    Mr. Brown. That's correct. I left that afternoon.
    Senator Lieberman. But you described the catastrophic 
implications of the kind of hurricane that Dr. Max Mayfield and 
all the other forecasters were predicting that day.
    Mr. Brown. I told the staff--and if you don't have the 
transcripts of that VTC, then we need to get them for you.
    Senator Lieberman. I want to give you a phrase. You 
described it as ``a catastrophe within a catastrophe.''
    Mr. Brown. That's correct. This was why I was screaming and 
hollering about getting money to do catastrophic disaster 
planning. This is why I specifically wanted to do New Orleans 
as the first place to do that. This is why I was so furious 
that once we were able to do Hurricane Pam that I was rebuffed 
on getting the money to do the follow-up, the follow-on. This 
is why I told the staff during that video conference call----
    Senator Lieberman. The day before the hurricane?
    Mr. Brown. The day before the hurricane struck--that I 
expected them to cut every piece of red tape, do everything 
they could, that it was balls to the wall, that I didn't want 
to hear anybody say that we couldn't do anything, to do 
everything they humanly could to respond to this because I knew 
in my gut, Senator, this was the bad one.
    Senator Lieberman. Thanks, Mr. Brown. Time is up for me.
    Chairman Collins. Senator Coleman.
    Senator Coleman. Thank you, Madam Chairman, and, again, 
like all my other colleagues, my thanks to you for your 
leadership. This has been extraordinary.
    I have to make a couple of observations as I listened to 
the testimony, Madam Chairman. We hear a lot and we have seen 
in this Committee a lot of discussion about structural 
problems. We have had hearings where local folks and Federal 
folks and State folks all pointed at each other saying, well, 
they were in charge, they were in charge. Anytime you get a 
disaster like this--a disaster not just of Katrina but the 
disaster of the response--you get an analysis that we are 
getting here of literally hundreds of thousands of pages of 
review of information.
    But I am going to be very blunt here. What we had--and 
having been a mayor and involved in situations that could have 
been terrible, that weren't so terrible, in the end when things 
go bad we do the analysis and we see all the structural 
inadequacies. But when you have good leadership, oftentimes 
even with structural inadequacies, things don't go bad. And my 
sense as I listened to this is we had almost the perfect storm 
of poor leadership. We had a governor who was indecisive, met 
with the President, met with the mayor, and did not make a 
decision, wanted more time. We had a mayor who, though well 
intentioned, is holed up in a hotel room without 
communications. Again, good intentions, wants to know what is 
going on on the ground, but nobody is in charge.
    And, Mr. Brown, the concern that I have is from your 
perspective I am hearing ``balls to the wall,'' but I am 
looking at e-mails and lack of responsiveness. Marty Bahamonde 
sending an e-mail about ``situation past critical''--this is on 
Wednesday at this time--``hotels kicking people out, dying 
patients,'' and your response is, ``Thanks for the update. 
Anything I need to do to tweak?''
    Mr. Brown. Senator, with all due respect, you take that out 
of context because you do that on the fly saying, yes, is there 
anything else I need to tweak, and what you ignore is what's 
done beyond that, which is calling the White House, talking to 
the operations people, and making certain that things are 
getting done. And I'm frankly getting sick and tired of these 
e-mails being taken out of context with words like, ``What do I 
need to tweak?'' Because I need to know is there something else 
that I need to tweak, and that doesn't even include all of the 
other stuff that's going on, Senator.
    So, with all due respect, don't draw conclusions from an e-
mail.
    Senator Coleman. And, Mr. Brown, I would maintain that, in 
fact, the context of the e-mails are very clear, that they show 
a lack of responsiveness, that they show a disconnect. That's 
the context. In fact, I am not going to take individual ones, 
but if you look at the entire context of the e-mail discussion, 
you are getting information on Monday, 11:57, a message saying 
New Orleans reported 20-foot-wide breach. It is 11:57. An e-
mail, not out of context, coming back saying, ``I am told water 
not over the bridge.'' At that point obviously it hasn't hit 
the fan for you. And so I don't think it is out of context. I 
think the context of the e-mails--and not just the e-mails, by 
the way, but the things that we as Americans saw, to me it is 
absolutely still stunning that on Thursday, you have people at 
a Convention Center that are suffering. All of America knows 
that. All you have to do is watch TV. It doesn't matter what 
channel you watch. And what we have you saying at that time is, 
``We have just learned that''--this is a CNN interview, 
September 1, not out of context. ``And so this is catastrophic 
as it continues to grow. I will tell you this, though, every 
person at that Convention Center, we just learned that today, 
and so I have directed we have all available resources.'' I 
knew a couple of days ago. So did America----
    Mr. Brown. Senator----
    Senator Coleman. And so let me finish the comment. What I 
hear is you saying, well, the structural problem falls with the 
Mitre report, in which it was laid out very clearly the 
structural inadequacies. And your testimony today is that you 
had conversations, you pushed that forward.
    Can you show me where either in the e-mails or in the 
record your very clear directives to go ``balls to the wall'' 
to clean this situation, to fix it? Do you have anything that I 
can look at as a former prosecutor in writing that gives 
substance to what you have testified to today?
    Mr. Brown. Absolutely. I've testified in front of the House 
that I misspoke on that day regarding that e-mail. We learned 
about the Convention Center on Wednesday, and we started 
demanding--because the Convention Center was not planned for. 
It was not in anyone's plans, including the city and the State. 
And when we learned about it on Wednesday night, we immediately 
started demanding the Army and resources to take care of that. 
And there are e-mails in the packages that you have where I am 
screaming, ``Where is the Army? I need the Army now. Why hasn't 
it shown up?'' And because I misspoke about when I learned 
about the Convention Center after being up for 24 hours, you 
want to take that out of context, and, Senator, I'm not going 
to allow you to do that.
    Senator Coleman. Let me ask you about a conversation that--
Mayor Nagin came before us, this Committee, and he talked about 
going over to Zephyr Stadium. And Mayor Nagin's comment to this 
Committee is, and I quote, ``I was so flabbergasted. I mean, 
we're in New Orleans. We're struggling. The city was touch and 
go as it relates to security. And when I flew out to Zephyr 
Stadium to the Saints' facility, I got off the helicopter and 
just started walking around, and I was awestruck. We had been 
requesting portable lights for the Superdome because we were 
standing at night and all over. To make a long story short, 
there were rows of portable lights. We all knew sanitary 
conditions were so poor, we wanted portable toilets. They had 
them all over the place.''
    Were you with Mayor Nagin at that time?
    Mr. Brown. I don't know whether I was with him on that 
particular date or not, but I know the area he is talking 
about.
    Senator Coleman. And can you explain to this Committee why 
if there had been obvious deep concerns about sanitary 
facilities, about lighting, why those facilities, those 
concerns had not been met?
    Mr. Brown. Because they were having--the U.S. Army, the 
National Guard, were having difficulty getting those supplies 
into the Superdome. You need to understand that there are media 
reports of shooting, there are media reports of looting and 
everything else going on. And if the Army moves in there, the 
Army kills people. And so they had to be very careful about 
moving those things in there.
    By the same token, you have civilians who began to move 
things in there and couldn't get them there. So, yes, there 
were things stockpiled, and as that supply chain continued to 
fill up, Zephyr Field was full of a lot of stuff. And those 
things were continuing to go on the other end to get into the 
city.
    And so for you to take a snapshot of Mayor Nagin going 
there and being there for a few minutes and seeing all of that 
and him screaming in his typical way about, ``I want all this 
stuff in the city,'' again is taking it out of context, 
Senator.
    Senator Coleman. When did you order that food and water be 
delivered into the Convention Center?
    Mr. Brown. The day that we learned about it, that 
Wednesday. We immediately ordered that stuff to be moved. 
Whether it was or not, whether it was actually done or not is 
the question you should be asking. And if it wasn't, you need 
to be asking why because we didn't have the capacity within 
FEMA ourselves to do that, and we needed the Fifth Army or the 
First Army to move that stuff in there.
    Plus, I will also remind you that there's no----
    Senator Coleman. Mr. Brown, just on that point alone, my 
notes indicate--and I just wanted to check the records. Records 
that have been produced to the Committee by DHS indicate that 
FEMA did not order food and water for the Convention Center 
until 8 a.m. on Friday, September 2.
    Mr. Brown. I can tell you unequivocally, Senator, under 
oath, that the minute that I learned that there were people in 
the Convention Center, I turned to Bill Lokey, my Federal 
Coordinating Officer, my operations person on the ground, and 
said, ``Get MREs, get stuff moving in there.''
    Senator Coleman. Did you ever do any follow-up to find out 
whether that happened?
    Mr. Brown. Senator, I continued to do operations as best I 
could all along throughout that time, and I would continually 
ask questions: Are things happening? Are things happening? Are 
things happening?
    Senator Coleman. The record is very clear as to when the 
order was given. It was given on Friday.
    My concern is this, Mr. Brown: Again, I understand there 
are structural problems. I understand some of the concerns that 
have been raised about the function of DHS and the integration 
of FEMA. But as I listen to your testimony, you are not 
prepared to kind of put a mirror in front of your face and 
recognize your own inadequacies and say, ``You know something? 
I made some big mistakes. I wasn't focused. I didn't get things 
done.'' And instead what you have is, ``The problems are 
structural. I knew it up front. I really tried to change it.''
    The record, the entirety of the record, doesn't reflect 
that. And perhaps you may get a more sympathetic hearing if you 
had a willingness to kind of confess your own sins in this. You 
know, your testimony here is that you are going to communicate 
to the President as to what he understood. I am not sure what 
you understood. I am not sure you got it. And I have to tell 
you the record, not the e-mails but the record, reflects that 
you didn't get it or you didn't in writing or in some way make 
commands that would move people to do what has to be done until 
way after it should have been done.
    Mr. Brown. Senator, with all due respect, what do you want 
me to say? I have admitted to mistakes publicly. I have 
admitted to mistakes in hearings. What more, Senator Coleman, 
do you want from me?
    Senator Coleman. Well, I think----
    Mr. Brown. What do you want from me? I am asking you. What 
do you want from me?
    Senator Coleman. Well, what I am hearing today and what I 
heard from your testimony is coming in and talking about all 
these structural problems--that the die was cast. That was your 
testimony today, about the integration--and, by the way, I have 
my own questions about the integration of FEMA and DHS. But 
what I heard today from you that the die was cast----
    Mr. Brown. It was.
    Senator Coleman. And what I am saying, Mr. Brown, I am 
saying that, in fact, leadership makes a difference, you didn't 
provide the leadership. Even with structural infirmities, 
strong leadership can overcome that, and clearly that was not 
the case here.
    Mr. Brown. Well, Senator, that is very easy for you to say 
sitting behind that dais and not being there in the middle of 
that disaster watching that human suffering and watching those 
people dying and trying to deal with the structural 
dysfunctionalities, even within the Federal Government. And I 
absolutely resent you sitting here saying that I lacked the 
leadership to do that because I was down there pushing 
everything that I could. I've admitted to those mistakes, and 
if you want something else from me, put it on the table and you 
tell me what you want me to admit to.
    Senator Coleman. A little more candor would suffice.
    Thank you, Madam Chairman.
    Mr. Brown. How much more candid--ask me the question, 
Senator. Ask me the question.
    Senator Coleman. Thank you, but I think my time is up. 
Thank you, Madam Chairman.
    Chairman Collins. Senator Akaka.
    Senator Akaka. Thank you very much, Madam Chairman. I want 
you to know that I admire your leadership and commend you and 
our Ranking Member for your leadership in pursuing these 
hearings for the sake of the security and safety of our 
country.
    I agree with you, Madam Chairman, and with the Ranking 
Member that it is unfair to lay blame of the gross 
mismanagement of the disaster on one or two people. And I do 
not believe that Mr. Brown should be the scapegoat for all that 
went wrong.
    Mr. Brown. Thank you, Senator.
    Senator Akaka. However, you and Mr. Rhode were in charge of 
FEMA, and I can recall Harry Truman's statement that ``The buck 
stops here.'' And so you are it, and the hearing is on you.
    What happened to the people in Louisiana and throughout the 
Gulf Coast reinforces the need for qualified, experienced 
leaders in senior positions throughout the Department of 
Homeland Security. That is why I introduced legislation last 
fall to require minimum professional qualifications for most 
Senate-confirmed positions at DHS.
    Nor should we forget that until 2003 FEMA was an 
independent Cabinet-level agency. One of my reasons for voting 
against creating DHS was that FEMA would no longer operate 
independently. FEMA's activities and budget are controlled by 
the Secretary of the Department. We cannot forget that the 
problems of FEMA are the problems of DHS and the ultimate 
responsibility of the Commander-in-Chief.
    Mr. Brown, my question relates to a statement you made 
during your interview with the Committee. When asked about 
whether you were keeping Secretary Chertoff apprised of the 
situation in New Orleans on Monday, the day the storm hit, you 
stated that you, and I quote, ``did not believe that the 
Department had any operational mandate at that point and that 
if the Secretary wants information about something, he can 
either call me directly or reach out to HSOC to get that 
information.''
    Wasn't it your responsibility as Under Secretary to keep 
Secretary Chertoff informed on the developments of an ongoing 
crisis that involved multiple components of his agency?
    Mr. Brown. Yes, Senator, it is my responsibility to keep 
him informed, and we have structures in place by which to do 
that. The HSOC and his representatives are involved in the 
VTCs, and he and I exchanged phone calls and talked at times to 
do that. But when you are running operations, the primary 
responsibility has to be to run operations, and then you feed 
information, as you should, through the channels--through the 
VTCs, through the e-mails, through the situation reports that 
get to him. And then if he has questions about any of those SIT 
reports that come to him, he can call me, or if there is 
something in the SIT reports that I think is of particular 
interest to him, then I would call and tell him.
    Senator Akaka. Mr. Brown, in your interview, you referred 
to the so-called tax that FEMA was forced to pay when the 
Department was first stood up and you were the Deputy Director 
of FEMA. You said that the tax funded the shared components of 
DHS, such as the Secretary's office and the IT system. You told 
Committee investigators that FEMA's mitigation funding suffered 
a disproportionate reduction because you were trying to avoid 
taking money out of other areas, such as the National Flood 
Insurance Fund.
    You may recall that the Administration tried to reduce 
FEMA's mitigation funding prior to the creation of DHS. The 
President's fiscal year 2002 budget proposed eliminating the 
Pre-Disaster Mitigation program, which later was saved by 
Congress. The Administration responded by seeking to eliminate 
all post-disaster mitigation funding in fiscal year 2003.
    Is it possible that the reason mitigation funding took such 
a hard hit when DHS collected its tax is that mitigation 
programs were not valued by the Administration?
    Mr. Brown. It is nice to appear before a Committee as a 
private citizen and not be constrained by talking points or 
SAPs that say what you can and cannot say, but, yes, I think 
that is part of the problem, that there is a belief within OMB 
that mitigation programs don't have a good enough cost/benefit 
ratio so, therefore, we need to eliminate them, when indeed I 
do believe that there is a good side to it, that the 
Administration believes that pre-disaster mitigation funds 
could be used. So there is a balance to be struck to try to do 
both pre- and post-disaster.
    But I do think that mitigation, to a certain extent, was 
given a back seat.
    Senator Akaka. Mr. Brown, in response to prehearing 
questions for your confirmation hearing before this Committee 
in June 2002 to be Deputy Director of FEMA, you stated, 
``Mitigation will continue to be a primary focus for the 
Agency.''
    As Under Secretary, did you consider informing Congress 
that mitigation programs are not being prioritized and were, in 
fact, receiving less funding than you thought they should have 
under DHS?
    Mr. Brown. I think the American public needs to know how it 
works in DC, that an agency administrator can have his 
priorities and OMB can have their priorities and never shall 
the 'twain--shall the two meet. And despite my personal belief 
that mitigation is good and we need more mitigation funding in 
this country, OMB takes a different tack, that mitigation 
doesn't have a great cost/benefit analysis, which you could 
argue all day long. I believe that it does. And so consequently 
mitigation gets cut. I don't believe that it should.
    But by the same token, Senator, I think you would not 
respect me if I came to you in your office and sat down and 
said, I know the President has proposed this, but here's my 
personal belief.
    Now, yes, sometimes I would try to make certain that people 
understood what my real belief was in hopes that they could 
maybe do something about it. But I would not want to be that 
disloyal.
    Senator Akaka. Mr. Brown, Marty Bahamonde, a FEMA public 
affairs officer that has been mentioned by other Senators 
today, was sent to New Orleans prior to the storm to be your 
eyes and ears on the ground because you personally trusted him, 
according to his testimony before the Committee in October 
2005. His description of why he was sent to New Orleans, is it 
correct?
    Mr. Brown. I actually tried to send two people to New 
Orleans. I sent Marty to New Orleans and tried to send Phil 
Parr, one of our FCOs, to New Orleans, too. Marty was able to 
make it in. Phil couldn't. I think Phil got stuck in Beaumont 
or Houston or somewhere and couldn't actually get there. But I 
trusted both of those men, and I wanted both of them there 
because I did trust their capabilities.
    Senator Akaka. Mr. Brown, in your interview with the 
Committee, you stated that you didn't completely rely on Mr. 
Bahamonde's Monday morning report that the levees had broken 
because, ``He tends at times toward hyperbole.''
    Why did you send Mr. Bahamonde to be your eyes and ears if 
you did not implicitly trust his ability to relay information 
back to you accurately?
    Mr. Brown. Look, I trust Marty, and I think Marty has good 
judgment. But Marty does tend to hyperbole. I mean, that 
doesn't mean you don't trust him.
    The real problem that was going on while Marty was down 
there is that I'm sitting in Baton Rouge, Marty's giving us 
these reports, and yet the governor's staff is getting 
conflicting reports. And I'm trying to balance those two 
reports. Marty's down there, a guy that I know. The governor's 
telling me she has people down there that she trusts, and there 
are two conflicting reports. So I'm trying to synthesize those 
two reports.
    But I trusted him, and I still trust him. That's why based 
on what he told me I made my calls.
    Senator Akaka. Madam Chairman, my time is expired, but I 
will make concluding remarks by saying that I tend to agree 
with you, Mr. Brown, that if a terrorist had blown up the 
levee, as you had stated, there would have been a reaction. We 
need an all-hazards approach to defending our homeland, not a 
call 911 only if it is a terrorist attack. And as I mentioned 
in my opening remarks, what we are doing in these hearings is 
to try to find solutions that can help the security and safety 
of our country, and this Committee is doing that very well 
under your leadership.
    Thank you very much, Madam Chairman.
    Chairman Collins. Senator Bennett.
    Senator Bennett. Thank you very much, Madam Chairman.
    Mr. Brown, you may recall during your confirmation hearing 
I made a comment--I don't have it in front of me, but I 
remember it well enough because I made it a number of times. I 
think I am the only Member of this Committee who served in the 
Executive Branch, and I served at the Department of 
Transportation 18 months after it was put together. And so the 
comment that I made repeatedly was, ``A, we needed to create 
the Department of Homeland Security and, B, we needed to be 
under no illusion that it would work for at least 5 years.''
    The Department of Transportation was put together much like 
the Department of Homeland Security, taking highways from 
Commerce, taking FAA as an independent agency, as FEMA was, 
taking the Coast Guard from Treasury, etc., mass transit from 
HUD, putting them together in a Department that looked 
wonderful on paper. It was created--it looked as if it was 
created by the geniuses at the Harvard Business School. It had 
magnificent lines, well drawn. And as I got there 18 months 
after it had been created when the Nixon Administration took 
over from the Johnson Administration, it was obvious I was 
walking into chaos, cultural clashes, turf battles, and all of 
the kind of things you are describing here.
    So I am not surprised, and I am not prepared to be 
pejorative in attacking who was responsible. The creation of 
such a Department in the world in which we live made great 
academic sense. The President was attacked by his political 
enemies for not doing it sooner. And yet there is great concern 
now that all of the problems connected with the creation of 
such a Department surfaced. So I am sympathetic to what you are 
saying.
    At the same time, having been in that kind of a situation 
and having seen a Department struggling with those kind of 
problems, I know that there are some things that can be done. I 
am struck by your testimony this morning where you say, ``I 
don't remember who I called at the White House. I think it was 
Joe, but I don't remember.'' And then you are quite specific in 
what was said. There is a little bit of a disconnect that if 
you have a conversation and you can't remember who it is with 
but you are very specific that, ``Yes, I said this, and I said 
that,'' and so on----
    Mr. Brown. Can I tell you why?
    Senator Bennett. Yes, I would appreciate your clarifying 
that.
    Mr. Brown. Because generally I say the same things to 
everybody. If I have a message that I need X, I am saying it to 
everybody I can get on the phone.
    Senator Bennett. All right. But going back to the context 
of a Department that has problems by virtue of its structural 
difficulties, problems that I am not prepared to say 
specifically it is this person's or that person's, the way you 
deal with that, at least from my point of view, in an 
emergency, is you ignore the departmental lines. And it is easy 
for me to say after the fact, I recognize that. But trying to 
put myself in your position, I think I would have gotten on the 
phone and said, ``I have to talk to Secretary Chertoff 
directly. I don't want to talk to his staff. I don't want to 
send an e-mail. And I don't care where he is.'' And I would 
think even in a Department that is heavily bureaucratic, that 
kind of statement from you saying, ``I am in the midst of the 
greatest natural catastrophe that we have seen. I have got a 
governor that is giving me information that is different. I 
have got a mayor that seems to be paralyzed. I have got to talk 
to the Secretary, and I want to talk to him right now.''
    Did it ever occur to you to say that within the Department? 
Or was the Department culture so stultifying that you felt you 
couldn't do that?
    Mr. Brown. The culture was such that I didn't think that 
would have been effective and would have exacerbated the 
problem, quite frankly, Senator.
    That's why my conversations were predominantly with the 
White House because through the White House I could cut through 
any interagency bureaucracy to get what I needed done.
    Senator Bennett. You are telling us that a face--well, not 
face-to-face but wire-to-wire conversation directly with 
Secretary Chertoff would not have produced any kind of 
worthwhile results?
    Mr. Brown. No, it would have wasted my time, not because--
and I say that not because of any disparagement of Secretary 
Chertoff, but because if I needed the Army to do something, 
rather than waste the time to call Secretary Chertoff and then 
have him call somebody else and then have--maybe he calls 
Rumsfeld, and then Rumsfeld calls somebody, I'd rather just 
call Andy Card or Joe Hagin and say, ``This is what I need,'' 
and it gets done. That's exactly what we did in Florida.
    Senator Bennett. That is a staggering statement. It 
demonstrates a dysfunctional Department to a degree far greater 
than any we have seen.
    Mr. Brown. Senator, you have copies of documents \1\ that I 
have brought today that I pray for the country that you will 
read, where I have, since 2003, been pointing out this 
dysfunctionality and these clashes within the Department, and 
that if they are not fixed, this Department is doomed to fail, 
and that will fail the country.
---------------------------------------------------------------------------
    \1\ Documents from Mr. Brown appear in the Appendix on page 132.
---------------------------------------------------------------------------
    Senator Bennett. I appreciate your opinion. If I may 
express an opinion, if I were Secretary Chertoff and I had a 
Deputy Secretary who would prefer to call the White House 
rather than talk to me, I would find that very disturbing. Have 
you ever sat down with Secretary Chertoff, particularly a fresh 
start, a new Secretary coming in, available now, and said to 
him, ``Mr. Secretary, there is an issue I have got to discuss 
with you here, and I know you have plenty on your plate, but 
can I have 15 minutes, can I have half an hour to discuss this 
with you?''
    When Secretary Chertoff came here for his confirmation 
appointment--admittedly he was probably the most available at 
that point because we controlled whether or not he got 
appointed--he was open to all kinds of suggestions about how 
the Department should be structured based on the information we 
had developed in our hearings, and I do not find him a man who 
would refuse to talk to you or refuse to hear your point of 
view.
    Did you ever make any attempt to discuss this with him when 
he first came on board before he got overwhelmed by all the 
bureaucracy?
    Mr. Brown. Two attempts. The first one occurred very 
shortly after he arrived, and in March 2005, I drafted a memo, 
which is in your materials, dated March 2005, from me to the 
Secretary entitled--the subject matter is ``Component Head 
Meeting.'' Secretary Chertoff had announced that he wanted the 
Under Secretaries to prepare for him a briefing, a very honest 
briefing about where we were in terms of our budget, personnel 
issues, and, most importantly, he wanted to know what our most 
serious challenges were so that he could address those 
challenges.
    So I drafted it--you can read it at your leisure--where I 
discussed preparedness, the National Response Plan, what needed 
to be done with it; the organizational structure, the turf 
battles, the cultural clash between, say, ODP and FEMA and how 
that needed to be done. And he was to have those component head 
meetings with everybody. He never had one with me.
    The second time was when the whole issue--when they began 
to do their 2SR review of where things are at. The issue then 
became whether or not to pull preparedness out of FEMA, and, 
again, I requested a meeting and Deputy Secretary Jackson was 
able to get that meeting for me, and I went in and made my case 
about why preparedness belonged in FEMA and why the way the 
statute was created had not been implemented the way the 
statute read but it should be, and made that case to him, the 
same case I made to Secretary Ridge on September 15, 2003, 
which is, again, in your materials. And on that day when I made 
that case to the Secretary, the people at FEMA will tell you 
that in the car on the way back to headquarters, I was ecstatic 
because I thought I had won, that I had found someone who 
understood that issue, had agreed with me, and indeed, he had 
agreed that we needed to do what I had outlined in the memo.
    Forty-eight hours later, that decision is reversed, and we 
are going in a different direction.
    Senator Bennett. Well, my time is up. I think I now 
understand why Secretary Chertoff says he didn't know because 
you didn't feel it necessary--``necessary'' is the wrong term. 
You didn't feel it was efficient or proper--that is the wrong 
term. Let me phrase it as correctly as I can. He didn't know 
because you didn't think it would do any good for you to tell 
him.
    Mr. Brown. I succeeded in Florida in 2004. I succeeded in 
the Columbia Space Shuttle disaster, the fires in California, 
the fires in the mountainous West. I succeeded in the tornado 
outbreak. And when I didn't succeed, one of the reasons why I 
didn't succeed, other than the mistakes I have said that I have 
made, is that DHS was an additional bureaucracy that was going 
to slow me down even more. And the way I got around that was 
dealing directly with the White House.
    Senator Bennett. Regardless of where you may or may not 
have succeeded, once again, you did not--the reason he did not 
know is because you did not think it important to tell him.
    Thank you.
    Chairman Collins. Senator Lautenberg, my apologies for not 
calling on you prior to Senator Akaka. The information I had 
was wrong.
    Senator Lautenberg. We have a new time clock here. We are 
going to straighten it all out. Thank you very much, Madam 
Chairman, for your zeal and your consistency on trying to get 
to the bottom of this.
    I want to set my view as clear and as straight as possible. 
I am not here, Mr. Brown, to defend you. I am not here to 
defend anybody who has made mistakes, and now we can distribute 
the mistake array and see who really made some of the worst 
ones.
    The fact is that if I have a fire in my house, I don't 
insist on talking to the fire chief before I satisfy that I 
have sounded the alarm. And if you want to convey something to 
the President and you cannot trust his Deputy Secretary or the 
other people who the President appointed to do things, then we 
are in bad shape. And the fact that we are parsing words here 
and trying to figure out whether you should have spoken A, B, 
or C or retroactively trying to fit this puzzle all together, 
does it surprise anybody that perhaps there was some panic as 
people were drowning and carrying not only their luggage on 
their heads but their children on their heads, trying to escape 
the ravages of this incredible inferno--I will use that term--
that was enveloping us?
    So whether or not you called A, B, or C, B or C had to get 
to A, and you had to believe that there was a mechanism. I 
would tell you this: That when the terrorists struck the World 
Trade Center, people didn't wait to get to the President to 
send the alarm to him that something terrible had happened and 
was happening.
    You have been selected as the designated scapegoat. That is 
what I see because I think that we are clear on President 
Bush's message to you on Friday after the storm struck on 
Monday. And while I do not have--well, yes, I do have the 
precise words: ``Brownie, you're doing a heckuva job.''
    Now, I cannot imagine the President would trivialize this 
situation just to be a good guy with you. Somebody must have 
said to him you were doing things right and you were doing your 
best. Whether it was good enough or not, it may have not been 
good enough.
    I served in World War II. I know sometimes no matter how 
hard we tried, we couldn't protect everybody that we wanted. So 
keep your chin up and fight back, as you did. You are not here 
to be, as I said, the designated scapegoat, designated target. 
Call it whatever you want.
    Mr. Brown. Senator, thank you.
    Senator Lautenberg. I did it for my conscience, not to be a 
good guy. I mean, I see this all in front of me, and I have 
been in situations where panic struck and people react in 
different ways. You try to do your best. But we are, after all, 
human beings, and human beings make mistakes.
    What I see here are mistakes on a current basis that 
infuriate me. In the New York Times yesterday or today, the 
piece about the fact there are--I have so much paper here to 
try to get it all organized because, as you can see, I am in a 
state of anxiety here. ``Storm Victims,'' reporting February 9 
in the New York Times; on February 10, this day, in the Los 
Angeles Times: ``Nearly 6 months after two hurricanes ripped 
apart communities across the Gulf Coast, tens of thousands of 
residents remain without trailers promised by the Federal 
Government for use as temporary shelters while they rebuild. Of 
135,000 requests for trailers that the Federal Emergency 
Management Agency had received from families, slightly more 
than half have been filled.''
    Yesterday, we were greeted by hundreds of people who worked 
their way up here from New Orleans, pleading for help. I spoke 
to the people, and what I got was, ``Please, give us a place to 
cover our heads with, a place that we can lie down and go to 
sleep.'' They are not looking for jewels or trappings. They are 
looking for an ability to exist.
    So Mr. Brown is not on the payroll. Mr. Rhode is not on the 
payroll now. Who is responsible for not catching up with our 
responsibilities? And the fingers, no matter which way they try 
to point them, to me they point at the White House. That is 
where the responsibility belongs. Get those trailers there. Get 
those homes built. We sent down lots of money that was not 
efficiently used, and that was after your departure, need I 
remind you.
    And so when we look at this, I think the blame game is an 
easy one to play, but it is a hard game to win. And I find that 
the response now indicates where we were before.
    I listened to you carefully. I ran a fairly big company 
before I came to the U.S. Senate, and I know that there was a 
lot of buck-passing and people would make mistakes. But, on the 
other hand, if people earnestly tried to do the right thing, 
then that is what we can ask. And if the system breaks down 
because it is poorly designed, that is too bad, and I hope we 
learn from this. But it is hard to understand why when wires 
were going at 9:30 in the morning--``wires'' are e-mails. That 
shows my dating, ``wires,'' right? That they are saying the 
pumps are starting to fail. You suggested, Mr. Brown, that 
Marty Bahamonde might be a little hyperbolic, but the fact of 
the matter is this is as he gave it to us, and when he gave it 
to us, he was under oath like you are. And he said, ``Severe 
flooding on St. Bernard-Orleans Parish line. Police report 
water level up to second floor of two-story houses. People are 
trapped in attics. Pumps starting to fail, city has now 
confirmed.'' This is a report from Michael Heath. Do you know 
who Michael Heath is?
    Mr. Brown. Yes.
    Senator Lautenberg. He was your assistant, right?
    Mr. Brown. Yes.
    Senator Lautenberg. So he is reporting to you that he had 
gotten a report from Marty Bahamonde that these things were 
happening, and this was at 10:12 in the morning when the most 
severe point of the storm's attack was at about 8 o'clock. So 
information was flowing. And for the White House to deny that 
they had clear reports is, I think, disingenuous at best. White 
House officials confirm--this is now February 10--that the 
report of the levee break arrived there at midnight, and Trent 
Duffy--Marty Bahamonde sent his report out at 9 o'clock in the 
morning--arrived there at midnight. And Trent Duffy, the White 
House spokesman, acknowledged as much in an interview this week 
saying it was surrounded with conflicting reports.
    When did you have an awareness that it was sent to the 
White House?
    Mr. Brown. Senator, I am going to give you two answers, if 
I may, to what you just said. May I first address your question 
about the White House notification? And then you touched on 
housing, and I really want to give you some information about 
housing, if I could do that, because I think it is pertinent to 
your concern.
    On Monday, August 29, at 10 o'clock, I had written Andy 
Card and told Andy Card that this is the bad one and that 
housing, transportation, and environment were going to be long-
term issues and that if he wanted any additional details, to be 
sure and call me or continue to BlackBerry because he had 
written me earlier that indeed Joe Hagin had been keeping him 
informed of what I had been telling him. So I had been telling 
them about that situation throughout the day, so they knew 
about it.
    Senator Lautenberg. So at midnight they are saying 
conflicting reports.
    Mr. Brown. Well, all I can tell you is that during the day 
on Monday, they were being told. They were aware of that.
    Senator Lautenberg. OK.
    Mr. Brown. But you also mentioned something about housing 
and the concern about housing. I think it is important for this 
Committee to know that for the 2005 budget, I specifically 
requested $10 million to redesign our recovery from 
catastrophic events, including catastrophic housing; I 
requested $80 million for the Emergency Response Teams to do 
things such as catastrophic planning, and the e-mail says, for 
example, like New Orleans. And this whole e-mail chain, which 
is dated December 30, 2003, which I want the Committee to have 
in the record, is that we were asking for all of those things 
to address housing issues, to address those response teams, and 
every one of those was never even presented to OMB because DHS 
took them out of our over-target request.
    Senator Lautenberg. Thank you. Thank you, Madam Chairman.
    Chairman Collins. Senator Warner.
    Senator Warner. Madam Chairman and Senator Lieberman, I 
congratulate you once again on helping to prepare a record 
which I really am confident is going to be complete with regard 
to this tragic episode. And I think we owe no less to the many 
victims who suffered and are still suffering and also to 
prepare our great Nation for the future.
    Mr. Brown, despite what my good friend of the left is 
saying about the Executive Branch, I did spend 5 years in the 
Pentagon as Secretary of the Navy during the---- [Laughter.]
    Vietnam War, and my friend over here, Mr. Stevens, had he 
heard that comment, he would have come out of his chair because 
he spent a couple of years in the Department of the Interior as 
their counsel. But, anyway, all of us have a little humor here 
on a Friday morning.
    But I come to this responsibility with no prejudice and no 
fixed views. I simply think that I want to support my Chairman 
and Ranking Member in getting the best record possible.
    Now, I have been informed--and I would appreciate it if you 
would verify the accuracy of this statement--that in the course 
of interrogation by very able Committee staff--and they have 
done a commendable job----
    Mr. Brown. They are very good.
    Senator Warner [continuing]. That you felt that you had to 
rely on counsel of FEMA and decline to give a full response to 
perhaps as many as 12 questions. Is that correct?
    Mr. Brown. That's correct. Counsel for FEMA was present, 
and when the types of questions about who and what was said to 
certain White House officials, they would--I think counsel for 
FEMA is quality counsel, but they never wanted to use the word 
``executive privilege.'' It was ``high-level communications,'' 
and so there was this legal dance going on. And I just felt 
caught in the middle because, look, Senator Warner, I respect 
this President and I respect the Presidency. I respect this 
branch of government, too, and now as a private citizen, I am 
caught between these two in terms of executive privilege.
    Senator Warner. Right. I listened very carefully, but I 
believe now given the very clear guidance by the Chairman, 
these impediments are now removed. Would I be correct in that 
assumption?
    Chairman Collins. That is correct.
    Senator Warner. Well, then, Madam Chairman, I would think 
we would ask this witness to go back over each of those 
questions and provide for the Committee and the staff the full 
answer that he is capable of giving. May I make that in the 
form of a request?
    Chairman Collins. You may.
    Senator Warner. And you will be quite willing to do that.
    Mr. Brown. I would be happy to do that.
    Senator Warner. Well, that is extremely----
    Mr. Brown. As long as we can work out schedules properly, 
Mr. Bopp.
    Senator Warner. I think it is very important that we have a 
full and complete record, and your willingness to do that, I 
think, is very helpful.
    Chairman Collins. Senator Warner, if I could just clarify, 
it is possible that the White House might decide to assert the 
privilege, which it has a right to do, at some future time.
    Senator Warner. Well, I understand that.
    Chairman Collins. I just wanted to clarify.
    Senator Warner. I am trying to move through this to be of 
some assistance to the Chairman.
    Senator Lieberman. Madam Chairman, if I can say, I want to 
thank Senator Warner. I think you make a very important point. 
Now that Mr. Brown has taken a different position, for all the 
reasons we talked about at the beginning, just to complete the 
record, if those questions are not all asked today, which they 
probably won't be, I think it is a very important idea to 
schedule a time to come back and talk to our joint staff again.
    Mr. Brown. If I could just say, Senator, though, I am not 
really taking a different position. I always wanted to answer 
the questions.
    Senator Lieberman. Understood. I accept your amendment.
    Mr. Brown. Thank you.
    Senator Warner. I think that is important.
    Now, my responsibilities around here--and, coincidentally, 
my two distinguished leaders here--are on the military 
committee, and I am quite interested in your assessment of the 
performance of the uniformed individuals, both Guard and 
Reserve and the active forces that were brought to bear. I 
think we have to keep going over this because a lot of people 
following do not understand the Guard and Reserve are under a 
certain framework of Federal statutes, as you well know, and 
the regular force is under others.
    My understanding is that one of the series of questions in 
which you felt that you couldn't give a full answer related to 
the following issues. You spoke to a number of White House 
personnel while on an airplane, probably on Friday, September 
2, about the proposal to establish a dual-hatted commander of 
the National Guard and Title X forces in Louisiana.
    Can you now tell us about what your views were? And the 
situation in your judgment dictated, I think quite 
appropriately, a clarity of the chain of command to military 
personnel, be they Guard or Reserve or active?
    Mr. Brown. Correct. General Honore had decided to deploy 
and come to Baton Rouge, and I had a conversation with him on 
his way down there that said--because we had not federalized 
anything yet. I think General Honore has testified before this 
Committee.
    Senator Warner. Yesterday.
    Mr. Brown. And if you watched television, you know he is a 
very commanding presence.
    Senator Warner. Yes. I have gotten to know him, and I have 
known many officers in my years here. He is very impressive.
    Mr. Brown. Very impressive. And so when General Honore and 
I first got on the telephone together, he already had a litany 
of things he wanted to do, and I had to back him down and say, 
``I may want all of those things done, but until we get 
federalized, or however we work this out, I am still in control 
and you need to let me know what you want to do, and we can 
play this game. I may want you to do all those ten things on 
your list, but come and tell me before you do them.'' And he 
understood that and respected that.
    Senator Warner. Well, also, if I may say, it was not a 
game. He is a serious-minded----
    Mr. Brown. He is very serious.
    Senator Warner [continuing]. And he has handled in his 
capacity as a military commander a number of situations. He 
recounted some half-dozen disasters in which he actively 
participated----
    Mr. Brown. That's correct.
    Senator Warner [continuing]. On behalf of the----
    Mr. Brown. And so I was ecstatic to have him there because 
I could now use my military aides that were there with me at 
the Command Center to interface with them and whatever troops 
might show up. There is an e-mail--again, I assume that this e-
mail has been produced--where I am, I believe it is on Friday, 
September 2, screaming in the e-mails about where is the Army. 
I have been asking for the Army, where are they? I need the 
Army now.
    Senator Warner. Now, let's be more explicit. Part of the 
Army is the National Guard.
    Mr. Brown. Right, but I was----
    Senator Warner. You wanted active----
    Mr. Brown. I wanted active-duty forces.
    Senator Warner [continuing]. Duty forces.
    Mr. Brown. Right, because what I needed was I needed the 
active-duty military to take over logistics. I needed them to 
handle logistics because the civilian side had fallen and 
completely failed, and I needed logistical support from the 
Army.
    We were still also having the problems about control of the 
areas, and we had a lot of discussions, both General Honore and 
I did, about the whole law enforcement issue. We both, I think, 
and I think Secretary Rumsfeld--and I am not going to try to 
put words in any of their mouths, but we all had concern about 
once you federalize and bring in those active-duty forces, if 
they are doing law enforcement, I mean, these guys are trained 
to kill, and if some punk decided he wants to take a potshot, 
that punk is going to probably end up being dead, and that 
raises a whole plethora of issues.
    But I was pushing for federalization of National Guard 
troops--let's go to National Guard.
    Senator Warner. That would be the National Guard of the 
States of Louisiana, Mississippi----
    Mr. Brown. Mississippi, particularly--I have to parse that 
a little bit, particularly Louisiana, because I really felt 
that we needed to federalize those Guard troops, but understood 
that if we did it in Louisiana, we probably needed to do it in 
Mississippi also.
    And I really began advocating for that about midweek, and 
there is some----
    Senator Warner. Well, I think at this point you had better 
clearly state to whom did you advocate that because you have 
made the case that you were--and I am not faulting you--
circumventing DHS and going directly to the White House.
    Mr. Brown. Right.
    Senator Warner. So were those requests placed directly to 
the White House?
    Mr. Brown. Yes, those were being discussed, again, with Mr. 
Hagin and Mr. Card.
    Senator Warner. Right.
    Mr. Brown. And then the discussions on Air Force One 
centered around how could we do this, was there a way to do 
this--by ``doing this,'' I mean federalizing. Was there a way 
to federalize without invoking the Insurrection Act? Is there 
some way that we could figure out a way to somehow have a dual-
hatted command system? That was really beyond--I mean, generals 
needed to decide if they thought they could have a dual-command 
system. I have been in dual-command systems, and they don't 
work very well. But if General Honore thought that he could do 
that or General Blum thought he could somehow make that work--
--
    Senator Warner. Now, let's identify, General Blum is the 
head of the National Guard.
    Mr. Brown. National Guard, correct. So if they could figure 
out a way to make that work, a dual-hatted command, without 
actually invoking the Insurrection Act, that was fine with me 
because the end that I was trying to get to was I just wanted 
active duty in there to start doing things that I needed to get 
done.
    Senator Warner. Would that include law enforcement? Because 
it is a doctrine of Posse Comitatus, as you know.
    Mr. Brown. Yes.
    Senator Warner. Which explicitly prohibits that.
    Mr. Brown. And that is why we were trying to do this dual 
hat so that perhaps we could have the National Guard doing law 
enforcement while active duty was doing something else.
    Senator Warner. All right.
    Mr. Brown. That is a messy situation because when you are--
for example, if the National Guard is doing law enforcement on 
behalf of the Army, who is doing logistics, the Army is not 
going to put down their weapons just because they are handing 
out MREs. And so if they are doing that while the National 
Guard is doing law enforcement and a firefight starts, the Army 
is going to defend themselves, as rightfully they should.
    So it presented all sorts of legal and just practical 
considerations.
    Senator Warner. And I might add that they are all wearing 
basically the same uniforms, so those observing or 
participating in crime cannot distinguish between the two.
    Mr. Brown. That's correct.
    So it was my opinion that, however politically they needed 
to work it out with the Governor, we needed to federalize this 
operation.
    Senator Warner. And now, in the course of the questioning 
on that issue by the staff, at what juncture did you feel you 
had to withhold certain information on the advice of FEMA 
counsel?
    Mr. Brown. Discussions about what the President said in the 
conference room, conversations that I had with National 
Security Adviser Hadley.
    Senator Warner. Are you now prepared to inform this 
Committee what those conversations were?
    Mr. Brown. I believe, if I can get a clarification on the 
instructions, the instructions go to discussions with, say, 
Hadley, Hagin, and Card, but they don't yet go to the 
President. Is that correct?
    Chairman Collins. That is correct.
    Mr. Brown. OK. Secretary Chertoff, myself, National 
Security Adviser Hadley, General Blum, and occasionally Karl 
Rove was in and out of that particular room, and I think on the 
telephone--I don't want to speculate who was on the telephone. 
We were on a conference call, and I think it was--I believe it 
was back to maybe Fran Townsend and perhaps Andy Card because 
Andy wasn't on that particular trip. We were discussing how we 
could make a proposal to Governor Blanco to do this joint 
command without actually federalizing, and we were having 
discussions about, let's just federalize, let's not federalize, 
the pros and cons of, how is it going to look if we invoke the 
Posse Comitatus Act--I mean the Insurrection Act? How is Posse 
Comitatus going to fit into all of this? We were having some 
very heavy discussions about how we could do that. And National 
Security Adviser Steve Hadley was taking notes and trying to 
formulate a construct by which we could have federalization 
without invoking the Insurrect Act.
    Senator Warner. And what was the result of all of those 
conversations?
    Mr. Brown. The result was a draft that was sent to Governor 
Blanco that evening, I think sometime late at night, about how 
we could do that, which is the proposal that she ultimately 
rejected.
    Chairman Collins. Senator, we will have a second round. I 
know that some of the Senators have planes to catch.
    Senator Warner. Fine. I think I went only one minute over. 
I was allowing him to finish his answer.
    Chairman Collins. You were. Only two. Senator Dayton.
    Senator Dayton. Thank you, Madam Chairman. I want to thank 
you and also the Ranking Member, Senator Lieberman, for your 
extensive inquiries into this catastrophe, for the CODEL that 
you led, which I was proud to accompany you to Mississippi and 
Louisiana.
    I appreciate both of you appearing as private citizens 
before this Committee.
    Mr. Brown, you stated in your testimony previously to the 
House committee that you had communications with the White 
House ``30 times'' during the weekend before Katrina made 
landfall on Monday, August 29, and that included several calls 
to President Bush regarding that matter. Could you, since you 
are not under executive privilege, comment on with whom you had 
those conversations in the White House and what the substance 
of those conversations was, please?
    Mr. Brown. Yes. The conversations prior to me leaving 
Washington DC and going to Baton Rouge--there were at least one 
or two conversations directly with the President--I will just 
say, generally, about the situation and what was going on.
    Senator Dayton. I am sorry. Prior to the actual landfall?
    Mr. Brown. Yes.
    Senator Dayton. And what was the general nature of those 
conversations? You were apprising him of the----
    Mr. Brown. Apprising him of the situation. The one that has 
been reported in the news that I guess falls outside the 
privilege at this point is that I literally called the 
President and asked him to call Governor Blanco and to call the 
mayor and do everything he could within his persuasive powers 
to convince them to do a mandatory evacuation.
    Senator Dayton. And the other 30 calls then were to whom, 
please?
    Mr. Brown. Generally to either Andy Card or Joe Hagin, just 
here's what's going on, here's what we've mobilized, we're 
moving supplies into Texas, into Tennessee, moving supplies 
into Atlanta and other places so we can move in once we know 
where it makes landfall.
    Senator Dayton. I need to respectfully disagree with my 
colleague Senator Bennett--I am sorry he has departed--because 
at least according to this report in the New York Times, at 
11:05 p.m. on Monday, August 29, it states here there was an e-
mail message from FEMA's Deputy Director to Michael Jackson, 
Deputy Secretary of Homeland Security, which says we have just 
spoken with our first representative on the ground in New 
Orleans who did a helicopter tour and describes the 200-yard 
collapse of the levee on the south side of the lake.
    Wouldn't you reasonably be able to expect then, if your 
Deputy is communicating directly with the Deputy of Homeland 
Security, that the Secretary would be informed, if necessary, 
of that communication?
    Mr. Brown. Oh, absolutely, and that is my point about those 
systems are in place--the VTCs, the communications from 
headquarters--because I am running around in Baton Rouge trying 
to run operations. So absolutely, Senator.
    Senator Dayton. So, again, going to the New York Times 
article today, can you explain this apparent discrepancy? It 
says, ``But the alert''--referring to the prior alerts--``did 
not seem to register. Even the next morning''--which would be 
Tuesday--``President Bush, on vacation in Texas, was feeling 
relieved that New Orleans had `dodged the bullet,' he later 
recalled. Mr. Chertoff, similarly confident, flew Tuesday to 
Atlanta for a briefing on avian flu.''
    It would seem that both of these individuals had been 
informed, at least in your judgment, directly about the 
situation, which contradicts what they have stated here.
    Mr. Brown. Correct.
    Senator Dayton. OK. You stated in your testimony earlier 
today, sir, that--I believe I am paraphrasing, but trying to 
quote--``I ask the White House and they happen'' as a way of 
getting things to occur.
    Mr. Brown. Right.
    Senator Dayton. Can you state what in the immediate 
aftermath of the hurricane landfall, what did you request of 
the White House, and did they, in fact, happen?
    Mr. Brown. Great question because I am coming from the 
perspective of all the other disasters that I have described, 
particularly Florida in 2004, where that direct chain of 
command interface took place, and for the first time in this 
disaster, Andy Card replied to me at one point--and I don't 
remember what the specific request was, but I told Andy on the 
telephone I needed something, whatever it was. And his reply 
back to me was, ``Well, Mike, you need to feed that back up 
through the chain of command.'' And that became----
    Senator Dayton. What is the chain of command, sir, at this 
point?
    Mr. Brown. Well, at that point, that said to me, the way we 
had been doing business is not how I am always--I am going to 
have to kind of do this on the fly now, was I needed to go get 
Chertoff to agree to do that, which bothered----
    Senator Dayton. Did you do so, sir?
    Mr. Brown. Yes because Chertoff and I had--again, in the 
record there is a record of my phone calls back and forth to 
DHS constantly.
    Senator Dayton. So you went through the chain of command 
and then presumably he went to the White House, whatever. Did 
what was necessary to happen happen?
    Mr. Brown. Well, not always because we would--I was 
frustrated because the Army wasn't getting there quickly enough 
and things weren't--I mean, I was as frustrated as you were, I 
was as frustrated as the American public was, I am sure as 
frustrated as everybody in this room about the slowness of the 
response. People will tell you that I am a fairly calm 
individual, and I was certainly screaming and cussing at people 
while I was down in Baton Rouge.
    Senator Dayton. What specifically, sir, were you requesting 
and when did you request it that did not occur as expeditiously 
as you would have expected?
    Mr. Brown. I think the best way to answer that in the 
hearings is to refer you in particular to the e-mails between 
my military aides, General or Colonel Jordan, and I forget the 
name of the other Colonel--I apologize to him--that I would 
tell them what my priorities of the day were, and they would 
come back and say, ``Well, we haven't been able to get this 
moving, we haven't been able to get that moving.'' That will 
show you what I was frustrated about.
    Senator Dayton. OK. Thank you.
    In your testimony before the House Committee previously, 
you were asked by Congressman Thornberry, ``And so how many 
total FEMA people were prepositioned, approximately, at the 
Superdome?'' Prepositioned meaning before the hurricane's 
landfall.
    Mr. Brown. Correct.
    Senator Dayton. And you stated here, ``Counting the team 
which I will count as FEMA people, you know, a dozen.'' 
Subsequently, before this Committee, Mr. Bahamonde testified 
that, ``I was the only FEMA employee deployed to New Orleans 
prior to the storm.''
    Can you reconcile that apparent discrepancy?
    Mr. Brown. Yes. In fact, I have learned he's right because 
I had--we had deployed a National Disaster Medical Team--or I 
had specifically authorized an NDMS Team, Marty Bahamonde, and 
Phil Parr to go directly to the Superdome. And Marty was the 
only one who made it prior to landfall, and the others made it 
after landfall.
    Senator Dayton. How is it that you were misinformed, even 
months later when you made this testimony, as to the number of 
FEMA people who were actually in New Orleans prior to landfall?
    Mr. Brown. All I can tell you, Senator, is I tried to 
review every document I could get my hand on. At the time of 
that hearing, I just didn't recall.
    Senator Dayton. You stated, again, in an article today, 
sir, that the real story is the change in the structure, FEMA 
being put in as part of the Department of Homeland Security, 
which you say is a factor in this difficulty in response. And 
you elaborated on some of those points today. I guess I must 
respectfully disagree from my perspective in Minnesota, where 
in 1997 there was a serious flood, a major fire in Grand Forks 
adjacent to Minnesota, East Grand Forks was flooded. The 
response there in my recollection--and I was there just 2 weeks 
after. The testimony of the mayor of Grand Forks and others was 
that the FEMA response was quite exceptional. Subsequently, in 
June 2002, Roseau, Minnesota, in the northern part of the 
State, flooded. I was there as well, and this was prior to your 
becoming the Director, but the response of those who witnessed 
and participated in both situations was very definitely that 
FEMA's response in 2002, which is prior to this reorganization, 
was not nearly as effective as the one in 1997.
    So, I guess I would question whether the real problem here 
was this restructuring or whether it was whatever breakdowns 
that occurred in the executive agency.
    Mr. Brown. Right, and I think it's important for the 
Committee to realize that it is not just the folding of FEMA 
into DHS, but it has been the--and we should probably go back 
through some of my own testimony as Deputy Director and General 
Counsel, that FEMA always was really good at making do with 
what they had, and FEMA always suffered from this brain drain 
of people continuing to leave, an aging workforce, people who 
were retiring all the time. It was reaching--I mean, it was 
having its problems before it went into DHS, no question about 
it.
    Senator Dayton. Why was there a brain drain?
    Mr. Brown. It was just a function of the aging of the 
workforce, and they can make more money--I mean, some of the 
most skilled people that I found when I first came to FEMA's 
General Counsel had all gone within a couple of years because 
they can make so much more money after they put in their 20 
years or so by moving into the private sector. It was awful.
    Senator Dayton. Mr. Rhode, you had been at FEMA until just 
2 weeks previous to today?
    Mr. Rhode. Let me say it will be about almost 3 weeks today 
or tomorrow.
    Senator Dayton. Having been in New Orleans recently, again, 
reading recent reports about the situation there, the fact 
that, according to one report yesterday, of the 50 million 
metric tons of debris, only 6 billion had been removed, the 
fact that utilities have not been replaced, and an article 
today in the Washington Post states that FEMA will not make the 
decisions until August about what can be rehabilitated and what 
cannot, that it is holding up, at least according to this 
article, the people's ability to rebuild their houses and the 
like. Can you explain what has happened during this period of 
time over the last couple of months and help us, illuminate us, 
as to what the barriers are that prevent an effective response 
by FEMA?
    Mr. Rhode. Well, I can certainly talk to some of my 
experiences over the last couple of months. I am not certain 
that I am familiar with the August deadline. I am not sure if--
that happened after my departure from FEMA. I am not sure I can 
speak to that very well. But certainly the recovery of a 
90,000-square-mile area, you know, we often concentrate on 
Louisiana and New Orleans, but clearly in Mississippi and even 
some parts of Alabama, has been incredibly challenging. The 
debris alone is something that was on an absolute historic 
scale that we have never seen before.
    I cannot really speak to all of the challenges, although I 
can say that a lot of it has to do with local ordinances and 
local desires. I know FEMA tries to work very closely with the 
State and the locals as it relates to where they would like 
debris to be deposited, some of the local ordinances as to 
whether or not you go on private property or you do not. There 
are certainly an awful lot of challenges that collectively we 
have to overcome together on the table, and that is what the 
current recovery is all about in those States.
    Senator Dayton. Thank you, Madam Chairman.
    Chairman Collins. Senator Pryor.
    Senator Pryor. Thank you, Madam Chairman.
    Let me start, if I may, with you, Mr. Brown. It sounds like 
you have taken responsibility for the things that went wrong 
under your watch.
    Mr. Brown. Thank you, sir.
    Senator Pryor. Do you feel like the designated scapegoat? 
That was Senator Lautenberg's term.
    Mr. Brown. Why don't you issue a subpoena to my wife and 
have her come and answer that question, sir. [Laughter.]
    Senator Pryor. I can relate to that. But do you feel that 
way? Do you feel like you have been sort of set up to be the 
scapegoat?
    Mr. Brown. Yes.
    Senator Pryor. To be the fall guy?
    Mr. Brown. Yes, sir. I can't lie to you, but, yes, I feel 
that way.
    Senator Pryor. You feel like the Administration has done 
that to you?
    Mr. Brown. I certainly feel somewhat abandoned.
    Senator Pryor. OK. Let me ask this question about FEMA 
given your role there, your experience there. In your opinion--
just your opinion as a private citizen--should FEMA be in DHS?
    Mr. Brown. I don't want this to sound like a lawyer answer. 
How's that for a caveat? There was a time when I was still 
idealistic and was really fighting internally to make it work 
the way the statute intended, for Emergency Preparedness and 
Response (EP&R) to be EP&R. I have since come to the conclusion 
that the cultural differences are so wide and so great that it 
cannot function within DHS, and the things that have been done 
to it now--the stripping of preparedness out into a separate 
directorate, whatever is going to be announced next week, 
response going somewhere else--is going to drive the final 
stake in the heart of FEMA. The country, particularly 
governors, particularly mayors, will then be faced with a 
situation in a disaster looking around and saying, ``Who do I 
go to?''
    FEMA suffers from this lack of direct accountability to the 
President. All disasters are local, and you know if something 
happens in Arkansas or something happens in Minnesota or 
wherever it happens, you want to know that the FEMA guy and the 
President are on top of it and they are in charge.
    Senator Pryor. I appreciate your answer there, and I know 
that the previous administration had FEMA, as I understand it, 
as an independent Cabinet-level agency. Do you think it should 
be restored to that?
    Mr. Brown. Yes.
    Senator Pryor. And it sounds like from your previous answer 
it is the direct accountability that FEMA would have with the 
President that makes that important.
    Mr. Brown. What has happened, I've described it this way to 
both James Lee Witt and Joe Allbaugh, both friends of mine, 
that the job they had no longer exists. When they were the FEMA 
Directors, they were in charge of their budget; they made their 
argument directly to the President and to OMB. Now I make my 
case to another Under Secretary and hope to work through that 
bureaucracy or directly to the Secretary before it even gets to 
OMB. And so without that kind of direct accountability and that 
direct way to get things done, I think you marginalize FEMA to 
where it becomes ineffective.
    Senator Pryor. I appreciate your candor on that.
    Let me also ask, you mentioned in previous testimony today 
that you had a number of phone calls throughout your time at 
FEMA with President Bush, and that was in the context of you 
couldn't remember exactly when you talked to him and exactly 
what was said. I am trying to get a sense of how involved 
President Bush was with FEMA when you were there. Was this a 
frequent occurrence where you talked to the President? Are we 
talking about once a month or just every time a disaster 
happened? Or tell me, how involved was President Bush?
    Mr. Brown. I would say he was involved. We developed, I 
think, a very good relationship. Unfortunately, he called me 
``Brownie'' at the wrong time. Thanks a lot, sir. But we had a 
very good relationship where I could--whether we were on Air 
Force One or we were in the car together alone, that I could 
explain to him or express concerns or issues that I thought 
were important. And I always felt like I had a very good 
relationship particularly with Andy Card because Andy had gone 
through Hurricane Andrew; with Joe Hagin, who used to be a 
first responder and understands those issues. I had a very good 
relationship with those people. General Gordon, the White House 
Homeland Security Adviser, all of those people I had great 
relationships with.
    But there came a point where I recognized that I could no 
longer complain and argue about what needed to be done without 
starting to appear to be a whiner, and so I needed to pull 
back. There was a new Secretary there, and I think the White 
House had the attitude of we have a new Secretary now, Mike, go 
deal with the new Secretary.
    Senator Pryor. That was actually my next question, and that 
is, you served there under two different Secretaries, Secretary 
Ridge and Secretary Chertoff.
    Mr. Brown. Right.
    Senator Pryor. And not to put words in your mouth, but 
basically, as I understand your previous testimony today, there 
were critical times when, instead of talking to Secretary 
Chertoff, you in effect went around him and went to other 
people in the Administration to try to get things done. Is that 
a fair assessment?
    Mr. Brown. Yes, and, in fact, you are going to hear from 
witnesses today that I think are going to say Brown didn't 
think he worked for Chertoff and Brown didn't think he was part 
of the team. And the reason they say that is because I had a 
mission, and my mission was to help disaster victims. And I 
wasn't going to--I mean, I was going to do everything I could 
to prevent bureaucracy or to prevent new layers of bureaucracy 
or people who did not understand the relationship between State 
and local governments and FEMA to get in the way of doing what 
we needed to get done. So, yes, I was an infighter.
    Senator Pryor. This may be a little bit of an unfair 
question, but had Secretary Ridge been in control during 
Katrina, would you have gone through Secretary Ridge, or would 
you still have gone around the Secretary?
    Mr. Brown. I don't know how to answer that because my 
experience with Secretary Ridge was in Florida, he left me 
totally alone.
    Senator Pryor. Meaning left you alone to do your job or he 
abandoned you?
    Mr. Brown. Exactly. He left me alone to do my job. 
Secretary Ridge during Florida and the entire Department of 
Homeland Security apparatus stayed out of my way.
    Senator Pryor. And that changed with Secretary Chertoff?
    Mr. Brown. What happened was, I think with Secretary 
Chertoff the DHS apparatus now saw an opportunity to insert 
itself, as they had always tried to do, into FEMA operations, 
which necessarily slows things down. The HSOC, for example, 
does not exercise command and control. They don't have the ESF 
structure. They can't do those things. Yet during Katrina, they 
were trying to do that.
    There is, again, in the packet of materials that I have 
supplied the Committee today, a January 26, 2004, concept 
paper, ``The DHS Headquarters Integrated Operations Staff 
Capability,'' again, in which they are trying to now move those 
kinds of operational controls out of FEMA into DHS. And 
attached to that are a couple of e-mails and talking points 
about why we think that is a bad deal and is going to cause us 
even further problems. I would encourage you to look at that, 
Senator.
    Senator Pryor. OK. Thank you. I also have a question--there 
is a document that I have. I don't think it is in the record. I 
will be glad to submit it, if the Chairman would like me to, 
but it apparently is in connection with Hurricane Pam, that 
scenario there. The document is entitled ``Combined 
Catastrophic Plan for Southeast Louisiana and the New Madrid 
Seismic Zone: Scope of Work, fiscal year 2004.'' \1\ And it is 
interesting because I assume--it says ``fiscal year 2004.'' I 
assume it was drafted in 2003 or 2004. But if I can quote from 
it, it says, ``The most dangerous hurricane would be a slow-
moving Category 3, 4, or 5 hurricane that makes landfall at the 
mouth of the Mississippi River, moves northwest of and parallel 
to the river, and then crosses New Orleans and Lake 
Pontchartrain.''
---------------------------------------------------------------------------
    \1\ Document submitted by Sen. Pryor appears in the Appendix on 
page 110.
---------------------------------------------------------------------------
    I will skip down a little bit. ``The Federal Emergency 
Management Agency and Louisiana Office of Emergency 
Preparedness believe that the gravity of the situation calls 
for an extraordinary level of advanced planning to improve 
government readiness to respond effectively to such an event.''
    And I will skip down a little bit more. ``The geographic 
situation of southern Louisiana and the densely populated New 
Orleans area would complicate response problems and quickly 
overwhelm State resources.''
    So, in my view, here is a FEMA document that is screaming 
out that we have got to be prepared for this, and it sounds 
like FEMA just could not get anyone's attention, I guess, at 
DHS to do the proper level of preparedness. Is that fair?
    Mr. Brown. Senator, yes, yes, yes. I go back to the $80 
million that is being cut, and I specifically--FEMA had never 
done catastrophic planning. I wanted to do catastrophic 
planning. We got the $80 million to do that. New Orleans was 
the first place I wanted to go. The scenario that played out in 
Katrina was exactly the scenario we wanted to plan against. And 
I was rebuffed in getting the money to do that planning.
    Senator Pryor. Thank you.
    Mr. Rhode, I just have a few seconds left, and since you 
are from Hot Springs, Arkansas, I need to ask you at least one 
question.
    Mr. Rhode. Well, thank you very much, Senator.
    Senator Pryor. And this is an impression I have that I 
would just like to get your thoughts on because I know you have 
just recently left the Agency. But it appears to me--and I went 
down on the CODEL with almost all of us that are here right 
now, and it appears to me that there is a difference in how 
FEMA has dealt with Mississippi as opposed to Louisiana and 
specifically New Orleans. And it appears to me that it may be 
because FEMA--and maybe the Federal Government--just does not 
have a trust level with the City of New Orleans government and 
also the State of Louisiana's government. Is that fair?
    Mr. Rhode. Senator, I'm not sure that I've heard it 
explained that way at all. I am aware that there have been some 
challenges, certainly, perhaps unique in some regards, and 
historic challenges particularly within Louisiana and 
Mississippi. I know that there is a very aggressive recovery 
effort that is going on there, and it can get somewhat 
complicated because you are often dealing with many different 
opinions, many different voices from the public. You are 
talking about a housing situation which you are trying to 
determine where best to repopulate areas, where best to provide 
housing. It is a very difficult situation.
    I would like to believe that the FEMA approach is very 
consistent across all States that we deal with. Throughout the 
course of any one year, FEMA will administer some 50 to 60 
presidential disaster declarations or emergency declarations, 
and I would hate to think that the approach globally is 
different from one State to another. But I'm certain there are 
unique challenges within Louisiana.
    Senator Pryor. Well, Madam Chairman, I know that in the 
last few days on the front page of our statewide newspaper, 
there have been several stories about 8,000 or 9,000 trailers 
that are FEMA trailers that are sitting at the Hope, Arkansas, 
airport; that apparently Mississippi has received many 
trailers, many more than Louisiana has. And I think that is one 
reason I have that perception, is because it seems there is 
unequal treatment.
    And let me say this--I know I am over my time, Madam 
Chairman, but I think this Committee has heard--or at least, 
speaking for myself, I have heard enough about the problems at 
FEMA, and I am ready to fix it, and I hope that this Committee 
will get very serious over the next few weeks and few months to 
fix it.
    So thank you, Madam Chairman.
    Chairman Collins. Mr. Brown, over the course of our 
investigation, numerous officials have expressed concern that 
you were selected as the Principal Federal Officer for 
Hurricane Katrina. And, indeed, your own e-mails also expressed 
displeasure at your selection for this duty.
    A Department of Homeland Security official told us that you 
do not agree with much of the National Response Plan and, in 
particular, that you oppose the concept of a Principal Federal 
Official, a PFO. A key author of that plan, who will be 
testifying before us next, Assistant Secretary Robert Stephan, 
told our investigators that you opposed the concept of a 
Principal Federal Official and that you did not agree with the 
concept, thought it was unnecessary, and didn't fully 
understand a lot of the responsibilities in the National 
Response Plan--and this is a quote--``as evidenced by what Mr. 
Brown failed to set up.'' In your own interview with the 
Committee staff, you called the concept of a PFO ``silly.''
    Now, this is an important issue because that is a major 
concept in the National Response Plan. DHS officials have told 
us that you were replaced as the PFO on September 9 after it 
became clear that you were not carrying out your 
responsibilities satisfactorily, and since some of these same 
officials will be testifying very shortly before us, what is 
your answer to those criticisms of how you performed as PFO?
    Mr. Brown. The PFO function, we have done a great job as 
Republicans of establishing more and more bureaucracy. It 
absolutely flabbergasts me that as Republicans we have come in 
and established on top of the Federal Response Plan, a plan 
that worked, that States understood, that we have taken that 
plan and we have created it in a vacuum. We put it together--I 
mean, EP&R was supposed to put the NRP together, and instead it 
was given to TSA. Now, explain that one to me, Senator. And 
then it shifted over from TSA to some military guys that have 
never worked in a consensus way with State and local 
governments, who have prime responsibility in a disaster.
    I would refer you to a memo dated April 6, 2004, 
regarding--it's a legal memo in which they are discussing the 
legal issues surrounding the proposed regional structure for 
DHS. And it very accurately reflects the conflicts that are 
created by the creation of the PFO cell versus the FCO under 
the Stafford Act and the FEMA Director and what their roles are 
supposed to be.
    I can tell you from experience that the PFOs who have been 
appointed to date--and since we are not in a courtroom, no one 
can object about hearsay, so I am just going to tell you 
generally what they have told me. They believe that the PFOs, 
that their role is simply to give the Secretary information 
about what is going on. Yet in the document itself, it gives 
the PFO operational responsibilities to actually do things in a 
disaster.
    That conflicts directly with the role of the FCO and 
directly with the role of the Director of FEMA or the Under 
Secretary for EP&R. And those are outlined in that memo.
    So what happens is I get designated as the PFO, which means 
that I am instructed by Secretary Chertoff to plop my rear end 
down in Baton Rouge and to not leave Baton Rouge. You can't run 
a disaster that way. You can't run a disaster unless--as I did 
atall of the other disasters, going into the field, going out 
and seeing what's going on, getting into New Orleans, getting 
into Jackson. I was told to not go back to Mississippi. Well, 
how can the FEMA Director, because he is now the PFO, how can I 
know what's going on in Mississippi if I can't go there and sit 
down with Haley Barbour and find out what's going on?
    Chairman Collins. But you see no value to having a single 
person designated as the Principal Federal Official, as Admiral 
Allen was after you were replaced? And he is generally credited 
with improving the coordination and response.
    Mr. Brown. Because Admiral Allen was then given the 
wherewithal to leave, to go do things, if he needed to be in 
New Orleans, to go to New Orleans, to be able to go to Jackson, 
Mississippi, to be able to go wherever he needed to go. I was 
literally constrained by Secretary Chertoff and told to stay in 
Baton Rouge after my first trip to Jackson, Mississippi. My 
hands were tied by him.
    Chairman Collins. One final question in my remaining time. 
You stated earlier that, in retrospect, you should have called 
in the Department of Defense earlier to take over the logistics 
because you knew that FEMA would be overwhelmed by Hurricane 
Katrina. If you knew that FEMA's logistics system would be 
overwhelmed, why didn't you recommend to Secretary Chertoff 
that he exercise his authority to call in DOD sooner?
    Mr. Brown. I take blame for this. But on August 30, we 
issued a mission assignment to DOD for airlift and for other 
capabilities. I don't know whether that mission assignment was 
ever implemented or ever done. But as early as August 30, I 
made that request back to headquarters for that to be done.
    I still stand by my earlier testimony that what I wish I 
had done was even prior to landfall, which then--and I'm not 
trying to be flippant here, Senator, but had I requested 
active-duty military to move in there, and Katrina had made a 
slight move to the left or to the right and gone somewhere else 
and we didn't have this--and I mean this in all due respect--
you would have been having me up here testifying about why I 
wasted money having the military come in and preposition 
itself.
    So I'm trying to balance those two things off. Do I really 
step out on a limb prior to landfall and demand active-duty 
military for something I may not need, or do I do it after it 
has made landfall? And that is just a judgment I made, and in 
hindsight, I wish I had just rolled the dice and said do it 
now.
    Chairman Collins. Senator Lieberman.
    Senator Lieberman. Thanks, Madam Chairman. Thanks again, 
Mr. Brown.
    I want to come back to Monday night after the day of the 
hurricane hitting, Marty Bahamonde calls you, you call Joe 
Hagin, who is with the President at Crawford. You are not sure 
if the President was on the conversation. You inform them that 
New Orleans is underwater. Does Joe Hagin at that point ask 
you, ``Do you have everything you need?'' Do you ask for 
anything from them?
    Mr. Brown. I don't recall on that particular conversation 
asking for anything in particular. I know he asked me. He 
always asked me do I have everything I need.
    Senator Lieberman. Right.
    Mr. Brown. But I don't recall specifically saying that 
night I need X, Y, Z because literally the storm had just made 
landfall, the levees were just breaking, and we were trying to 
get a handle on what we needed.
    Senator Lieberman. OK.
    Mr. Brown. And as I testified in front of the House, I was 
still, naively so, thinking that I could get this unified 
command structure established within Louisiana and that we 
could get things done.
    Senator Lieberman. Right.
    Mr. Brown. I was still in that mind-set at that point.
    Senator Lieberman. And that Monday night, again, after you 
spoke to Bahamonde and then Hagin, did you have any other 
conversations with the White House?
    Mr. Brown. Oh, every single day.
    Senator Lieberman. No, but I mean Monday night, on August 
29, the day of landfall, after you called Hagin, when the 
President may or may not have been on the phone, did you----
    Mr. Brown. Yes. I had a late evening phone call I think 
with Hagin, and I had an e-mail exchange with Andy Card.
    Senator Lieberman. And can you describe the tenor of those 
exchanges?
    Mr. Brown. I can tell you the e-mail to Andy Card basically 
says this is what we expected and we're going to have----
    Senator Lieberman. Yes, actually I have seen that one. This 
is the big one, you said.
    Mr. Brown. Yes.
    Senator Lieberman. Right. And pretty much the same exchange 
with Hagin.
    Mr. Brown. Yes.
    Senator Lieberman. I want to go back because a part of what 
we are looking at here is whether the Federal Government could 
have done--obviously we reached some conclusions that it should 
have done more in preparation. Senator Dayton referenced a 
comment you made to the House Select Committee in the fall that 
you thought you might have talked to the White House before 
landfall on Monday, maybe as many as 30 times. By your 
recollection, when did those calls start? Was it Thursday? 
Friday?
    Mr. Brown. Probably speculating--if the records prove me 
wrong, they'll prove me wrong, but probably on Thursday because 
we had literally started doing--FEMA had already started 
ramping up Monday or Tuesday of that week.
    Senator Lieberman. Based on weather forecasting, obviously.
    Mr. Brown. Right.
    Senator Lieberman. And do you recall--there is, in the 
transcript of the video teleconference that occurred on 
Sunday--incidentally, you begin it, for the record, by 
welcoming Deputy Secretary of Homeland Security Michael Jackson 
to the conference call, so at least there was a direct call--
and one would hope, and we will ask, that the Deputy Secretary 
told the Secretary in that call Dr. Mayfield was very alarmed, 
and you said this is a catastrophe within a catastrophe.
    But when the President is on the call from Crawford, he 
thanks you, and he says to you, ``I appreciate your briefing 
that you gave me early this morning about what the Federal 
Government is prepared to do to help the State and local folks 
deal with this really serious storm.'' That was a private call 
or a personal call, I assume, that you had Sunday morning with 
the President of the United States.
    Mr. Brown. Correct.
    Senator Lieberman. And, again, in that call you were 
telling him how serious the situation was based on the weather 
forecasting and reporting, as he says in the transcript we 
have, that you think you are ready to handle it.
    Mr. Brown. Senator, the best that I can explain to this 
Committee--I don't know how to put it into words. I sat in 
those VTCs on Thursday, Friday, Saturday, and I think I was 
there for the one Sunday before I left----
    Senator Lieberman. And these are all--and this is very 
important. These video teleconferences are happening Thursday, 
Friday, Saturday, and Sunday before the Monday on which the 
hurricane hit.
    Mr. Brown. That's correct.
    Senator Lieberman. And on those video teleconferences, you 
probably got the Homeland Security Department, the Weather 
Service, the White House----
    Mr. Brown. They are all tied in. You don't always 
necessarily see them on the screen, but they are all tied in.
    Senator Lieberman. Yes.
    Mr. Brown. And they all have the opportunity to tie in.
    Senator Lieberman. Let me go on and just ask you, do you 
remember any other personal calls with the President that 
weekend, except for the one on Sunday morning?
    Mr. Brown. I don't think I talked to him personally once I 
landed in Baton Rouge. I was only talking to Hagin.
    Senator Lieberman. How about before, during that weekend?
    Mr. Brown. Oh, yes, on Sunday--I left on Sunday, as I 
recall.
    Senator Lieberman. Yes, I know about the call you had with 
the President on Sunday. Was there anything on Friday and 
Saturday?
    Mr. Brown. I don't think so Friday, but I do believe there 
was on Saturday.
    Senator Lieberman. One direct with the President? And to 
the best of your recollection, what did you say?
    Mr. Brown. Just I was expressing my concern, as I was in 
the VTCs all along, that this is a big storm, this is the one 
we have all worried about, and depending on where it goes, it 
could be catastrophic.
    Senator Lieberman. And, again, were you asked by the 
President or Mr. Card or Mr. Hagin, ``Do you have everything 
you need?''
    Mr. Brown. I'll say it again. I can't ever think of a 
conversation where--I never ended a phone call, with 
particularly Joe or Andy, where they didn't say, ``Do you have 
everything you need.''
    Senator Lieberman. I want to ask you one more question, but 
I will ask rhetorically whether, looking back at it, you may 
have mislead them because as it happened, FEMA, DHS, not to 
mention the State and local governments, didn't have everything 
they needed to respond to Hurricane Katrina.
    Mr. Brown. And that gets back to Senator Collins' point 
about me asking for the Army earlier. In hindsight, which, of 
course, is perfect, knowing my fears and the planning we have 
done for New Orleans, I do wish that I had called for and 
talked to either Rumsfeld or England prior to it even making 
landfall and requesting those DOD assets at that time.
    Senator Lieberman. Madam Chairman, since Senator Lautenberg 
has left, I am going to ask one more quick question. It is my 
last.
    One of the more perplexing allegations made about FEMA's 
failure to deliver in the aftermath of Katrina came from 
General Bennett Landreneau, the head of the Louisiana National 
Guard, and it also came from Governor Blanco last week, but 
very strongly yesterday from General Landreneau, that seeing 
what was happening on Monday, the day of landfall, during the 
day, they said, ``We desperately need a means to get people out 
of New Orleans who have not been able to evacuate on their 
own.'' And you told them, ``I'm going to get you 500 buses.'' 
And General Landreneau said, ``Monday night they didn't come. 
We spoke again Tuesday. FEMA said they're on their way. 
Wednesday, they're still not there.'' And we find in our 
investigation that it wasn't until 1:47 a.m. on Wednesday that 
FEMA actually asked the Department of Transportation to provide 
the buses, which last week the DOT person told us they were 
ready to do.
    So they begin to arrive late Wednesday night, mostly on 
Thursday morning. Meantime, as I said before, we are seeing 
these horrific human conditions, embarrassing to our country, 
not what we are all about, in the Superdome and the Convention 
Center. So why didn't FEMA deliver those buses on Monday when 
you said you were going to do it?
    Mr. Brown. I wish I knew the answer to that, Senator. I 
think it goes back to what we saw in the Mitre study, again, 
that I asked for, because I knew that the logistics system in 
FEMA was broken and that we couldn't do some of those things. I 
knew that and was desperately trying to fix it. All I can tell 
you and all I can tell the country is that those nights I would 
sit in my room crying sometimes, screaming, arguing, because I 
was as frustrated as the country.
    Senator Lieberman. So let me just----
    Mr. Brown. Because I'm asking for this stuff, and I can't 
make it happen.
    Senator Lieberman. I got you, and I hear you, and that is 
what you are saying, that, in fact, when you told General 
Landreneau, ``I am going to get you 500 buses''----
    Mr. Brown. I was going to get him 500 buses.
    Senator Lieberman. You, in fact, asked somebody.
    Mr. Brown. Yes.
    Senator Lieberman. On Monday, to the best of your 
recollection?
    Mr. Brown. That's right.
    Senator Lieberman. Well, later on, when you come back to 
the staff, we're going to ask you why you think it took until 
Wednesday morning for that e-mail to go to DOT. Thanks, Mr. 
Brown.
    Thanks, Madam Chairman.
    Chairman Collins. Senator Warner.
    Senator Warner. Thank you, Madam Chairman.
    What is your overall assessment of the professionalism that 
the military was able to bring to bear on this situation? And 
if you wish to separate Guard from active, but generally 
speaking.
    Mr. Brown. Senator Warner, I'm so doggone jealous of their 
planning capabilities I could scream. Their ability to--one of 
the fallacies in FEMA pre-DHS, and I believe one of the 
fallacies currently within DHS, is a robust planning cell that 
can do the kind of planning that I've been screaming about for 
3 years, and they can do it. And by having two military aides, 
just two planners, two colonels come in and sit down with me so 
I can turn to them and say I need X, Y, Z, they can start 
planning how to make that happen. And we didn't have that.
    My interfacing with Honore was absolutely the most 
professional at all times. I consider the man to be a friend 
now. He was a lifesaver to me. My relationship with Secretary 
Rumsfeld, to a certain extent, but even more so with Deputy 
Secretary England, a personal relationship there, I admire 
those guys. They have got the kind of things that we need.
    Having said that, I am one of these that I don't think the 
military needs to be involved in disasters, like maybe some do. 
But we need to replicate and duplicate and perhaps adopt some 
of their methods of doing things within Homeland Security.
    Senator Warner. Well, let's talk specifically about what 
occurred in this instance. You say you don't think they should 
be involved, yet you are requesting them and you have 
recognized they have assets, from helicopters to trucks and 
heavy lift capacity. And they have got a turnaround time--often 
within hours they can produce. So I think you want to go back 
and revisit they should not be involved in these things.
    Mr. Brown. We have to be very careful because they have a 
mission, and if I were Rumsfeld or England, I would be very 
concerned about diluting that mission by giving them these 
additional responsibilities.
    Senator Warner. Well, I would have to differ a little bit 
with you there. When we consider the amount of suffering and 
destruction here and the military has a very vital role in 
homeland defense--Admiral Keating was before this Committee the 
other day. I work with Rumsfeld and England on a daily basis, 
and Keating.
    Mr. Brown. Right.
    Senator Warner. And they are there and trained, and the 
President of the United States and the people want them 
involved.
    Mr. Brown. In a catastrophic event, no question.
    Senator Warner. Right.
    Mr. Brown. But there is a slippery slope that we go down 
where suddenly State and locals will become more and more 
dependent upon active-duty military to respond.
    Senator Warner. All right. Let's go back to this particular 
incident. What grades do you wish to give them?
    Mr. Brown. Oh, I give them an A.
    Senator Warner. An A, all right. Well, that is consistent 
with what others have stated here. Did you from time to time 
make the decision to bypass Chertoff and go directly to the 
White House on requests for the military?
    Mr. Brown. Yes.
    Senator Warner. And do you feel that those requests were 
responded to, to your satisfaction?
    Mr. Brown. Yes.
    Senator Warner. So that chain of communication was 
effective and results were delivered.
    Mr. Brown. Right. And I think the other thing that--again, 
as in almost any disaster, which is why you need to train as 
you fight and fight as you train and you need to have 
preparedness tied to response, which is my mantra. It is 
because you need to know those people when you actually get 
into the battle. You need to know who you are dealing with. And 
that is one of the fatal flaws within DHS right now, is 
separating this preparedness from response. Go back to 1978--I 
don't think you were in the room when I mentioned it, but there 
is a 1978 NGA report which talks about that very issue. Tom 
Ridge wrote a letter to the Washington Times in 1989 saying if 
you separate response from preparedness, it is a fatal flaw. We 
need to keep those together, and I think if we can learn from 
the military and tie those together, we can make it work.
    Senator Warner. I was listening to the hearings elsewhere, 
and I did follow that colloquy that you had.
    Do you feel that the inability of the President, as I 
understand, trying to work with the Governor of Louisiana to do 
a certain degree of maybe bifurcated federalism, i.e., the dual 
hat, as a consequence of that not occurring, did that 
contribute to some of the problems?
    Mr. Brown. Absolutely, no question. I think it contributed 
to two things: The continued delay in response and my demise.
    Senator Warner. I understand the delay in response, and now 
your demise, you mean in terms----
    Mr. Brown. Because as long as I was not able to get that 
done, I still couldn't get a unified command structure 
established within New Orleans because I didn't have the 
capability to do that. James Lee Witt comes down and actually 
says to the President--once he is hired by Governor Blanco, 
James Lee stands behind me and says, ``Mr. President, now that 
I'm here, Mike and I are going to establish a unified 
command.'' But by that time, it was too late.
    Senator Warner. It was too late.
    Mr. Brown. Too late.
    Senator Warner. And had it been done, you feel that much of 
the suffering could have been spared, and the devastation----
    Mr. Brown. The suffering could have been alleviated. I may 
or may not still be the Under Secretary, but----
    Senator Warner. Well, facts are facts.
    Mr. Brown. Right.
    Senator Warner. General Honore, working with you and the 
TAG from Louisiana, more or less worked this out even though 
there was not a formalization of a dual hat. They did it by 
sheer force of their own personality and their understanding of 
what a military person must do when they face extreme 
situations. Whether they have orders or not, they are trained 
to act.
    Mr. Brown. That is the best description I have heard of how 
it came about. We did it without--I mean, they just did it.
    Senator Warner. But it would have been better if it had 
been formalized and earlier on.
    Mr. Brown. Clearly.
    Senator Warner. That is clear. Now, again, I return to the 
record. The Chairman has indicated that you will be given an 
opportunity to go back over several questions. But this is a 
unique moment. You are here, and the eyes of many are upon it. 
Do you wish to at this time go back and reflect on some of 
those dozen different questions where you followed the advice 
of FEMA counsel and did not give a full response and give your 
responses at this time?
    Mr. Brown. If we have questions that they would like to 
pose, I'd be willing to do that, sir.
    Senator Warner. All right. But I do not have the full 
litany of questions before me. I understand you will have the 
opportunity. But at this time, there is nothing further in the 
context of what you withheld that you would like to proffer at 
this time?
    Mr. Brown. No, sir.
    Senator Warner. Good. To you, Mr. Rhode--you have been very 
quiet here, but I would like to direct just sort of a general 
question to you. You have followed very carefully the responses 
given by Mr. Brown to the series of questions propounded by the 
Senators here. Do you feel that there is any additional 
information on any of those colloquies that you would like to 
provide?
    Mr. Rhode. It's hard for me to say, Senator. I appreciate 
the question very much.
    Senator Warner. We are trying to build a record, and it is 
important that we get in as much as we can.
    Mr. Rhode. Absolutely, sir. I appreciate that, and I have 
appreciated the opportunity to work with staff over the last 
couple of months, too, when I was employed with FEMA. I do 
believe that this was an absolutely incredible challenge that 
faced our country, one perhaps unprecedented, it goes without 
saying.
    I would like to see in addition to potential FEMA 
efficiencies that need to be improved--and I think we all agree 
that there are certainly some that need to be improved--it was 
true before I arrived and is certainly true after I left--in 
the way of logistical tracking, in the way of improving 
situational awareness, some of these items that I know have 
been talked about before this Committee.
    I would also like to see greater accountability as well, 
too, within the National Emergency Management System, and in my 
opinion, that means perhaps greater protocols, greater 
understandings of roles and responsibilities between the local, 
the State, the Federal system, greater accountability within 
all levels of government and government agencies. I think we 
need to take a hard look at the Emergency Support Functions, as 
they currently exist, when FEMA calls them together, and how 
they perform and what they are expected to do, and perhaps 
build in greater metrics and goals and deliverables together 
with that.
    I think that the system is one that has worked very well 
and served the country very well, but I think it's one we need 
to take a very serious look at as it relates, obviously, to a 
catastrophic event.
    Senator Warner. Thank you very much. My time has expired, 
Madam Chairman.
    Chairman Collins. Senator Akaka.
    Senator Akaka. Thank you, Madam Chairman.
    Mr. Rhode, when Mr. Brown was named the PFO the day after 
Katrina made landfall, he relinquished his role as Director of 
FEMA, according to the National Response Plan, NRP, which made 
you temporary FEMA Director. Were you aware of this provision 
in the NRP when Mr. Brown was named PFO? And if not, when were 
you made aware of your new role?
    Mr. Rhode. Senator, I'm not certain as I sit here that I 
was made aware that Mr. Brown's title as Director had been 
removed, even temporarily. I honestly can't say that I remember 
hearing that.
    Senator Akaka. Was there ever a time when you knew that it 
was your responsibility?
    Mr. Rhode. Senator, I'm not certain that I've heard that, 
to be completely honest and candid. My role was one as the 
chief of staff from the time that I joined FEMA until the time 
that I left FEMA. I joined FEMA in April 2003, and I left just 
recently in January 2006, with the exception of roughly an 8-
week period where I was also given the title as well, too, as 
Acting Deputy Director. I'm not aware during the time of the 
early days of Katrina, as Mr. Brown was initially named 
Principal Federal Officer, I'm not aware of any additional 
impacts to me or how I was conducting myself in the office.
    Senator Akaka. Mr. Brown may have chosen to ignore the NRP, 
but according to that plan, he was no longer the FEMA Director 
for that disaster, and this may be contributing to the problems 
that we are talking about.
    Mr. Rhode, when you were asked during your interview with 
the Committee about the resources FEMA could have made 
available to New Orleans once the city began to flood, you 
discussed search and rescue capability. Is it your 
understanding that search and rescue is the only resource FEMA 
could have provided to New Orleans once the city flooded?
    Mr. Rhode. Senator, my understanding is that there were 
many resources that were applied to the City of New Orleans and 
the entire 90,000-square-mile area that FEMA had within its 
command, whether they were assets that FEMA perhaps could 
federalize or assets that other agencies were contributing 
through the FEMA Federal system.
    Senator Akaka. Now, when you discussed the rescue and 
search capabilities, you were aware that you were acting as the 
Director, were you not?
    Mr. Rhode. I was not aware that I was acting as the 
Director of FEMA, no, sir, but I was aware that while Mr. Brown 
was away that I was acting, as best I could, to lead FEMA, yes, 
in Washington, DC.
    Senator Akaka. Mr. Brown, I noticed an e-mail in the 
documents you released only this morning dated September 1. The 
e-mail was from Brooks Altshuler. Who is he?
    Mr. Brown. Brooks was my Policy Director at FEMA, and I 
think he may have held a dual title of Deputy Chief of Staff 
also.
    Senator Akaka. In the letter, you are told to, ``Please 
talk up to the Secretary'' in your press conferences. You were 
also told to say that there was a ``solid team with solid 
support from the Secretary.''
    What was the reason for this e-mail?
    Mr. Brown. I don't know. In fact, I asked Brooks about 
that. I wanted to know what was going on. I was getting very 
frustrated. There is also an e-mail in there where I tell them 
that I have told Mr. Chertoff that the number of phone calls 
and--I called them ``pings''--the pings that we were getting 
for things was literally driving us nuts, that we had 
operations to run, and that there were channels by which you 
could get information, but we needed to be doing things.
    I was particularly upset one time when there had been a 
request for a briefing of the Secretary one morning. He had 
called me late in the evening for numerous things to be briefed 
about the next day. I pulled the team together. They spent the 
night getting their briefings together, and then they twiddled 
their thumbs for about 2 hours that morning, waiting for him to 
get off some phone calls or something. And I finally dismissed 
the briefers and just told them to go back to work because you 
can't have two people in control. Either somebody's going to 
run the disaster or somebody's not going to run the disaster. 
And I think that just stemmed from the inability to understand 
that there was a catastrophic disaster going on, people had 
things to do that they needed to be doing.
    Again, drawing the difference between, say, Florida and 
Katrina, I never had a decision second-guessed in Florida. Yet 
in Katrina, there were times when I would make a decision and 
find out that the decision hadn't been carried out because 
somebody above me, either on the Secretary's staff or the 
Secretary himself, had made a contrary decision or that there 
had been conferences, conversations with people in the field, 
that would contradict either FEMA policy or what we should be 
doing. And it became an absolutely unmanageable situation.
    I'm not very good at hiding my feelings. I don't play poker 
for that very purpose. And so I imagine at one point Brooks was 
frustrated that maybe it appeared that I was a little ticked 
off about some stuff.
    Senator Akaka. I want to thank you so much for being as 
responsive as you have been, both of you.
    Mr. Brown. Senator, I am here to get the truth out.
    Senator Akaka. I really appreciate that. Did you perceive 
that this e-mail--do you interpret that e-mail as being more 
perception than substance?
    Mr. Brown. Clearly. But perception is reality sometimes, 
too.
    Senator Akaka. Well, again, I want to thank you. As I 
mentioned earlier in my first statement, you should not be held 
a scapegoat and we cannot look only at you and Mr. Rhode, but 
at the whole system.
    Mr. Brown. May I say something, Senator?
    Senator Collins. We are getting very late on time.
    Mr. Brown. I just appreciate the fact that this has been 
bipartisan, and to have that come from you, Senator, I greatly 
appreciate that.
    Senator Akaka. Thank you very much, Madam Chairman.
    Chairman Collins. Thank you. Senator Dayton.
    Senator Dayton. Thank you, Madam Chairman.
    Mr. Brown, just to try to make sure that this chronology as 
described today in the New York Times is accurate, Monday, 
August 29, it states here, 9:27 p.m., an e-mail message from--
with the subject FYI from FEMA was sent to the Homeland 
Security Secretary Michael Chertoff's Chief of Staff. It says, 
``The first reports they are getting from aerial surveys in New 
Orleans are far more serious than media reports are currently 
reflecting.''
    10 p.m., in a conference call, Mr. Bahamonde describes the 
levee breach and flooding to FEMA operational staff.
    10:30 p.m., a Homeland Security Situation Report states, 
``There is a quarter-mile breach in the levee near the 17th 
Street Canal.'' The report reaches the White House later that 
night.
    11:05 p.m., an e-mail message from FEMA's Deputy Director 
to Michael Jackson, Deputy Secretary of Homeland Security, it 
says that the breach has occurred.
    Do you know when it says here the report reaches the White 
House later that night to whom that report reached?
    Mr. Brown. Only based on what I've read in the papers, and 
I would disagree with you, based on my personal experience, 
just because it's in the New York Times doesn't mean I believe 
it.
    Senator Dayton. That is why I am asking you. Do you know 
whether the White House or anyone in the White House was 
informed on that Monday night by any communication----
    Mr. Brown. What I understand that report is about, it is 
about, it is about a SIT report, a situation report that went 
to the White House situation room. I can tell you and in my 
testimony is, from my conversations directly with Hagin and 
Card and others, that they were aware of what was going on.
    Senator Dayton. They were aware as of when?
    Mr. Brown. I have to go back and look at my cell phone----
    Senator Dayton. When were they aware of the breach, to your 
knowledge?
    Mr. Brown. Sometime that day.
    Senator Dayton. Monday?
    Mr. Brown. Monday.
    Senator Dayton. Monday sometime. Afternoon? Evening?
    Mr. Brown. My guess is afternoon because I was still--we 
were still debating at the EOC between the State and the Feds 
is it a breach or is it a top. And not until later that 
afternoon would I have expressed that it was actually a breach 
to Hagin or Card.
    Senator Dayton. But Monday afternoon.
    Mr. Brown. Yes.
    Senator Dayton. According to this chronology in the New 
York Times, which is not always perfect or correct, the 
Homeland Security Chief of Staff was informed Monday evening as 
well as the Deputy Secretary Monday evening about the reality 
of this breach of the levee. Again, this same article quotes 
Russ Knocke, if that is the right pronunciation, a Homeland 
Security spokesman, said that although Mr. Chertoff had been 
``intensively involved in monitoring the storm, he had not 
actually been told about the report of the levee breach until 
Tuesday after he arrived in Atlanta.''
    Was he intensively involved in monitoring the storm?
    Mr. Brown. I don't know because I wasn't with him. I was in 
Baton Rouge.
    Senator Dayton. OK. And he was where?
    Mr. Brown. I don't know where he was.
    Senator Dayton. OK. Is this typical that in this kind of 
serious emergency that the Deputy Secretary and the Chief of 
Staff of the Department would not inform the Secretary 
immediately or very soon thereafter of receiving that kind of 
information?
    Mr. Brown. They would have had the same information because 
they would have been on the VTCs, and they would have had the 
same SIT reports. So they would have or should have been just 
as informed.
    Senator Dayton. And then subsequently, you stated in your 
testimony previously that the Secretary, ``tied your hands by 
not allowing you to go back to Mississippi or New Orleans.'' 
When did that occur? And how were you prevented from----
    Mr. Brown. I want to say it was Wednesday when I made a 
quick trip to Jackson. But I'm not certain of the particular 
day. And on the flight back, he reached me on Mil Air, and we 
had a discussion, and he was quite irate that I had been in 
Mississippi. And I was explicitly told to go to Baton Rouge and 
not leave Baton Rouge.
    Senator Dayton. And why did he--what reason was given for 
that?
    Mr. Brown. Apparently because cell phones were down and he 
had a hard time making contact sometime. I don't know what the 
rationale was.
    Senator Dayton. OK. And, similarly, you can't reconcile the 
fact that you informed the President's Chief of Staff Monday 
afternoon about the breach in the levee and the President then 
subsequently stated that he was not aware on Tuesday morning?
    Mr. Brown. I don't know.
    Senator Dayton. OK. Yesterday, in our hearing, the 
Assistant Secretary of Defense, Paul McHale, stated that it was 
on Thursday, September 1, that FEMA made a request for DOD to 
accept the responsibility to provide ``full logistic support'' 
throughout the entire area affected by Hurricane Katrina. 
Again, according to published reports, you toured by helicopter 
the New Orleans area on Tuesday. Who would have provided that 
full logistic support, if not DOD, prior to that request? And 
then why was it 48 hours later before that request was made?
    Mr. Brown. It would have been the Louisiana National Guard 
who would have done it, plus FEMA's team, such as Urban Search 
and Rescue Teams or any other rapid needs assessment teams that 
we might have had on site would have been doing it. And that 
fits in pretty well--I had not heard that comment from Paul 
McHale, but that fits in pretty well with my recollection that 
on August 30, indeed, there is a mission assignment, and my 
understanding, by August 30, I was requesting active-duty 
military.
    Senator Dayton. August 30, which is 2 days prior to when he 
is testifying here that the request is----
    Mr. Brown. Right, and based on what I've seen so far, the 
timeline of these things, that wouldn't surprise me.
    Senator Dayton. It wouldn't surprise you that it takes 2 
days for a request from FEMA to reach the DOD?
    Mr. Brown. I guess.
    Senator Dayton. Well, I would suggest, Madam Chairman, that 
is something we should inquire--I would ask--my time is almost 
up here. For the record, I appreciate, again, both your 
appearances. If you could help us--the critical thing here is 
we need to look ahead. We need to understand why FEMA was 
unable to respond, and I just want to put in the record here 
this quote again today of the papers to clarify. It says, 
``Everybody is waiting''--this is as of today--``for the FEMA 
maps like they were the oracles at Delphi. The maps will tell 
residents and businesses where and how they can rebuild. Those 
maps will tell people whether or not they can get flood 
insurance. And if they can't get flood insurance, they may want 
to sell. But there may not be a market for the house, so the 
government may swoop in, raze the house, and build a park. 
Preliminary FEMA maps are scheduled to come out in the spring, 
but final Federal guidelines for rebuilding may not be released 
until August,'' etc.
    I mean, these--not just the immediate aftermath--but these 
alleged bureaucratic delays seem to be at the crux of why more 
progress has not been made in clearing away and rebuilding New 
Orleans. And to the extent that if there is anything that we 
can do legislatively, or whatever, that empowers FEMA to be 
more efficient in its response, I would appreciate it if you 
would direct us to that in writing.
    Thank you, Madam Chairman.
    Chairman Collins. Thank you. I want to thank the two 
witnesses for their testimony. We will have additional 
questions for the record. We appreciate your voluntarily being 
here today, and I would now like to call the second panel to 
come forward.
    We will now proceed with our second panel. Robert Stephan 
is the Department of Homeland Security's Assistant Secretary 
for Infrastructure Protection, a post which he assumed in April 
2005. Matthew Broderick is Director for Operations Coordination 
at the Department of Homeland Security. At the time of 
Hurricane Katrina, he was the head of the Homeland Security 
Operations Center.
    I would ask that you both stand so I can administer the 
oath. Do you swear that the testimony you are about to give the 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Colonel Stephan. I do.
    General Broderick. I do.
    Chairman Collins. Mr. Stephan, we are going to start with 
you.

  TESTIMONY OF COLONEL ROBERT B. STEPHAN,\1\ (USAF, RETIRED), 
    ASSISTANT SECRETARY FOR INFRASTRUCTURE PROTECTION, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Colonel Stephan. Good morning, Madam Chairman, Senator 
Lieberman, and other distinguished Members of this Committee. 
Thank you very much for the opportunity to address you today 
and also for your ongoing support to the Department of Homeland 
Security's very important mission. I am pleased to come before 
you to discuss the activities of the Department in relation to 
preparation for and response to Hurricane Katrina.
---------------------------------------------------------------------------
    \1\ The prepared statement of Colonel Stephan appears in the 
Appendix on page 85.
---------------------------------------------------------------------------
    Currently, I am the Assistant Secretary for Infrastructure 
Protection at DHS. By way of background, I retired from the 
U.S. Air Force, after 24 years of experience, at the rank of 
Colonel. I have extensive experience in contingency operations 
from a joint special operations community perspective. In my 
24-year military career, I organized, trained, and equipped Air 
Force special operations forces for contingency operations in 
Iraq, Somalia, Haiti, Bosnia, Croatia, Liberia, Colombia, and 
Kosovo. My duties also included during this period extensive 
responsibilities for the planning and execution of complex 
combat search and rescue, air traffic management, terminal 
attack control, medical evacuation, and noncombatant evacuation 
operations.
    Following my Air Force career, I joined DHS at its 
inception on Secretary Ridge's staff in March 2003 and served 
as a Special Assistant to Secretary Ridge and later as Director 
of the Department Integration Staff. In August 2004, then-
Secretary Ridge commissioned me to lead or integrate the 
Department efforts to coordinate the development of the 
National Incident Management System document as well as the 
National Response Plan. In this capacity, was responsible for 
leading an interagency writing team comprised of more than a 
dozen principal representatives across the Department and other 
key Federal agencies and for coordinating the development of 
the NRP document, in fact, with hundreds of State and local 
government, private sector, and other Federal agency and 
Department partners. I also had lead responsibility for 
developing an initial program of education, training, and 
awareness regarding the NIMS document and the NRP in 
partnership with FEMA's Emergency Management Institute at 
Emmitsburg, Maryland. Following issuance of the NIMS in March 
2004 and the NRP in December 2004, at Secretary Ridge's 
direction, I transitioned responsibility for the ongoing 
management, maintenance, and training of both the NIMS and the 
NRP to FEMA headquarters, specifically the NIMS Integration 
Center under Director Brown.
    The National Response Plan is the core operational plan for 
national incident management. It adopts an all-hazards approach 
integrating natural disasters, terrorism, and industrial 
accidents, for the most part, and provides the structure and 
mechanisms for national-level policy and operational 
coordination for a cross-spectrum of domestic incident 
management concerns. It is actually signed by the heads of 32 
Federal departments, to include Cabinet Secretaries and agency 
heads and national-level presidents of private volunteer 
organizations. Prior to final implementation, the NRP was 
tested during the Top Officials Exercise 3, conducted during 
the period of April 4-8, 2005, and involving complex mass 
casualty scenarios in two State venues--New Jersey and 
Connecticut.
    The NRP is implemented--and this is important to understand 
this for our discussion--in a cascading fashion according to 
the situation at hand. It is not a document or a system that is 
turned on and off in a binary fashion like a light switch; in 
fact, certain core coordinating structures of the NRP and 
information sharing mechanisms, such as the Homeland Security 
Operations Center, are indeed active 24 hours a day every day 
of the year. Other elements of the NRP can be fully or 
partially implemented in the context of a specific threat, the 
anticipation of a significant event, or in response to a 
specific incident. Selective implementation of core elements of 
the system allows flexibility in meeting the operational and 
information-sharing requirements, again, of the situation at 
hand, as well as ensuring and enabling interaction between 
Federal, State, local, and private sector partners.
    With the onset of Hurricane Katrina, I focused my attention 
and responsibilities as Director of the Interagency Incident 
Management Group, as specified and assigned in the NRP.
    By way of background, this group, the IIMG, is a multi-
agency Federal coordination unit which reports directly to the 
Secretary of Homeland Security to facilitate strategic response 
to a domestic incident as opposed to tactical response that is 
facilitated at the local level by Federal, State, local, and 
private sector partners. Its membership is flexible and can be 
tailored to provide appropriate subject matter expertise 
depending on the nature of the threat or situation or incident 
at hand. The IIMG works in concert with other NRP coordinating 
structures such as the HSOC and FEMA headquarters National 
Response Coordination Center, as it did during Hurricane 
Katrina. In terms of division of labor, this Interagency 
Incident Management Group at DHS headquarters is intended to 
focus on strategic-level issues and medium-term courses of 
action--that is, the medium-term/long-term fight--while the 
HSOC and the NRCC at FEMA headquarters work in partnership to 
maintain situational awareness and solve operational and 
tactical level issues--that is, the near-term/near-horizon 
fight.
    As IIMG Director, I asked my staff in the early evening of 
Thursday, August 25, to alert all IIMG members regarding the 
approach of Hurricane Katrina and to request them to maintain 
readiness for possible activation within a 90-minute time 
window as directed by the Secretary in accordance with our 
standard headquarters protocols. I also directed my staff to 
send regular HSOC situation and spot reports regarding Katrina 
to all IIMG members to help promote situational awareness and 
prepare them to assume their duties if recalled.
    During the weekend period, Saturday and Sunday, I stayed in 
close contact with HSOC Director Broderick; I received regular 
verbal and electronic updates on the situation, information as 
it became available on the hurricane. Based upon the available 
information regarding the storm, it was decided not to activate 
the IIMG during the weekend period and that the fully activated 
and robust HSOC and National Response Coordination Center 
activities at FEMA were up and running at 100 percent or 
greater in order to handle the emergent incident management 
pre-deployment considerations and initial incident management 
responsibilities. The IIMG membership remained on a 90-minute 
recall posture throughout the weekend to afford the Secretary 
an additive layer to these initial coordinating structures that 
were very robust and already stood up at our headquarters and 
at FEMA headquarters, along with the regional FEMA headquarters 
elements that had been in place as well as the FEMA 
headquarters elements that had now been in place in Baton Rouge 
at least since Saturday and Sunday.
    As Hurricane Katrina approached, FEMA and other Federal 
agencies tactically prepositioned significant assets, to 
include essential equipment, supplies, and specialty teams, in 
critical locations throughout the projected hurricane footprint 
and established initial NRP-related coordinating structures at 
the national, regional, and State levels. Through these 
actions, the Department was leaning forward to prepare for a 
significant hurricane, informed by lessons learned from the 
previous hurricane season, the Hurricane Pam planning, and 
emergent analysis from the National Infrastructure Simulation 
and Analysis Center, as well as, of course, by specific 
requests and requirements that were pushed to us from the 
States of Florida, Louisiana, Mississippi, and Alabama. 
Additional Federal assets were deployed into the region 
following the issuance of the Presidential Emergency 
Declaration on Saturday evening. The type and quantity of 
prepositioned Federal assets were based upon previous hurricane 
experience as well as specific State and local government 
requirements. It should be noted that the NRP Catastrophic 
Incident Annex was not implemented at this time because it was 
designed and constructed to be a no-notice--or to support a no-
notice incident scenario that would not allow time for a more 
tailored approach. Subsequent FEMA analysis has indicated to us 
that as a minimum, 100 percent or greater of assets called for 
in the Catastrophic Incident Supplement were, in fact, deployed 
to the region some time during the course of the weekend prior 
to landfall.
    Through the mechanism of the Presidential Emergency 
Declaration, the Federal Government had sufficient authority 
and time to take action to determine and deploy a full measure 
of appropriate assets prior to landfall pursuant to the 
Stafford Act and associated State and local requests.
    On Monday morning, August 29, the Deputy Secretary of 
Homeland Security directed me to convene a meeting of IIMG 
members for the purpose of conducting a situational awareness 
update and pulsing the IIMG members regarding individual agency 
capabilities and operational activities in the hurricane impact 
area. At this point in the unfolding scenario, much of the 
information being reported from the field was understandably 
preliminary, incomplete, and unconfirmed. Throughout this day, 
there were many inconsistent and uncertain reports regarding 
the extent of hurricane damage in New Orleans and the status of 
the levee system there. This is fully consistent with the Day 1 
pattern established during previous hurricane episodes that we 
had gone through since the Department's inception.
    On the following day, Tuesday, August 30, at about 11:30 
a.m., I was first advised by my staff of confirmed reports of 
irreparable breaches to the levees in New Orleans and that 
there was now considerable flooding confirmed to be occurring 
in various parts of the city. As a result, the IIMG membership 
was recalled to DHS headquarters, and the IIMG was officially 
activated at approximately 2 p.m. on that day. This decision 
was based on the fact that the potential long-term flooding of 
New Orleans represented a ``catastrophic crisis within a 
crisis'' and that the Secretary would now require the 
additional layer or additive layer of incident management 
capability provided by the IIMG. Secretary Chertoff shortly 
thereafter also issued a formal memorandum designating Michael 
Brown, the FEMA Director--already on the ground in Baton 
Rouge--as the Principal Federal Official under the NRP.
    As the events of that first week unfolded, I believe 
honestly three factors combined to negatively impact the speed 
and efficiency of the Federal response.
    The first was the sheer amount of unbelievable physical 
destruction, devastation, and disruption caused by Katrina 
regarding both wind damage and subsequent flooding. Response 
teams had to cope with the very severely restricted geographic 
access issue to core parts of the New Orleans downtown area due 
to the extent of the flooding. This significantly hampered 
response activities.
    Second, the tenuous initial security and law enforcement 
environment in New Orleans during the first several days of the 
response significantly impacted and impeded rescue and response 
efforts until a level of stability was achieved later during 
the first week.
    Finally, as the week progressed after landfall, failure of 
various Federal officials to fully implement key aspects of the 
NIMS and the NRP impeded the Federal response. Specifically, 
the designated PFO, FEMA Director Brown, and core staff 
deployed with him did not after landfall establish a robust 
Joint Field Office and Emergency Support Function structure as 
called for in the National Response Plan. According to the NRP, 
the Joint Field Office serves as a key hub of Federal incident 
management coordination at the local level and enables 
integrated interaction with key State and local officials, as 
well as, very importantly, other Federal departments and 
agencies with considerable resources to assist in the response. 
Although the NRP envisions this operation normally to become 
fully activated in a 48- to 96-hour period after the initial 
occurrence of an event, the completely functional JFO in Baton 
Rouge, in fact, was not activated until much later, in fact, 
until some time during the middle of the second week of the 
response.
    Moreover, the Principal Federal Official failed to 
establish a robust Federal unified command structure in Baton 
Rouge or in New Orleans as called for in the National Incident 
Management System. The concept of unified command is absolutely 
paramount as it provides for the coming together of senior 
representatives from each agency involved in incident response 
to enable informed, collective decision-making, resource 
allocation, and coordinated multi-agency operations. While many 
support agencies had liaisons co-located at the Louisiana, 
Mississippi, and Alabama Emergency Operations Centers, full 
unified command was not accomplished in the first week. And, 
again, I will give Mr. Brown credit in that the sheer amount of 
devastation and destruction that he had to cope with to 
establish this certainly impeded his ability to do so. But that 
should not have gone on and dragged out into the middle and end 
of the first week of the response.
    The lack of eyes and ears on the ground in New Orleans 
significantly hindered the ability of NRP entities at DHS 
headquarters to put together a common situational awareness and 
common operating picture for the Secretary and other DHS 
headquarters leadership. This situation was dramatically turned 
around following the arrival of Vice Admiral Thad Allen in 
theater and his assumption of overall Principal Federal 
Official responsibilities.
    Madam Chairman, as we move forward, the Department is 
aggressively looking at identifying additional shortcomings 
associated with the Federal response and to design and begin to 
implement appropriate solutions. A key focus area--and I 
believe my colleague will discuss this in a little bit more 
detail--is improving tactical-level situational awareness and 
command and control connectivity within the Department 
headquarters for catastrophic incidents. The Department 
leadership has also been working very closely with FEMA 
headquarters and field components to restructure FEMA logistics 
and mission assignment processes for catastrophic events. More 
details will follow from the Secretary regarding this effort in 
the coming weeks.
    The Department is committed to taking also a close look at 
the NRP and its associated education and training processes and 
programs and making the adjustments necessary to make sure we 
have a full and robust response capability prior to the advent 
of this year's hurricane season. We look forward to continuing 
to work with you, this Committee, and our other partners, to 
look back retrospectively in order to operate more efficiently 
and effectively during future situations.
    If I can just have one more second, I would like to really 
close by recognizing the extraordinary efforts of the men and 
women of FEMA who worked diligently and continue to work 
diligently to provide a wide variety of assistance to those 
whose lives were impacted by the hurricanes of 2005. The 
situation they faced at all levels was extremely complex and, 
in some cases, heretofore unprecedented. I hold these folks in 
absolutely the utmost regard. They deserve our continued 
respect and support in the road ahead.
    Thank you very much for the opportunity to speak with you 
today. I will now defer to my colleague.
    Chairman Collins. Thank you. Mr. Broderick.

 TESTIMONY OF BRIGADIER GENERAL MATTHEW BRODERICK,\1\ DIRECTOR 
   FOR OPERATIONS COORDINATION, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    General Broderick. Good afternoon, Chairman Collins, 
Senator Lieberman, distinguished Members of this Committee. 
Thank you for the opportunity to address you today and for your 
ongoing support of the Department of Homeland Security and its 
operations. I am honored and pleased to be before you to 
discuss the activities of the Department of Homeland Security 
relating to the preparation for and response to Hurricane 
Katrina.
---------------------------------------------------------------------------
    \1\ The prepared statement of General Broderick appears in the 
Appendix on page 94.
---------------------------------------------------------------------------
    Currently, I am the Director of Operations for the 
Department of Homeland Security, but to be clear, at the time 
of Hurricane Katrina, I held the position of Director of the 
Homeland Security Operations Center, HSOC. By way of 
background, I am a retired Brigadier General in the U.S. Marine 
Corps after serving for 30 years. During that time, when not in 
command, I was in charge of operations centers at all levels of 
the Marine Corps, including battalion, regiment, brigade, 
division, and then later, as Director of Operations for the 
Marine Corps, I commanded the Marine Corps National Command 
Center.
    Following my career with the Marine Corps, I served for 
3\1/2\ years as a regional vice president of operations for an 
international corporation and then as an adjunct consultant for 
the Institute of Defense Analysis working on command and 
control and situational awareness systems and on projects 
aiming to standardize and modernize joint deployable operations 
centers for the Department of Defense.
    In May 2003, I was asked by the Department of Homeland 
Security to help improve the then-fledgling Homeland Security 
Operations Center. At that time, the Operations Center 
consisted of five or six DHS headquarters employees and 
approximately 100-plus detailees working in austere conditions 
with limited capabilities. Since that time, the center has 
grown into one of the largest 24/7 operations centers in the 
United States, with about 45 Federal, State, and local agencies 
represented and approximately 300 personnel. Last October, the 
Secretary, following his Second Stage Review of the Department 
and in consultation with Congress, established the Office of 
Operations Coordination, of which the HSOC is a core part of 
that organization.
    The Office of Operations Coordination is responsible for 
coordinating operations across all DHS organizational 
components, for coordinating activities related to incident 
management, for collection and dissemination of terrorist-
related threat information, and for providing domestic 
situational awareness on a daily basis. Its major components 
are the HSOC, future operations, current operations, and 
incident management operations. This was an important step 
within the Department because it consolidated the operational 
efforts of what were previously shared by other DHS components. 
It is also important to point out that the headquarters focus 
of the Office of Operations Coordination, both during Hurricane 
Katrina and now, is at the strategic level and, therefore, acts 
in a supporting role to assist with additional national assets, 
as required.
    The HSOC is the primary national-level nerve center and 
conduit for information flowing in and out of these events. 
However, it does not become decisively engaged with any single 
event or incident so that it might monitor several different 
events at any one time. In the case of an incident like 
Hurricane Katrina, the HSOC continues to provide situational 
awareness to the Interagency Incident Management Group, while 
the Incident Management Division, a component of the IIMG, 
assumes responsibility for coordinating the Federal response 
specific to that incident.
    The HSOC began its involvement with Hurricane Katrina prior 
to the first landfall in Florida, on or about August 24, 2005. 
About that time, the HSOC started issuing daily situation 
reports, and we were closely monitoring the latest developments 
relating to the storm, especially the meteorological reports 
from the National Oceanic and Atmospheric Administration. Over 
the course of Friday, August 26, the hurricane shifted its 
directional path and its intensity. There was a level of 
uncertainty as to where the storm's eye would make landfall, as 
well as its intensity, magnitude, and impact.
    The Department knew that a significant hurricane could 
cause potentially grave damage to the Gulf Coast. Various 
reports forewarned of an impending disaster and suggested the 
possibility of a storm surge from Lake Pontchartrain and the 
overtopping of the levees.
    As a result, we began to take appropriate actions. The 
Secretary dispatched the FEMA Director to the area on Sunday, 
August 28. The President made emergency declarations for 
Louisiana, Mississippi, and Alabama, and the IIMG was advised 
to maintain readiness over the ensuing weekend. The HSOC was on 
high alert as well and was carefully monitoring the approaching 
storm. The IMD was also focused intently on the storm's 
development, in the event the IIMG needed to be activated. The 
IMD's function is to coordinate the Federal response to a 
specific event when an incident reaches national significance, 
and in that case, the IMD helps guide the efforts of the IIMG. 
In addition, DHS/FEMA had tactically prepositioned significant 
assets in critical locations outside but near the intended area 
of impact, and it had initiated their National Response 
Coordination Center.
    As the eye of the storm made landfall on Monday, August 29, 
information from that area was understandably sparse. At that 
time, it was difficult to ascertain accurate ground truth as to 
the extent of the damage. Our standard operating procedure is 
not to disturb the operations of field commanders in the middle 
of a crisis. Instead, we relied, in large part, on the good 
judgment of the information providers in the field and the NRCC 
to push relevant, pertinent information to the HSOC as 
information became clear.
    As the day wore on, the HSOC began to receive information 
from a number of sources and began to gather, sort, and verify 
information and reports. There were many inconsistent and 
uncertain reports about the extent of flooding in New Orleans 
and the status of the levee system. We knew a certain amount of 
flooding could be expected in almost any hurricane. 
Nevertheless, the HSOC alerted others to those possibilities 
and potential occurrences, while we were making our best 
efforts to verify the accuracy. We were desperately pursuing 
all avenues in an effort to obtain confirmed reports from 
knowledgeable, objective sources. It is our job at the HSOC to 
distill and confirm reports. Based on my years of experience, 
we should not help spread rumors or innuendo, nor should we 
rely on speculation or hype, and we should not react to initial 
or unconfirmed reports, which are almost invariably lacking or 
incomplete.
    Prior experience had shown that as the storm cleared over 
the next day or two, the ground truth would begin to 
crystallize and a common operational picture and more frequent 
and accurate reporting would emerge. Unfortunately, this did 
not happen.
    At about this time, it became clear that the Department 
needed to call upon significant additional Federal resources to 
respond to this event. As a result, the Department began to 
consider a greater role for the Department of Defense. 
Lieutenant General Russel Honore was already leaning forward 
proactively and moving assets and personnel into the region. 
The HSOC began receiving regular situation reports from the 
U.S. Northern Command regarding DOD's specific deployment 
activities responding to Hurricane Katrina.
    While the military was providing this ongoing support, the 
two departments were working to ascertain the precise language 
of what additional support could be requested and what could be 
provided. DOD needed to consider and balance these priority 
missions in light of their other military responsibilities and 
also needed a clearer understanding of exactly what was being 
requested. This effort was an example of excellent interagency 
coordination between two large agencies working collectively 
under significant pressure.
    In addition, the Secretary deployed U.S. Coast Guard 
Admiral Thad Allen as the Deputy Principal Federal Official in 
New Orleans. The situational awareness and reporting vastly 
improved, and the response efforts began to stabilize.
    The Secretary has stated on several occasions that one of 
his primary goals is to improve situational awareness for such 
incident response efforts, and the Office of Operations 
Coordination, established under the 2SR, is one way to foster 
and promote this worthy goal. Since the early days following 
Hurricane Katrina, the Department continues to review the 
things that went well and the things that warrant improvement. 
I am proud to report that DHS has made great strides toward 
improving the information flow and situational awareness for 
incident management.
    In particular, as the Secretary noted previously, DHS has 
established a six-person national reconnaissance team that can 
deploy in the immediate aftermath of an incident. In this way, 
the Department can receive real-time reporting of the facts on 
the ground, and the team can help us understand the priority 
concerns and allocate resources accordingly. A prototype of 
this concept was tested during the past Super Bowl with 
excellent results.
    In addition, Immigration and Customs Enforcement has 
provided 26 two-person teams from offices throughout the 
country which can be deployed immediately to an incident 
anywhere within their region and use assets to report 
situational awareness directly back to the HSOC. They will 
begin their initial training next month.
    Another step is the Secretary's designation of ``Principal 
Federal Officials in waiting.'' The idea is that these 
Principal Federal Officials will have the opportunity to work 
cooperatively with State and local officials on an ongoing 
basis to plan and train together. In this way, we can develop 
and build the kinds of relationships that one needs to rely on 
when an emergency strikes.
    These are just some of the initial changes to begin to 
address some of the lessons we learned from Hurricane Katrina. 
We continue to develop our comprehensive recommendations for 
the Secretary, and the Department looks forward to continuing 
its cooperative relationship with this Committee and other 
stakeholders.
    Thank you for the opportunity to speak with you today, and 
I would be happy to answer any of your questions. Thank you.
    Chairman Collins. Thank you for your testimony.
    Mr. Stephan, you led the development of the National 
Response Plan, and Katrina was its first major test. Did key 
governmental officials responsible for executing the plan 
believe in it, understand it, and correctly use it as the basis 
for the Federal response?
    Colonel Stephan. Yes, ma'am. It is widely known throughout 
the U.S. Government that this plan was issued during the month 
of December 2004. The plan officially went into effect, I 
believe, on April 14, 2005. Secretary Chertoff sent a memo out 
at that time to his Cabinet colleagues, actually to all NRP 
signatories, that the plan was in effect, and, in fact, we had 
just used the plan to kind of measure government performance or 
kind of test-run it during the TOP-OFF 3 exercise April 4-8, as 
I described in my testimony.
    There was a clear understanding on the part of all 
signatories to that plan, our State and local government 
partners, that the National Response Plan was the governing 
document that would govern the Federal response and how the 
Federal Government would support State and local and private 
sector response, recovery, and restoration activities.
    It is my belief, based upon a series of interactions that I 
had personally with Mr. Brown over the course of the past 
couple years, that he personally did not believe in key 
coordinating structures associated with the National Response 
Plan, specifically those associated with the Department of 
Homeland Security headquarters, and that he, in fact, either 
did not or chose not to accept his responsibilities in full 
measure as the designated Principal Federal Official for the 
event and continued to perform duties as if he were the FEMA 
Director as opposed to rising up to a much higher level of 
responsibility that involved integrating all mission aspects 
that were ongoing during the response and recovery ops in the 
tri-state area, as was prescribed by the Secretary.
    Chairman Collins. I want you to be specific on that point. 
In what ways did Mr. Brown fail to execute his responsibilities 
as the Principal Federal Official under the plan?
    Colonel Stephan. Yes, ma'am, I believe the plan itself 
calls out about a dozen very specific responsibilities that he 
had to follow. I will highlight two of those. The rest are 
available. One is providing real-time incident information to 
the Secretary of Homeland Security--who designated him to 
perform that responsibility through the Homeland Security 
Operations Center and the Interagency Incident Management 
Group, No. 1.
    No. 2, ensuring that adequate connectivity is maintained 
between the Joint Field Office, which failed to be established 
in an appropriate amount of time, and the HSOC, local, county, 
State, and regional Emergency Operating Centers, 
nongovernmental Emergency Operating Centers, and relevant 
elements of the private sector. Those are two key pieces that 
left us more or less at various times during this response at 
DHS headquarters virtually blind to certain key events that 
were happening as the response unfolded throughout the first 
week.
    Chairman Collins. Mr. Broderick, that is a good segue into 
the first question I have for you. A key concept, as we have 
just heard, within the National Response Plan is the concept of 
sharing important information with decisionmakers. Yet in the 
case of Katrina, absolutely critical information was not shared 
promptly with key decisionmakers.
    Now, in the case of Mr. Brown and what we have just heard 
from Mr. Stephan, I can only conclude that he let his poor 
personal relationship with Secretary Chertoff interfere with 
his clear responsibility to communicate to the Secretary. But 
the best example of this failure to communicate is the breach 
of the New Orleans levees. Secretary Chertoff stated that he 
did not learn of the collapse of the levees until Tuesday, 
arguably 24 hours after it happened. Deputy Secretary Jackson 
has told us in an interview that he did not learn of the 
collapse of the levees until Tuesday. Admiral Keating told me 
personally that he did not learn of the breach of the levees 
until Tuesday. Mr. Stephan has just testified that he did not 
learn of the collapse of the levees until 11:30 a.m, 
approximately, on Tuesday.
    Whose responsibility was it to inform these key officials 
that the levees had collapsed and, thus, the city of New 
Orleans was in tremendous danger?
    General Broderick. Madam Chairman, it was my responsibility 
at that time as the Director of the Homeland Security 
Operations Center to inform these key people, these key 
personnel. If they did not receive that information, it was my 
responsibility and my fault.
    I would like to point out, though, that getting that 
situational awareness and getting the correct information was 
very difficult. Monday, we knew that we had a lot of 
conflicting reports. We expect flooding during hurricanes, and 
we know that. There were no urgent calls or flash messages 
coming up from anyone during the day of Monday that gave us any 
indication. We did get reports that there was breaching and 
overtopping. It's my job to make sure that these individuals 
all get the correct information, and that's what we were trying 
to do, is get ground truth.
    There is a big difference between breaching, which means 
water's going to be streaming in at a rapid rate, and 
overspilling.
    Chairman Collins. Absolutely.
    General Broderick. There was also a question if there was a 
breach, could the Corps of Engineers quickly plug that breach? 
And we didn't know that, and we were having trouble finding 
that out.
    There's also a question, if there's overtopping, can the 
pumps--and I believe there were 33 major large pumps within the 
city of New Orleans that could evacuate that water, and we 
didn't know to what extent. If water was overtopping, it could 
have been exiting as fast as it was coming in. The reports we 
were getting were very confusing. Some parts were flooding. We 
got word that some parts were up to 10 feet and some parts were 
up to rooftops.
    We had other conflicting reports that said there were no 
breaches and that only certain parts of the city were taking 
water. Ascertaining to what degree was what we were trying to 
do and get ground truth.
    We finally got a report that I remember at--I think it was 
the last SITREP of that evening that said there were no 
breaches to the levee systems in New Orleans, and that's what 
came up to us.
    Chairman Collins. But from whom? And who was responsible on 
the ground in New Orleans to communicate the information to 
you? You are not down in Louisiana or Mississippi. You are up 
in headquarters at the Operations Center and deploying the 
information from there. But who is the person who is 
responsible for communicating accurate, timely, vital 
information to you?
    General Broderick. At that time, it was Mr. Brown, 
Secretary Brown, Under Secretary Brown. There's an obligation, 
from my experience in the military--I've been doing this a long 
time, from Vietnam, to evacuating Saigon, to evacuating Phnom 
Penh. I ran southern Somalia for a while. I went back and 
evacuated Mogadishu. I've been in a lot of this stuff a lot of 
times. Juniors or subordinates have a responsibility to keep 
their seniors informed. There was a prevailing attitude from 
Mr. Brown that he did not want Homeland Security to interfere 
with any of his operations or what he was doing, and that came 
through loud and clear. So we trusted, based on their past 
record, that they would do the proper thing, take the proper 
actions, and keep us informed. We were not getting that 
information.
    Chairman Collins. And it is completely unacceptable that 
Mr. Brown did not communicate to you. But I want to really 
focus on this issue because it was the flooding of New Orleans 
that made the difference between this being a bad hurricane and 
a catastrophic disaster for the city of New Orleans.
    General Broderick. Yes, ma'am.
    Chairman Collins. We know that Marty Bahamonde was so 
alarmed when he heard the reports of the breach in the levee 
that he called Mr. Brown on Monday morning. We know that he e-
mailed a number of FEMA officials. And then later that day, he 
had a firsthand, eyewitness account to verify what he saw.
    Did any of those reports get conveyed by Mr. Brown to you 
at the Operations Center?
    General Broderick. Not by Mr. Brown, and Mr. Brown should 
have picked up the phone and called the Secretary right away if 
that happened.
    Now, there were reports coming in from other agencies, and 
that's what we were trying to confirm. I remember leaving 
Monday evening, though, knowing that Mr. Brown had said that he 
could handle situations down there and asked us to stand back. 
And in the French Quarter, on television, they were dancing and 
drinking beer and seemed to be having a party in the French 
Quarter of New Orleans that evening. So it led us to believe 
that the flooding may have been just an isolated incidence, it 
was being handled, and it was being properly addressed because 
we were not seeing it.
    Now, later on that evening, we had significant reports that 
came in later that then led us to the conclusion we had a 
serious problem. And by the time I came in Tuesday morning and 
read those reports, I knew we had a catastrophic event and we 
had to get moving, and I needed a few hours to get some ground 
truth to this very quickly, whatever means I could, so that I 
could get hold of Mr. Stephan and tell him we need the IIMG and 
the IMD in here.
    Chairman Collins. Thank you. Senator Lieberman.
    Senator Lieberman. Thanks, Madam Chairman. Thanks to both 
of you.
    General Broderick, let me begin with some questions for 
you. As you have indicated, at the time of Hurricane Katrina, 
you were the head of the Homeland Security Operations Center, 
HSOC, which describes itself, appropriately, as ``the primary 
conduit to the White House and the Secretary of Homeland 
Security for domestic situational awareness during a 
catastrophic event.'' It houses a number of agencies, a large 
number. And this was one of the gems that we wanted so much to 
create after September 11 within the new Department of Homeland 
Security, the place where the dots could be connected. And that 
is why what happened leading up to Katrina and on the day of 
landfall is so perplexing to us. And I presume--because I know 
you have served your country, you are a patriot, you are 
capable, I presume they are also of great concern to you.
    I assume that, like everyone else in the Department of 
Homeland Security, you were generally aware of the so-called 
New Orleans scenario, that it was a bowl and if the levees 
broke, it would flood. Is that correct?
    General Broderick. Yes, sir.
    Senator Lieberman. And were you involved at all in the 
Hurricane Pam exercise, or anybody for you?
    General Broderick. No, sir.
    Senator Lieberman. You were not. But during the weekend 
before Hurricane Katrina hit landfall, I presume you were 
involved in briefings such as those that Mr. Brown or others 
have described, including the very public warnings by Dr. 
Mayfield on the TV that this could be a Category 4 or 5 storm 
and that would be the big one that New Orleans had been worried 
about. Is that right?
    General Broderick. Yes, sir.
    Senator Lieberman. OK. So we go into the weekend with that 
in mind, and in the interview with our Committee staff, you 
said, quite correctly, that one of the responsibilities of the 
HSOC, the Operations Center, is to develop plans for monitoring 
events, big events like the Super Bowl and the national 
political conventions, and in that sense maintaining all 
important situational awareness, what is going on and how can 
we, therefore, be prepared to respond.
    Yet when you were asked what type of plan the HSOC 
developed for maintaining situational awareness during Katrina, 
your answer was, ``There was no plan developed.''
    So in light of your office's, the center's, and DHS's 
primary responsibility with regard to catastrophes, how do you 
explain why there was no plan going into that weekend for 
trying to maintain situational awareness?
    General Broderick. The usual reliance, sir, on a major 
contingency is when the Principal Federal Official is 
appointed, the Homeland Security Operations Center and other 
departments at the headquarters send the communications and the 
people with that Principal Federal Official to go to that 
incident. Because Secretary Brown owned significant assets down 
range and he could draw upon them, he would actually--we 
actually did not end up sending people from the headquarters 
with them because he had the resources to draw down there. So 
right there that severed what would normally be my own people 
down at that site with my own communications.
    Senator Lieberman. Normally, you would have sent in your 
own team to try to the best of their ability to maintain 
situational awareness, and because you thought that Director 
Brown was doing that, you made a judgment that you didn't need 
to, that in some sense he was occupying the field.
    General Broderick. Yes, sir. He had the assets. We will 
take a Principal Federal Official from across the country and 
ask him to be the Principal Federal Official. He needs to be 
supported, so we will take communications and people from the 
headquarters, and those people will pass that back.
    Senator Lieberman. Here is the painful reality that we have 
discovered, and if you have been following this, you probably 
have, too, which is that Michael Brown didn't have the assets. 
He had Marty Bahamonde and a few other people down there. And 
he himself had a hard time maintaining situational awareness.
    Let me take you through some of the other steps which are 
so troubling to all of us. I appreciate that you took some 
responsibility in your answer to Chairman Collins' question 
because generally people don't do that. Here is part of the 
problem, and I want us to look at this together self-
critically, constructively, because the next time, very 
different, it is going to be a terrorist attack or another 
disaster. And on that blue chart--you don't have to look at it. 
It is Exhibit Q.\1\ But I referred to it earlier. Beginning at 
8:30 a.m., there are public statements, local, State, and a lot 
of Federal agencies are saying basically the levees have 
broken, New Orleans is flooding. 9:08 a.m., the National 
Weather Service has reported that a levee broke--I am reading 
from this--and Transportation Security Administration--which I 
presume is part of HSOC, am I right?
---------------------------------------------------------------------------
    \1\ Exhibit Q appears in the Appendix on page 205.
---------------------------------------------------------------------------
    General Broderick. TSA, yes, sir.
    Senator Lieberman. Right. They put out a bulletin at 9:08 
saying that a levee has broken in the uptown area of New 
Orleans on the south shore of Lake Pontchartrain, flood waters 
have already intruded on the first stories of houses, and some 
roads are impassable, heavy street flooding throughout Orleans, 
St. Bernard, and Jefferson parishes. And it goes on from the 
National Weather Service again, from HSOC Spot Report, 
continuing very agitated reports from the National Weather 
Service, one from FEMA. 12:40 p.m. on that day, Monday, the 
National Weather Service puts out a flash flood warning: 
Widespread flooding will continue across the parishes along the 
south shore of the lake. This continues to be an extremely 
life-threatening situation, so much so that they add--you 
wouldn't think it was the Weather Service's responsibility, 
but, of course, it is--those seeking refuge in attics and 
rooftops are strongly urged to take the necessary tools for 
survival. And they go on to tell them to take an axe or a 
hatchet with them. And, of course, National Weather Service is 
part of NOAA--which I also believe is part of the Operations 
Center, correct?
    General Broderick. I have a NOAA representative at the 
Operations Center.
    Senator Lieberman. Right. So it doesn't necessarily mean 
that the representative got this, but he certainly should have.
    General Broderick. I would assume that he did get it, sir.
    Senator Lieberman. So here is the really troubling 
situation, and having some sense of who you are, I imagine 
today you have to be really furious about it. All this is 
happening and coming into component agencies of your Operations 
Center, and yet you go home Monday night, and you have seen on 
the television that in the French Quarter in New Orleans they 
are drinking beer, and you conclude that there is maybe some 
minor flooding, when, in fact, all these reports coming in are 
telling you that it is quite the contrary. It turns out the 
French Quarter, as we know, is a little higher elevated, so it 
was one of the few places that did not get badly flooded.
    How do you explain that to yourself? And is that part of 
the reason why Secretary Chertoff and the President said that 
they didn't know about this--Mr. Stephan, too--didn't know 
about the flooding until Tuesday morning?
    General Broderick. Yes, sir. They wouldn't know until I 
passed it on.
    Senator Lieberman. What did you--I am sorry. Go ahead.
    General Broderick. I was extremely frustrated. I had been 
there a thousand times in situations like this. I honestly do 
not remember the official I called, but I called a senior 
official at FEMA and said we have a President, we have a 
Secretary that are seeing things on television, we are getting 
reports, what is going on down there?
    Senator Lieberman. You did that on Monday, the day of 
landfall?
    General Broderick. Yes.
    Senator Lieberman. And what was the answer you got?
    General Broderick. The answer that I received, sir, was 
that FEMA SOP says, ``We tell you early in the morning and we 
tell you early in the evening on a situation report, and that's 
what you're going to get.'' And I said, ``That's 
unacceptable.'' This looks significant, it looks serious, and 
that was repeated again: ``We give you a report in the morning, 
and we give you a report in the evening.''
    It was extremely frustrating, and we were trying to go--
now, I asked a senior official, Mike Lowder, later on----
    Senator Lieberman. A FEMA official.
    General Broderick. Yes, sir. I asked him several weeks ago 
why that happened and what broke down. He told me that he had 
called Secretary Brown on numerous occasions and recommended 
that he needed to call Secretary Chertoff and that they needed 
to push that information up, and he was told that they work for 
the White House and not for DHS.
    Senator Lieberman. And as we heard, he was telling the 
White House--Mr. Brown was--although Mr. Jackson was on some of 
the calls that he was making from New Orleans. I have been to 
the Operations Center. It is an impressive place. They are 
essentially sitting around getting information in the same 
general area, and it is coming in from a lot of the people at 
the table there. Why didn't any of them go up to you and say, 
``General Broderick, this is a catastrophe. We have got to 
mobilize our forces quickly and respond to this? ''
    General Broderick. I can't answer that, sir, but I can tell 
you that some of that information--and I don't remember 
specifically--was coming toward me. That was my frustration 
with trying to find out were these significant breaches, was 
this overtopping, was it just a small section of the city that 
was flooding, were the pumps handling it. We could not get 
ground truth. We were getting nothing out of Louisiana.
    Senator Lieberman. Have you taken steps now as Director of 
Operations to make sure that the next time something like this 
or a terrorist attack happens that this doesn't happen again?
    General Broderick. Significant steps, sir, including a 
National Reconnaissance Team that's ready to go with satellite 
communications and streaming video that we can insert within 8 
hours and people within 4 hours from 26 different ICE 
locations.
    Senator Lieberman. OK. My time is up. Thank you.
    Chairman Collins. Senator Akaka.
    Senator Akaka. Thank you very much, Madam Chairman.
    I raised the issue of the NRP and the Principal Federal 
Officer with the first panel, and I want to follow through with 
you on this topic.
    Colonel Stephan, you were one of the principal authors of 
the NRP, National Response Plan----
    Colonel Stephan. Correct, sir.
    Senator Akaka [continuing]. Which established the position 
of Principal Federal Officer, PFO.
    Colonel Stephan. Correct, sir.
    Senator Akaka. The NRP states that once an individual is 
named PFO, he or she must ``relinquish the conduct of all 
normal duties and functions.''
    Colonel Stephan. Yes, sir.
    Senator Akaka. Do you think it is problematic for the 
Director of FEMA to relinquish his or her normal duties during 
a disaster?
    Colonel Stephan. Sir, let me answer that question by saying 
recall Mr. Brown, by the time the Principal Federal Official 
designation was made by the Secretary, was already on the 
ground and, for all intents and purposes, performing Principal 
Federal Official duties as the senior person from the 
Department headquarters. However, without the formal 
designation, he, Mike Brown, was only able to direct FEMA 
resources.
    A FEMA official, through the Presidential Declaration of 
Emergency on Saturday evening, was designated as the Federal 
Coordinating Officer for resource coordination purposes. Mr. 
Brown and his FCO, who actually is also a FEMA employee, worked 
together as FEMA Director, FCO, to push the initial--or get 
pulls of the initial resource requests and requirements coming 
in, push them up to their headquarters and to other places 
throughout the food chain.
    When now Mr. Brown--all the Secretary really did by 
designating him PFO is say, look, Mr. Brown, you are already 
deployed, you are here, you are on location, you have no more 
responsibilities back in terms of your day-to-day 
administrative control of FEMA headquarters, you're exclusively 
focused on the Federal Government's principal representative 
designated by me to do what needs to be done to bring this 
situation under control, determine State and local government 
and private sector requirements, get them resourced, and 
identify any shortfalls in that process as a result.
    Senator Akaka. Who was this FCO that was designated?
    Colonel Stephan. Sir, that would be William Lokey, part of 
the Federal Coordinating Officer cadre that was in place on 
Saturday, I believe, concurrently with the Presidential 
Emergency Declaration, with full authority to bring in and have 
financed any Federal resource that was supported by a State and 
local request through the State-level validation process.
    Senator Akaka. Just to get the facts straight, was Mr. 
Rhode ever designated as Director?
    Colonel Stephan. Sir, I don't have clarity on that, but it 
would be incumbent upon Mr. Brown to designate an individual of 
his choice to perform in the FEMA headquarters director 
administrative duty as long as he was, in fact, designated to 
perform the Principal Federal Official duty, focusing 
exclusively on the Katrina response.
    Senator Akaka. Are there any changes to the PFO concept 
that you would like to recommend now that all of this has 
happened?
    Colonel Stephan. Sir, I think the concept is a good one. It 
is a necessary one. I would not throw the baby out with the 
bath water, so to speak. If one individual did not perform up 
to that level, that does not mean the concept is bad. I think 
the concept is good. I think the country, not the Department of 
Homeland Security that help put this National Response Plan 
together, thought highly of the concept enough to put it in 
this document and all support it, it ought to stay in there. 
But we ought to examine it to make sure that the PFO does have 
all the authorities that he or she would require during a 
similar incident or one of greater magnitude.
    Senator Akaka. Yes, it appears that the confusion regarding 
the shift of responsibilities probably played a part in what 
happened there.
    General Broderick, as you know, geospatial technologies 
such as satellite imagery and aerial photography provide first 
responders with timely situational information during a 
disaster. I understand that there were multiple and 
uncoordinated efforts by the HSOC and FEMA to obtain aerial 
images of New Orleans from the Geospatial-Intelligence Agency 
immediately after Hurricane Katrina hit land. I am especially 
interested in this because I authored legislation that created 
the DHS Office of Geospatial Management specifically to 
coordinate such information requests.
    How was geospatial information obtained during the response 
to Hurricane Katrina, and was the Office of Geospatial 
Management ever involved?
    General Broderick. Yes, sir. The following day, Tuesday, 
when we realized that we had a catastrophic incident, the first 
thing we did was ask NGA, the National Geospatial Agency, to 
start overflying that and giving us whatever picture they 
could. There was also a request from one of the parishes that 
had significant pipelines underground and aboveground if they 
could fly those routes and see if there were any significant 
breaks or leaks that they could detect, both subterranean and 
on the surface. We also wanted to get as much photography as we 
could of the actual site itself, and eventually, we were able 
to get that, sir.
    One of the problems that I think in the future you run into 
with NGA--and we're trying to work that out now because I am a 
big believer in geospatial technology--is that usually when 
NGA, our primary source, does something like that, all the 
photography comes out as stamped ``Secret,'' and you can't pass 
it on. So we're trying to work through that on how we can get a 
level below the secret level.
    Senator Akaka. Well, thank you for that. From the reports I 
received, I wondered what role the GMO had during that period 
of time.
    Is it your understanding that FEMA was making requests of 
NGA at the same time the HSOC was?
    General Broderick. I actually asked someone to help 
coordinate the efforts. There is no sense in duplicity and 
running the same missions. And we were trying to work that out 
with them, sir, as best we could. There were requirements 
coming up from the field. There were requirements from FEMA 
headquarters. There were requirements from us. Because of that 
and one of the lessons learned in that is we need, as the 
military does, to have one belly button that can coordinate all 
those efforts so that there is not a waste of assets and time.
    Senator Akaka. General, in your interview with Committee 
staff, you stated that on Wednesday, August 31, you tried to 
obtain buses to evacuate the remaining residents of New Orleans 
at Secretary Chertoff's request. I realize that Secretary 
Chertoff tasked you with this responsibility even though 
locating buses clearly was not your job.
    Was your ability to oversee the HSOC hindered by your 
involvement in operations?
    General Broderick. Sir, I'm sorry if I confused the record. 
That may have been a misquote. Secretary Chertoff asked me to 
find out the status of the buses and what was taking place and 
what Mr. Brown was doing to get more buses in there and, if 
they were having trouble, for us to step in and check with the 
Department of Transportation TSA to help support that.
    Senator Akaka. Thank you for that response, General.
    General Broderick. Yes, sir.
    Senator Akaka. Colonel Stephan, in your interview with the 
Committee staff, you described the Department of Homeland 
Security as a place where everyone wore multiple hats, 
fulfilling many roles. Do you believe this multi-tasking caused 
confusion and made it more difficult to accomplish tasks during 
Hurricane Katrina?
    Colonel Stephan. No, sir, I do not. Once we had a 
verifiable confirmation of a levee breach--and, actually, the 
weekend leading up to that, there was no dual-hatting or 
triple-hatting that in my estimation across the Department 
leadership caused anyone to not be able to focus. We identified 
pieces of the response in a cascading fashion. We rolled in 
FEMA teams down into the area. We activated the FEMA response 
structure at their national-level headquarters, brought 
interagency players into their headquarters to facilitate the 
response to the Emergency Support Function cadre. We had done 
outreach with the State and local government officials at all 
levels. We had done outreach with the private sector at all 
levels in the projected impacted zone. Secretary Chertoff made 
numerous personal phone calls to governors and other key 
officials in the potentially impacted zone to figure out 
whether or not there were any resource requirements that were 
not being met.
    I wore multiple hats, but I knew which hat was most 
important during this response, and it was focusing on Katrina. 
And I may have been performing parallel duties, for example, as 
the Assistant Secretary for Infrastructure Protection, while 
serving simultaneously as the Interagency Incident Management 
Group Director. But I only did those activities such as 
reaching out and making sure the private sector, for example, 
had the National Infrastructure Simulation Analysis Center 
analysis of the potential infrastructure cascading impacts 
inside the projected hurricane footprint, getting those things 
out, for example.
    So I don't think triple- and dual-hatting of any individual 
leader within the Department caused any slowness or lack of a 
response.
    Senator Akaka. Thank you for your clarification, and I want 
to thank both of you for your responses.
    Thank you, Madam Chairman.
    Chairman Collins. Thank you. I am going to turn over the 
gavel to my colleague, Senator Lieberman. Don't do anything 
that I wouldn't do. [Laughter.]
    Senator Lieberman. I can't promise. I will try not to.
    Chairman Collins. I apologize for having to leave. I want 
to thank our witnesses for your very candid testimony. It has 
been helpful to us, and we will be submitting some additional 
questions for the record, but thank you for your cooperation.
    Senator Dayton.
    Senator Dayton. Thank you, Madam Chairman.
    Both of you have military backgrounds. What is the chain of 
command between Mr. Brown and the Secretary or whomever? Is 
that a direct connection?
    Colonel Stephan. Yes, sir.
    General Broderick. Yes, sir.
    Senator Dayton. Where do the two of you then fit into that 
chain?
    General Broderick. We are staff officers, sir.
    Senator Dayton. Meaning you are parallel or you are----
    General Broderick. I am a direct report to the Secretary. 
At that time, I was not. I worked for an Under Secretary of 
IAIP, but I had a very close relationship with the Secretary.
    Senator Dayton. Does Mr. Brown have a direct report to 
either of you--did he at that time?
    Colonel Stephan. Sir, may I answer that in two ways? 
Neither one of us had a direct reporting day-to-day 
administrative chain of command that in any way, shape, or form 
involved Mr. Brown. However, with the designation of Principal 
Federal Official, Mr. Brown now has an operational chain of 
command that, in terms of sharing information, the 
responsibility is clear and direct in the National Response 
Plan to inform the HSOC and the IIMG about everything that is 
going on of major import in his area of responsibility and also 
directly to the Secretary of Homeland Security.
    So although day-to-day administrative chain of command was 
not a factor, in the operational sequence of this, I would say 
the answer is yes.
    Senator Dayton. OK. Understanding that--and, again, I am 
going by a published report here from the New York Times, and 
it may be that, understandably, neither of you are in a 
position to corroborate or dispute these accounts. But it says 
here that on that Monday evening, 9:27 p.m., an e-mail message 
with the subject FYI from FEMA sent to Homeland Security 
Secretary Michael Chertoff's Chief of Staff says, ``The first 
reports they are getting from aerial surveys in New Orleans are 
far more serious than the media reports are currently 
reflecting.'' And then at 11:05 p.m., an e-mail message from 
FEMA's Deputy Director to Michael Jackson, Deputy Secretary of 
Homeland Security, says, ``We just spoke with our first rep on 
the ground in New Orleans, who did a helo tour and describes a 
200-yard collapse of the levee on the south side of the lake.''
    Now, we have two communications that this is accurate, one 
to the Chief of Staff of the Secretary, the other to the Deputy 
Secretary of the Department. You are saying that Mr. Brown 
didn't communicate with the Secretary or with you or whatever. 
What else should have been done? Could he reasonably expect 
that if the Chief of Staff and the Deputy Secretary are both 
informed, that the necessary subordinates in the agency are 
going to also be informed?
    General Broderick. Sir, those were e-mails sent in the 
middle of the night----
    Senator Dayton. No, not in the middle of the night. 9:27 
and 11:05 p.m.
    General Broderick. Yes, sir, in the late evening. I don't 
disagree, but all I'm saying is if they were urgent messages 
that needed to be conveyed, I would have thought they would 
have called and not sent an e-mail. That person may not, for 
whatever reason, have been near their computer. I had 500 to 
600 e-mails on my computer after the----
    Senator Dayton. There is an emergency going on. People went 
home and just left their computers----
    General Broderick. No, sir. What I'm saying is they may 
have been engaged in other activities and not reading their e-
mail. I think if the urgency of the call----
    Senator Dayton. I understand that neither of you can 
corroborate. I would like to find out from those two 
principals, Mr. Chairman, whether they received those, and if 
not, when they received them, and your point is well taken, 
although I don't know what the communications capabilities were 
at that point in time.
    Senator Lieberman [presiding]. Senator Dayton, you are 
right on. I was going to say that. They probably had difficulty 
with the phone service, but a lot of the BlackBerrys were still 
working so that the e-mail really mattered in that moment.
    Senator Dayton. I would think in the middle of this kind of 
emergency--and, again, you both have been in military combat 
situations where, if somebody departs, somebody else is 
monitoring the situation.
    General Broderick, you then returned, you said, Tuesday 
morning and became whatever it was at that time when you 
returned. Mr. Secretary, you testified that you didn't become 
aware of the situation of the breaches there until 11:30 a.m. 
Tuesday morning. What was transpiring from the time you arrived 
until the time you were informed?
    General Broderick. Again, I say that's a failure on my part 
not to have informed Mr. Stephan earlier. It's my job to make 
sure that everyone knows what's going on. I was trying to--when 
I came in that morning about 6 o'clock, I realized the gravity 
of the situation, or what I perceived to be the gravity of the 
situation, and I was trying to get some quick ground truth 
before we activated the IIMG and brought all those people in.
    Senator Dayton. Well, the quick ground truth was apparent 
if you turned on the television, with all due respect. It was 
5\1/2\ hours later before--I am trying to understand because we 
have set the structure up, and the structure has been 
criticized. I don't fault either of you individually, but if 
the structure is such that you can't get an e-mail at 9:27 p.m. 
or 11:05 p.m. communicated to the Secretary until after he 
arrives in Atlanta midday the next morning or next day, and if 
you don't find out until 11:30 a.m. what is transparently clear 
just by anybody looking--you don't need to send satellites, 
just turn on CNN.
    I don't understand where all this disconnect occurred, and 
I don't think it is appropriate or fair to criticize Mr. Brown 
for that failure. I think he is being made the scapegoat, and I 
think that is very inappropriate. He communicated--somebody 
communicated to the Chief of Staff, to the Deputy Secretary. 
And if that wasn't communicated to you, if somebody didn't read 
their e-mail until whenever, and you came in at 6 a.m., and you 
became aware of this information, and Colonel Stephan wasn't 
informed until 11:30 a.m., that is not Mr. Brown's 
responsibility, in my judgment.
    General Broderick. I wasn't aware of the information that 
you mentioned, sir. I was aware that there was a serious 
situation, and it was my job to get some clarity. And, yes, 
sir, in hindsight, I probably should have notified Mr. Stephan 
earlier.
    Colonel Stephan. Sir, I'd like to add on to that. The first 
time I saw that particular message was actually in the 
newspaper this morning, so this is the first time I'm being 
informed about that particular correspondence. If you've ever 
been inside one of these Operations Centers, there's just a lot 
of information coming in. On Monday, the first day--I'm sorry, 
the day of landfall, in all of the other 3 years of experience 
I've had at DHS headquarters in terms of storms hitting, there 
is a very real lack of clarity, a very real lack of accurate 
assessments coming in from the field. They range in status from 
there is nothing going on here that's out of the normal to the 
sky is falling. And it's a question of trying to figure out 
what is the truth in all of that.
    And, sir, I would like to just say one more thing. I'm a 
professional guy here. I've got a 24-year military background. 
I'm not putting anybody on the stand as a scapegoat. But in 
that training, I've learned that I'm accountable and 
responsible for certain things in my area. And if I knew 
something as a squadron commander and I didn't immediately 
notify my wing commander personally, that guy should fire me. I 
mean, that's just unbelievable.
    Senator Dayton. Well, we are Monday morning quarterbacking 
here. As I said yesterday to the Secretary of Defense, I 
paraphrased President Eisenhower--any eighth-grade student of 
history can make better decisions with perfect hindsight than 
any President or General can at the time in the middle of the 
battle. So I acknowledge that. But it seems to me very 
different to say that you have conflicting reports or different 
information, and you are trying to sort through that, from 
saying that, as you said here in your testimony, there is lack 
of situational awareness on the ground. Mr. Bahamonde was on 
the ground. Mr. Brown, according to published reports, is in a 
helicopter on Tuesday flying over the situation. I mean, you 
may have been getting different information, and I can 
understand if that is information paralysis. But that is very 
different from saying that there weren't people on the ground.
    I am trying to figure out what is it about this that we can 
apply to the future. I am not trying to blame anybody as much 
as I am trying to understand--but we had the same thing happen 
on September 11. I mean, both of these were catastrophic 
events, but that is what the Department is set up to do. And 
you had people on September 11 who didn't turn on the 
television and see that the World Trade towers were down. They 
were with FAA, not related to you.
    So here we have a situation were people are not--either 
they think they are communicating and other people are not 
getting the communications. We have a President of the United 
States--and I take him at his word--who didn't know until 
Tuesday, midday, what people in his--according to testimony, 
his top aides were told Monday night. We have a Secretary who 
went to Atlanta, evidently didn't know what was being 
communicated, reportedly, to his Chief of Staff and Deputy 
Secretary.
    So, you can set up any structure you want in the world, but 
if people don't communicate to one another, don't act, as you 
know, in a military situation immediately and don't communicate 
that instantly, then they don't have an effective response.
    Colonel Stephan. Sir, according to Mr. Brown's own 
testimony that I watched in another room here this morning, he 
admitted that he was running a parallel information system that 
had nothing to do with the National Response Plan.
    Senator Dayton. Well, he was communicating directly with 
the White House, with the top aides there, he said himself with 
the President. But, again, I am going by this report here that 
they're also e-mailing. I mean, at some point somewhere along 
the line, somebody gets these. Maybe he should have picked up--
you are saying he should have picked up the phone and called 
you out of bed in the middle of the night, General. I am just 
trying to understand. What did he fail to do?
    Colonel Stephan. Sir, I am going to say if he had a 
critical information piece that's the whole nugget that we're 
all waiting for, confirmed, catastrophic flooding of the entire 
New Orleans downtown area, that to me is something that you 
just casually don't post to an e-mail and send to 
administrative headquarters somewhere light years away. You 
pick up the phone and say, ``Boss, Secretary Chertoff, this is 
going down right here. It's serious. This is the one we've all 
been waiting for.'' Why did he not do that?
    Senator Dayton. Fair enough.
    General Broderick. And, sir, just to clarify that, too, put 
a little more clarity on that, when we came in Tuesday, we 
realized it was serious. And we are taking a lot of steps now 
to fix that. But the problem was we knew there was flooding, 
but we didn't know what steps were being done to take care of 
that flooding and to what degree, and that was a major problem 
we were trying to find out. Is the Corps out there? We found 
out later that the Corps couldn't fly immediately with their 
helos to drop the 15,000-pound sandbags because of the flight 
restrictions of the weather. There were a lot of things that we 
found out later, and we were trying to find out--we know it's 
bad, but who's doing something about it and what's being done?
    Senator Dayton. I know, Mr. Chairman, when September 11 
occurred, all of us Members of the Senate, except for a couple 
who were whisked away to various locations, were totally out of 
communication. This BlackBerry doesn't tell me half the time 
when we have a vote, and I certainly don't expect it is going 
to tell me if anything else occurs what is really going on. We 
had at that time agencies like the FAA and NORTHCOM and others 
who weren't able to communicate. Somebody called one line and 
the line was busy.
    I mean, one of the critical questions I would have here, 
again, trying to apply this to the future, is, Do you have a 
secure means of communication, a reliable means of 
communication with whoever is there, with somebody else? 
Because, again, if people don't communicate effectively with 
one another, then it doesn't matter what the structure is.
    General Broderick. I agree, sir, and that's my job. And 
believe me, we've made some significant push since then.
    One little footnote. The e-mail to John Wood never mentions 
a breach in the levee.
    Senator Dayton. I am sorry. John Wood is who, sir?
    General Broderick. The Chief of Staff.
    Senator Dayton. OK. Thank you. Thank you both.
    Thank you, Mr. Chairman.
    Senator Lieberman. Senator Dayton, thank you for an 
excellent line of questioning and for some statements that 
express certainly my feelings about what happened here. And I 
appreciate hearing that you are working on making it better 
because the totality of our investigation, including the 
testimony today, is unsettling because it shows us that the 
systems that we set up after September 11 failed us on that 
day.
    These are two pictures that Marty Bahamonde \1\--talk about 
ground truth. You can see the levees are broken. This is as 
clear as day. He is up in a helicopter. This was taken about 
5:30 on the day of landfall, and then, of course, the second 
picture is the ground-truth reality, which is New Orleans, 5:30 
Monday afternoon, is flooded. And for the reasons that we have 
all gone over today, the system didn't adequately tell the two 
of you or apparently the President or apparently the Secretary 
of Homeland Security that this was happening, so that on that 
day you would have had more situational awareness to respond.
---------------------------------------------------------------------------
    \1\ Photographs taken by Marty Bahamonde, Exhibit S, appear in the 
Appendix on page 335.
---------------------------------------------------------------------------
    So I simply thank you for your testimony today and your 
willingness to accept some accountability, and I hope you have 
the same urgent sense that we do that we better get this right. 
Part of the problem, ironically, is the extraordinary flow of 
information coming in. But we have to figure out how to see the 
warning lights when they go off and share those warning lights 
so we can protect the safety and in this case the lives of the 
American people.
    Anyway, I thank you. The hearing record will remain open 
for 15 days.
    I now have the unusual pleasure as Acting Chairman of 
declaring this hearing adjourned. Thank you.
    [Whereupon, at 1:54 p.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              

           PREPARED STATEMENT OF SENATOR GEORGE V. VOINOVICH
    Today the Committee on Homeland Security and Governmental Affairs 
holds its 18th hearing on the preparation and response to Hurricane 
Katrina, the costliest natural disaster in our Nation's history.
    The impact and wake of the storm devastated New Orleans and the 
Gulf Coast. For example, it was noted at yesterday's hearing that 
Hurricane Katrina's high winds and subsequent flooding caused what the 
FCC called ``extraordinary'' destruction of communications facilities. 
Almost three million telephone lines were knocked down, 38 emergency 
call centers were put out of action, and more than 1,000 cell towers 
were left useless. This is but one illustration of the damage caused to 
the region's critical infrastructure.
    In the days immediately following the hurricane, I urged people to 
refrain from allocation of blame. Finger pointing and political attacks 
are not constructive. Instead, we must objectively identify our 
weaknesses and learn from our mistakes to better prepare for the 
certain event of another disaster.
    Madam Chairman, I commend the thoroughness of the full Committee 
investigation. I am confident that these hearings will provide us with 
the information necessary to better guide preparation and mitigation 
efforts in the future.
    I am most interested in learning from today's witnesses what 
happened to FEMA during the last several years. Specifically, did the 
agency's merger into the Department of Homeland Security damage its 
institutional capabilities to respond to disasters? Did FEMA have the 
necessary resources in terms of budget and experienced personnel to get 
the job done? I believe that these questions are just as important as 
examining FEMA's leadership role and response in the days leading up to 
and following the land-fall of Hurricane Katrina.
    It is likely the senior career leadership at FEMA will need to be 
replenished and rebuilt. I understand that following FEMA's integration 
with DHS, several individuals in leadership positions within FEMA left 
the agency. The number of full time permanent senior executive service 
employees decreased from 50 in FY2002 to 31 today. It is unclear what 
effect this may have had on FEMA's response in the Gulf Coast.
    Madam Chairman, it is clear that rebuilding the workforce and 
institutional ability of FEMA to swiftly and comprehensively respond to 
disasters of all types is one of the challenges before us. I look 
forward to working with you to accomplish this goal.

[GRAPHIC] [TIFF OMITTED] T7029.001

[GRAPHIC] [TIFF OMITTED] T7029.002

[GRAPHIC] [TIFF OMITTED] T7029.003

[GRAPHIC] [TIFF OMITTED] T7029.004

[GRAPHIC] [TIFF OMITTED] T7029.005

[GRAPHIC] [TIFF OMITTED] T7029.006

[GRAPHIC] [TIFF OMITTED] T7029.007

[GRAPHIC] [TIFF OMITTED] T7029.008

[GRAPHIC] [TIFF OMITTED] T7029.009

[GRAPHIC] [TIFF OMITTED] T7029.010

[GRAPHIC] [TIFF OMITTED] T7029.011

[GRAPHIC] [TIFF OMITTED] T7029.012

[GRAPHIC] [TIFF OMITTED] T7029.013

[GRAPHIC] [TIFF OMITTED] T7029.014

[GRAPHIC] [TIFF OMITTED] T7029.015

[GRAPHIC] [TIFF OMITTED] T7029.016

[GRAPHIC] [TIFF OMITTED] T7029.017

[GRAPHIC] [TIFF OMITTED] T7029.018

[GRAPHIC] [TIFF OMITTED] T7029.019

[GRAPHIC] [TIFF OMITTED] T7029.020

[GRAPHIC] [TIFF OMITTED] T7029.021

[GRAPHIC] [TIFF OMITTED] T7029.022

[GRAPHIC] [TIFF OMITTED] T7029.023

[GRAPHIC] [TIFF OMITTED] T7029.024

[GRAPHIC] [TIFF OMITTED] T7029.025

[GRAPHIC] [TIFF OMITTED] T7029.026

[GRAPHIC] [TIFF OMITTED] T7029.027

[GRAPHIC] [TIFF OMITTED] T7029.028

[GRAPHIC] [TIFF OMITTED] T7029.029

[GRAPHIC] [TIFF OMITTED] T7029.030

[GRAPHIC] [TIFF OMITTED] T7029.031

[GRAPHIC] [TIFF OMITTED] T7029.032

[GRAPHIC] [TIFF OMITTED] T7029.033

[GRAPHIC] [TIFF OMITTED] T7029.034

[GRAPHIC] [TIFF OMITTED] T7029.035

[GRAPHIC] [TIFF OMITTED] T7029.036

[GRAPHIC] [TIFF OMITTED] T7029.037

[GRAPHIC] [TIFF OMITTED] T7029.038

[GRAPHIC] [TIFF OMITTED] T7029.039

[GRAPHIC] [TIFF OMITTED] T7029.040

[GRAPHIC] [TIFF OMITTED] T7029.041

[GRAPHIC] [TIFF OMITTED] T7029.042

[GRAPHIC] [TIFF OMITTED] T7029.043

[GRAPHIC] [TIFF OMITTED] T7029.044

[GRAPHIC] [TIFF OMITTED] T7029.045

[GRAPHIC] [TIFF OMITTED] T7029.046

[GRAPHIC] [TIFF OMITTED] T7029.047

[GRAPHIC] [TIFF OMITTED] T7029.048

[GRAPHIC] [TIFF OMITTED] T7029.049

[GRAPHIC] [TIFF OMITTED] T7029.050

[GRAPHIC] [TIFF OMITTED] T7029.051

[GRAPHIC] [TIFF OMITTED] T7029.052

[GRAPHIC] [TIFF OMITTED] T7029.053

[GRAPHIC] [TIFF OMITTED] T7029.054

[GRAPHIC] [TIFF OMITTED] T7029.055

[GRAPHIC] [TIFF OMITTED] T7029.056

[GRAPHIC] [TIFF OMITTED] T7029.057

[GRAPHIC] [TIFF OMITTED] T7029.058

[GRAPHIC] [TIFF OMITTED] T7029.059

[GRAPHIC] [TIFF OMITTED] T7029.060

[GRAPHIC] [TIFF OMITTED] T7029.061

[GRAPHIC] [TIFF OMITTED] T7029.062

[GRAPHIC] [TIFF OMITTED] T7029.063

[GRAPHIC] [TIFF OMITTED] T7029.064

[GRAPHIC] [TIFF OMITTED] T7029.065

[GRAPHIC] [TIFF OMITTED] T7029.066

[GRAPHIC] [TIFF OMITTED] T7029.067

[GRAPHIC] [TIFF OMITTED] T7029.068

[GRAPHIC] [TIFF OMITTED] T7029.069

[GRAPHIC] [TIFF OMITTED] T7029.070

[GRAPHIC] [TIFF OMITTED] T7029.071

[GRAPHIC] [TIFF OMITTED] T7029.072

[GRAPHIC] [TIFF OMITTED] T7029.073

[GRAPHIC] [TIFF OMITTED] T7029.074

[GRAPHIC] [TIFF OMITTED] T7029.075

[GRAPHIC] [TIFF OMITTED] T7029.076

[GRAPHIC] [TIFF OMITTED] T7029.077

[GRAPHIC] [TIFF OMITTED] T7029.078

[GRAPHIC] [TIFF OMITTED] T7029.079

[GRAPHIC] [TIFF OMITTED] T7029.080

[GRAPHIC] [TIFF OMITTED] T7029.081

[GRAPHIC] [TIFF OMITTED] T7029.082

[GRAPHIC] [TIFF OMITTED] T7029.083

[GRAPHIC] [TIFF OMITTED] T7029.084

[GRAPHIC] [TIFF OMITTED] T7029.085

[GRAPHIC] [TIFF OMITTED] T7029.086

[GRAPHIC] [TIFF OMITTED] T7029.087

[GRAPHIC] [TIFF OMITTED] T7029.088

[GRAPHIC] [TIFF OMITTED] T7029.089

[GRAPHIC] [TIFF OMITTED] T7029.090

[GRAPHIC] [TIFF OMITTED] T7029.091

[GRAPHIC] [TIFF OMITTED] T7029.092

[GRAPHIC] [TIFF OMITTED] T7029.093

[GRAPHIC] [TIFF OMITTED] T7029.094

[GRAPHIC] [TIFF OMITTED] T7029.095

[GRAPHIC] [TIFF OMITTED] T7029.096

[GRAPHIC] [TIFF OMITTED] T7029.097

[GRAPHIC] [TIFF OMITTED] T7029.098

[GRAPHIC] [TIFF OMITTED] T7029.099

[GRAPHIC] [TIFF OMITTED] T7029.100

[GRAPHIC] [TIFF OMITTED] T7029.101

[GRAPHIC] [TIFF OMITTED] T7029.102

[GRAPHIC] [TIFF OMITTED] T7029.103

[GRAPHIC] [TIFF OMITTED] T7029.104

[GRAPHIC] [TIFF OMITTED] T7029.105

[GRAPHIC] [TIFF OMITTED] T7029.106

[GRAPHIC] [TIFF OMITTED] T7029.107

[GRAPHIC] [TIFF OMITTED] T7029.108

[GRAPHIC] [TIFF OMITTED] T7029.109

[GRAPHIC] [TIFF OMITTED] T7029.110

[GRAPHIC] [TIFF OMITTED] T7029.111

[GRAPHIC] [TIFF OMITTED] T7029.112

[GRAPHIC] [TIFF OMITTED] T7029.113

[GRAPHIC] [TIFF OMITTED] T7029.114

[GRAPHIC] [TIFF OMITTED] T7029.115

[GRAPHIC] [TIFF OMITTED] T7029.116

[GRAPHIC] [TIFF OMITTED] T7029.117

[GRAPHIC] [TIFF OMITTED] T7029.118

[GRAPHIC] [TIFF OMITTED] T7029.119

[GRAPHIC] [TIFF OMITTED] T7029.120

[GRAPHIC] [TIFF OMITTED] T7029.121

[GRAPHIC] [TIFF OMITTED] T7029.122

[GRAPHIC] [TIFF OMITTED] T7029.123

[GRAPHIC] [TIFF OMITTED] T7029.077

[GRAPHIC] [TIFF OMITTED] T7029.124

[GRAPHIC] [TIFF OMITTED] T7029.125

[GRAPHIC] [TIFF OMITTED] T7029.126

[GRAPHIC] [TIFF OMITTED] T7029.127

[GRAPHIC] [TIFF OMITTED] T7029.128

[GRAPHIC] [TIFF OMITTED] T7029.129

[GRAPHIC] [TIFF OMITTED] T7029.130

[GRAPHIC] [TIFF OMITTED] T7029.131

[GRAPHIC] [TIFF OMITTED] T7029.132

[GRAPHIC] [TIFF OMITTED] T7029.133

[GRAPHIC] [TIFF OMITTED] T7029.134

[GRAPHIC] [TIFF OMITTED] T7029.135

[GRAPHIC] [TIFF OMITTED] T7029.136

[GRAPHIC] [TIFF OMITTED] T7029.137

[GRAPHIC] [TIFF OMITTED] T7029.138

[GRAPHIC] [TIFF OMITTED] T7029.139

[GRAPHIC] [TIFF OMITTED] T7029.140

[GRAPHIC] [TIFF OMITTED] T7029.141

[GRAPHIC] [TIFF OMITTED] T7029.142

[GRAPHIC] [TIFF OMITTED] T7029.143

[GRAPHIC] [TIFF OMITTED] T7029.144

[GRAPHIC] [TIFF OMITTED] T7029.145

[GRAPHIC] [TIFF OMITTED] T7029.146

[GRAPHIC] [TIFF OMITTED] T7029.147

[GRAPHIC] [TIFF OMITTED] T7029.148

[GRAPHIC] [TIFF OMITTED] T7029.149

[GRAPHIC] [TIFF OMITTED] T7029.150

[GRAPHIC] [TIFF OMITTED] T7029.151

[GRAPHIC] [TIFF OMITTED] T7029.152

[GRAPHIC] [TIFF OMITTED] T7029.153

[GRAPHIC] [TIFF OMITTED] T7029.154

[GRAPHIC] [TIFF OMITTED] T7029.155

[GRAPHIC] [TIFF OMITTED] T7029.156

[GRAPHIC] [TIFF OMITTED] T7029.157

[GRAPHIC] [TIFF OMITTED] T7029.158

[GRAPHIC] [TIFF OMITTED] T7029.159

[GRAPHIC] [TIFF OMITTED] T7029.160

[GRAPHIC] [TIFF OMITTED] T7029.161

[GRAPHIC] [TIFF OMITTED] T7029.162

[GRAPHIC] [TIFF OMITTED] T7029.163

[GRAPHIC] [TIFF OMITTED] T7029.164

[GRAPHIC] [TIFF OMITTED] T7029.165

[GRAPHIC] [TIFF OMITTED] T7029.166

[GRAPHIC] [TIFF OMITTED] T7029.167

[GRAPHIC] [TIFF OMITTED] T7029.168

[GRAPHIC] [TIFF OMITTED] T7029.169

[GRAPHIC] [TIFF OMITTED] T7029.170

[GRAPHIC] [TIFF OMITTED] T7029.171

[GRAPHIC] [TIFF OMITTED] T7029.172

[GRAPHIC] [TIFF OMITTED] T7029.173

[GRAPHIC] [TIFF OMITTED] T7029.174

[GRAPHIC] [TIFF OMITTED] T7029.175

[GRAPHIC] [TIFF OMITTED] T7029.176

[GRAPHIC] [TIFF OMITTED] T7029.177

[GRAPHIC] [TIFF OMITTED] T7029.178

[GRAPHIC] [TIFF OMITTED] T7029.179

[GRAPHIC] [TIFF OMITTED] T7029.180

[GRAPHIC] [TIFF OMITTED] T7029.181

[GRAPHIC] [TIFF OMITTED] T7029.182

[GRAPHIC] [TIFF OMITTED] T7029.183

[GRAPHIC] [TIFF OMITTED] T7029.184

[GRAPHIC] [TIFF OMITTED] T7029.185

[GRAPHIC] [TIFF OMITTED] T7029.186

[GRAPHIC] [TIFF OMITTED] T7029.187

[GRAPHIC] [TIFF OMITTED] T7029.188

[GRAPHIC] [TIFF OMITTED] T7029.189

[GRAPHIC] [TIFF OMITTED] T7029.190

[GRAPHIC] [TIFF OMITTED] T7029.191

[GRAPHIC] [TIFF OMITTED] T7029.192

[GRAPHIC] [TIFF OMITTED] T7029.193

[GRAPHIC] [TIFF OMITTED] T7029.194

[GRAPHIC] [TIFF OMITTED] T7029.195

[GRAPHIC] [TIFF OMITTED] T7029.196

[GRAPHIC] [TIFF OMITTED] T7029.197

[GRAPHIC] [TIFF OMITTED] T7029.198

[GRAPHIC] [TIFF OMITTED] T7029.199

[GRAPHIC] [TIFF OMITTED] T7029.200

[GRAPHIC] [TIFF OMITTED] T7029.201

[GRAPHIC] [TIFF OMITTED] T7029.202

[GRAPHIC] [TIFF OMITTED] T7029.203

[GRAPHIC] [TIFF OMITTED] T7029.204

[GRAPHIC] [TIFF OMITTED] T7029.205

[GRAPHIC] [TIFF OMITTED] T7029.206

[GRAPHIC] [TIFF OMITTED] T7029.207

[GRAPHIC] [TIFF OMITTED] T7029.208

[GRAPHIC] [TIFF OMITTED] T7029.209

[GRAPHIC] [TIFF OMITTED] T7029.210

[GRAPHIC] [TIFF OMITTED] T7029.211

[GRAPHIC] [TIFF OMITTED] T7029.212

[GRAPHIC] [TIFF OMITTED] T7029.213

[GRAPHIC] [TIFF OMITTED] T7029.214

[GRAPHIC] [TIFF OMITTED] T7029.215

[GRAPHIC] [TIFF OMITTED] T7029.216

[GRAPHIC] [TIFF OMITTED] T7029.217

[GRAPHIC] [TIFF OMITTED] T7029.218

[GRAPHIC] [TIFF OMITTED] T7029.219

[GRAPHIC] [TIFF OMITTED] T7029.220

[GRAPHIC] [TIFF OMITTED] T7029.221

[GRAPHIC] [TIFF OMITTED] T7029.222

[GRAPHIC] [TIFF OMITTED] T7029.223

[GRAPHIC] [TIFF OMITTED] T7029.224

[GRAPHIC] [TIFF OMITTED] T7029.225

[GRAPHIC] [TIFF OMITTED] T7029.226

[GRAPHIC] [TIFF OMITTED] T7029.227

[GRAPHIC] [TIFF OMITTED] T7029.228

[GRAPHIC] [TIFF OMITTED] T7029.229

[GRAPHIC] [TIFF OMITTED] T7029.230

[GRAPHIC] [TIFF OMITTED] T7029.231

[GRAPHIC] [TIFF OMITTED] T7029.232

[GRAPHIC] [TIFF OMITTED] T7029.233

[GRAPHIC] [TIFF OMITTED] T7029.234

[GRAPHIC] [TIFF OMITTED] T7029.235

[GRAPHIC] [TIFF OMITTED] T7029.236

[GRAPHIC] [TIFF OMITTED] T7029.237

[GRAPHIC] [TIFF OMITTED] T7029.238

[GRAPHIC] [TIFF OMITTED] T7029.239

[GRAPHIC] [TIFF OMITTED] T7029.240

[GRAPHIC] [TIFF OMITTED] T7029.241

[GRAPHIC] [TIFF OMITTED] T7029.242

[GRAPHIC] [TIFF OMITTED] T7029.243

[GRAPHIC] [TIFF OMITTED] T7029.244

[GRAPHIC] [TIFF OMITTED] T7029.245

[GRAPHIC] [TIFF OMITTED] T7029.246

[GRAPHIC] [TIFF OMITTED] T7029.247

[GRAPHIC] [TIFF OMITTED] T7029.248

[GRAPHIC] [TIFF OMITTED] T7029.249

[GRAPHIC] [TIFF OMITTED] T7029.250

[GRAPHIC] [TIFF OMITTED] T7029.251

[GRAPHIC] [TIFF OMITTED] T7029.252

[GRAPHIC] [TIFF OMITTED] T7029.253

[GRAPHIC] [TIFF OMITTED] T7029.254

[GRAPHIC] [TIFF OMITTED] T7029.255

[GRAPHIC] [TIFF OMITTED] T7029.256

[GRAPHIC] [TIFF OMITTED] T7029.257

[GRAPHIC] [TIFF OMITTED] T7029.258

                                 <all>

</pre></body></html>
